SIGAR
SPECIAL INSPECTOR GENERAL


                                                                                                          SIGAR                  Special Inspector General for   JULY 30,




                                 SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | JULY 30, 2009
FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                 Afghanistan Reconstruction       2009
2221 South Clark Street
Suite #800
Arlington, VA 22202-3712




                                 3                                                                        QUARTERLY REPORT TO THE UNITED STATES CONGRESS
                                                                         SIGAR
                               Special Inspector General for Afghanistan Reconstruction




                                     The National Defense Authorization Act (P.L. 110-181) established
                                     the Special Inspector General for Afghanistan Reconstruction (SIGAR).

                                     SIGAR’s mission is to enhance oversight of programs for the reconstruc-
                                     tion of Afghanistan by conducting independent and objective audits,
                                     inspections, and investigations on the use of taxpayer dollars and related
                                     funds and by keeping the Congress, as well as the Secretaries of State and
                                     Defense, currently informed of reconstruction progress and weaknesses.
                                     Afghanistan reconstruction includes any major contract, grant, agreement,
                                     or other funding mechanism entered into by any department or agency
                                     of the U.S. government that involves the use of amounts appropriated, or
                                     otherwise made available for the reconstruction of Afghanistan with any
                                     private entity to: build or rebuild physical infrastructure in Afghanistan;
                                     establish or re-establish political or societal institutions of Afghanistan;
                                     provide products or services to the people of Afghanistan.a

                                     a P.L.   110-181 “National Defense Authorization Act for FY 2008,” 1/28/2008.




Cover Captions (clockwise):
An Afghan girl sits outside at her elementary school in Bamyan Province. (SIGAR photo)
An Afghan laborer works on the construction site of a new police academy in Bamyan Province. (SIGAR photo)
Afghans post campaign signs in preparation for the upcoming presidential and provincial council elections, the first run by Afghanistan’s Independent Election
Commission since the Taliban was overthrown. (UN photo)
Afghan National Police recruits participate in entry-level training at the Central Training Center in Kabul. U.S. forces play a role in training recruits, who attend an eight-week
program of instruction. (DoD photo)
                                Special Inspector General
                             for Afghanistan Reconstruction




July 30, 2009



It is with pleasure that I am submitting to the Congress the fourth quarterly report of the Office of
the Special Inspector General for Afghanistan Reconstruction (SIGAR). This report, which com-
plies with the requirements outlined in Section 1229 of P.L. 110-181, documents SIGAR’s progress
since the April 30, 2009, quarterly report. It also provides an update on the status of reconstruc-
tion programs in Afghanistan, for which funding since 2002 totals approximately $38 billion.
   SIGAR has made significant progress this quarter. We issued three audit reports and one in-
spection report and have seven additional audits and four inspections well under way. Our office
also initiated preliminary inquiries into 23 allegations of fraud, waste, and abuse. As of the end
of July, we increased our staff from 32 to 44, and we expect to hire 7 more professionals by the
end of August. With 11 auditors, 7 inspectors, and 4 investigators currently on board, SIGAR has
increased its capacity to provide oversight of reconstruction programs. In addition, I made two
trips to Afghanistan and met with officials from the U.S. Embassy, the international community,
and the Government of the Islamic Republic of Afghanistan (GIRoA), including President Hamid
Karzai, all of whom are involved in reconstruction efforts.
   The people of Afghanistan and the international community are focused on supporting the
upcoming presidential and provincial council elections and improving security. The August 20
elections—the second since the Taliban was removed from power and the first conducted by
Afghanistan’s Independent Election Commission (IEC)—are an important milestone in Afghani-
stan’s journey toward establishing a representative government that answers to the needs of its
citizens. The United States has committed significant resources to supporting the electoral pro-
cess, and SIGAR is making the use of these resources an oversight priority.
   In July, SIGAR provided one report to the U.S. Ambassador to Afghanistan, with a recom-
mendation to help strengthen Afghanistan’s electoral institutions’ capacity to manage elections.
Following the August elections, SIGAR will issue an audit report on the extent to which U.S.
and international assistance was used effectively and another report identifying lessons learned
that could facilitate future elections. We also will produce a report assessing the participation of
women in the elections.
   More than half of all reconstruction dollars have been allocated to build the Afghan
National Security Forces (ANSF). SIGAR’s audit examining the ability of the Combined Security



                2221 Clark Street, Suite 800         Arlington, Virginia 22202
Transition Command - Afghanistan (CSTC-A) to monitor contractor performance found that
CSTC-A, which is responsible for the training program, did not have the mechanisms in place to
ensure funds were managed effectively and spent wisely. The Commanding General of CSTC-A
concurred with our recommendations and is acting to establish proper contract management and
oversight processes. We are currently examining the controls and accountability mechanisms for
the Commander’s Emergency Response Program (CERP) and will complete our audit during the
next quarter.
   This quarterly report is divided into four sections. Section 1 discusses recent developments
pertaining to reconstruction. Section 2 describes SIGAR’s completed, ongoing, and planned
work. Section 3 provides an overview of the status of the reconstruction program under the three
pillars—security; governance, rule of law, and human rights; and economic and social develop-
ment—identified in the Afghanistan National Development Strategy (ANDS). Although the U.S.
agencies involved in rebuilding Afghanistan provided most of the information in this section,
SIGAR also drew on official documents, independent studies, and reports by international organi-
zations to compile as complete a picture as possible of the reconstruction effort in Afghanistan.
Section 4 offers a summary of work done by other oversight agencies.
   The Congress recently passed a bill that increased SIGAR funding and also provided a more
expedient hiring authority. On behalf of my office, I thank the Congress for providing the finan-
cial resources for SIGAR to successfully conduct oversight of the expanding reconstruction pro-
gram. My observations have led me to conclude that strong oversight of this program is critical to
achieving U.S. goals in Afghanistan.


Very respectfully,




Arnold Fields
Major General, USMC (Ret.)
Special Inspector General for Afghanistan Reconstruction




                 2221 Clark Street, Suite 800          Arlington, Virginia 22202
ISLAMIC REPUBLIC OF AFGHANISTAN
TABLE OF CONTENTS




       SECTION 1
       AFGHANISTAN OVERVIEW
       Elections                           4
       Security                            5
       Corruption                          6
       International Cooperation           7
       The Afghanistan-Pakistan Strategy   9
       Inter-agency Coordination           9




       SECTION 2
       SIGAR OVERSIGHT
       Audits                              13
       Inspections                         18
       Investigations                      23
       SIGAR Budget                        24




       SECTION 3
       RECONSTRUCTION
       UPDATE
       Status of Funds                     33
       Security                            45
       Governance                          63
       Economic and Social Development     83
TABLE OF CONTENTS




        SECTION 4
        OTHER AGENCY OVERSIGHT
         Completed Oversight Activities             101
         Ongoing Oversight                          102
         Other Agency Investigations                109
         Other Agency Inspections                   111




        APPENDICES
         Appendix A: Cross-reference of Report to
                     Statutory Requirements         114
         Appendix B: U.S. Government Appropriated
                     Funds                          118
         Appendix C: SIGAR Audits                   120
         Appendix D: SIGAR Inspections              121
         Appendix E: SIGAR Hotline                  122
         Appendix F: Acronyms and Definitions       123




        ENDNOTES                                    125
Nangarhar Provincial Reconstruction Team
An Afghan engineer talks with U.S. Air Force Capt. Paul
Frantz during a visit by the Nangarhar provincial recon-
struction team (PRT) to a local metal-working shop. The
team is responsible for helping the Government of the
Islamic Republic of Afghanistan (GIRoA) improve secu-
rity and governance and for promoting reconstruction in
Nangarhar Province. The PRT assesses community needs
and then builds schools, government centers, roads,
medical capability, and basic infrastructure throughout
Nangarhar; it also mentors Afghan government officials
and security forces to provide the Afghan people with the
state representation and security they need. (U.S. Air
Force photo, SSgt Joshua T. Jasper)
1          AFGHANISTAN
           OVERVIEW

Introduction: The Year of Transfer
    Rise in Income
    Expanding Iraqi Security Authority
    Afghanistan Reconstruction Update
    Afghanistan Audits
    Afghanistan Inspections
    Reconstruction Teams
    The Role of the International Community


Anticorruption Efforts


Security
    Security Conditions Still Hinder
    Reconstruction Activities
    Concerned Local Citizen Initiative


Legislative Developments


The Human Toll




                           1
         AFGHANISTAN OVERVIEW




   “Within Afghanistan, we must help
  grow the economy, while developing
    alternatives to the drug trade by
tapping the resilience and the ingenuity
of the Afghan people. We must support
 free and open national elections later
  this fall, while helping to protect the
 hard-earned rights of all Afghans. And
 we must support the capacity of local
      governments and stand up to
    corruption that blocks progress.”
              —U.S. President Barack Obama1




          2       SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                              AFGHANISTAN OVERVIEW




AFGHANISTAN OVERVIEW
The U.S. reconstruction mission in Afghanistan has expanded significantly
since the last quarterly report of the Special Inspector General for Afghanistan
Reconstruction (SIGAR) to Congress. U.S. President Barack Obama signed the
Supplemental Appropriation for FY 2009 (P.L. 111-32), raising the U.S. commit-
ment to rebuild Afghanistan to over $38 billion. This legislation also provided the
additional funding SIGAR needs this year to conduct its oversight mission. The
administration’s FY 2010 budget request likely will bring the investment in Afghan-
istan’s reconstruction close to $50 billion. As the funding to rebuild Afghanistan
increases, so will the demand for oversight, which is critical, not only to prevent
fraud, waste, and abuse, but also to ensure the reconstruction program is as suc-
cessful and cost-efficient as possible.
   Two strategies—the Afghanistan National Development Strategy (ANDS) and
the new U.S. government policy for stabilizing Afghanistan—provide the frame-
work for the U.S. reconstruction effort in Afghanistan and the work of SIGAR.
During this quarter the United States began executing its new strategy, which em-
phasizes inter-agency coordination, international cooperation, and the integration




Special Inspector General for Afghanistan Reconstruction Arnold Fields sat down with Bamyan
Provincial Governor Habiba Sorabi during his July 2009 visit to Afghanistan. Sorabi is the first
female governor of any Afghan province. Efforts to improve gender equality in Afghanistan are
one of the focuses of the U.S. reconstruction effort. (SIGAR photo)




               REPORT TO THE UNITED STATES CONGRESS        I   JULY 30, 2009              3
                                 AFGHANISTAN OVERVIEW




                                 of security and development assistance to promote a more capable, accountable,
                                 and effective government in Afghanistan. In addition to deploying more troops
                                 to improve security, the U.S. government also began recruiting more civilian ex-
                                 perts to expand provincial reconstruction teams (PRTs), district support teams,
                                 and the U.S. diplomatic presence in the provinces.
                                    Over the past quarter, the United States has focused on five key reconstruc-
 “The U.S. has no favorite       tion issues: elections, security, corruption, international coordination, and the
  candidate; our stance is       relationship between Afghanistan and Pakistan. SIGAR has completed work in
  neutral on the outcome.        two of these areas and has ongoing work in four of them. SIGAR’s mandate does
                                 not include assistance to Pakistan. However, SIGAR will be examining the effect
  We are encouraging the         of cross-border programs, when they are implemented, on reconstruction in
Afghans to determine the         Afghanistan.
 issues, demand that can-
  didates explain the pro-
                                 ELECTIONS
  grams, and vote for the
future in an electoral pro-      The United States views the August 20, 2009, presidential and provincial coun-
  cess that is credible, se-     cil elections—the second in Afghanistan since the Taliban was removed from
                                 power, and the first to be conducted by the Independent Election Commission
cure, and inclusive. These       (IEC) of Afghanistan—as a critical step toward developing a government that is
  elections can show con-        accountable to its citizens.3 U.S. and international funding has been provided to
tinued evolution toward a        help Afghanistan build the institutional capacity to conduct not only these elec-
                                 tions but also future elections. Because of the importance attached to elections,
 government that reflects        SIGAR is conducting a comprehensive audit that will produce four separate
  and responds to Afghan         reports about aspects of the election process.
        popular will.”               SIGAR provided the first report, containing a recommendation for strengthen-
                                 ing the capacity of Afghanistan’s electoral institutions to manage elections, to the
     —Ambassador Richard C.      U.S. Ambassador to Afghanistan in July. SIGAR will issue the following addition-
            Holbrooke, Special   al reports over the next several months: 1) an assessment of the extent to which
                                 U.S. and international assistance was used effectively to support these elec-
            Representative for   tions and to develop a sustainable election process; 2) an analysis of the lessons
    Afghanistan and Pakistan2    learned, to improve the process for future elections; and 3) and an evaluation of
                                 the participation of women in these elections.
                                     The U.S. government has provided approximately $120 million to the United
                                 Nations (UN) for elections support.4 The UN Development Programme’s En-
                                 hancing Legal and Electoral Capacity for Tomorrow (UNDP-ELECT), the office
                                 managing and coordinating international donor support, including that from
                                 the United States, has budgeted $224 million to support the elections. USAID is
                                 funding separate election-related projects through a number of local monitoring
                                 groups, as well as through non-governmental organizations (NGOs) such as the
                                 International Republican Institute, the National Democratic Institute, and the
                                 International Foundation for Electoral Systems.




                                    4                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




Voter Registration and Election Safeguards
All Afghan citizens who voted in the 2004 and 2005 elections can use their regis-
tration cards for the upcoming elections. The IEC also conducted a four-phase
voter-registration campaign between October 2008 and February 2009 to allow
Afghan citizens who had lost their registration cards, moved within the country,
or become eligible to vote after 2005 to register. The IEC recently re-opened the
registration period for an additional 20 days in all 34 provinces. According to the
IEC, more than 4.5 million people, about 38% of whom are women, have regis-
tered in the past eight months. Approximately 17 million voter cards are now in
circulation.
   A number of safeguards are in place to protect the integrity of the 2009 elec-
tions, according to the IEC. Specifically, the IEC is planning to carefully track
and control the movement of sensitive materials, including ballots; use numbered
seals to close ballot boxes; and mark voters’ fingers with indelible ink to prevent
individuals from voting more than once.

Security for the Elections
Primary responsibility for providing security for the elections rests with the
Afghan National Security Forces (ANSF), backed by the International Security
Assistance Force (ISAF). A Joint Security Planning Group was established to
streamline planning among the ANSF, the ISAF, the Combined Security Transi-
tion Command - Afghanistan (CSTC-A), the IEC, and the UN. This planning group          U.S. and international groups are providing
                                                                                       aid to Afghanistan for elections support
is addressing issues concerning candidate security, the secure distribution of
                                                                                       in the run-up to the August 20, 2009,
election materials, the establishment of provincial operations command centers,        presidential and provincial elections—
and security for polling sites.                                                        the first orchestrated by Afghanistan’s
                                                                                       Independent Election Commission since
                                                                                       the Taliban was overthrown. (SIGAR photo)
SECURITY
Security continues to pose a major challenge to the reconstruction effort in Af-
ghanistan. The UN reported an increased number of security incidents, especially
in the southern and eastern parts of Afghanistan, over the past three months. The
situation in Kandahar, where insurgents attacked the provincial council head-
quarters and the governor’s compound in separate incidents in April and May
this year, has caused particular concern.5 During this reporting period the United
States began deploying additional troops to improve security in the troubled
provinces in the south and east, bordering Pakistan.
   At the same time, the United States also took important steps toward achiev-
ing its primary strategic goal to build Afghan National Army (ANA) and Afghan
National Police (ANP) forces capable of ultimately assuming full responsibility
for the security of the country. Of the approximately $5 billion provided for Af-
ghanistan reconstruction in P.L. 111-32, more than $3.6 billion will go to train and
equip the ANSF. This money will be used to accelerate efforts to build a 134,000-
strong ANA and an ANP force of 86,800 by 2011. More than half of the $38 billion




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009         5
AFGHANISTAN OVERVIEW




ANA Maj. Gen. Mohammad Dawran thanks U.S. Air Force MSgt Richard Woods, director of the
senior leaders maintenance course, for explaining a storyboard depicting an Afghan deploy-
ment. Dawran, commander of the Afghan National Army Air Corps, is visiting the installation to
learn more about the Air Education and Training Command’s air advisor course. (U.S. Air Force
photo, SSgt Nathan G. Bevier)


in reconstruction dollars appropriated since 2002 has been allocated for building
the ANA and ANP.
   CSTC-A, in conjunction with the Government of the Islamic Republic of
Afghanistan (GIRoA), and U.S. coalition partners, is the joint command respon-
sible for the management of U.S. programs to develop the ANSF. Because of the
importance the United States attaches to the training mission, SIGAR’s first audit
reviewed CSTC-A’s management of a $404 million contract to provide training
and training support for the ANSF in 17 locations throughout Afghanistan. The
audit found CSTC-A did not have the capability to ensure U.S. funds were man-
aged properly and spent wisely.
   CSTC-A concurred with the findings of the audit and responded that it was
acting to establish proper contract management and oversight processes. In July,
SIGAR learned that a team of contract specialists from the Defense Contract
Management Agency had arrived in Afghanistan to deal with the issues raised in
the audit. On July 17, 2009, the CSTC-A commander informed SIGAR that, as a re-
sult of the issues raised in the audit report, the contract specialists were conduct-
ing a review of the contract management and oversight for all CSTC-A contracts
funded by the ASFF.


CORRUPTION
The United States and its partners in the international community continue to
be concerned about public corruption in Afghanistan. Afghan officials, includ-


   6                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                             AFGHANISTAN OVERVIEW




ing President Hamid Karzai, have asked SIGAR to help them reduce corruption.
SIGAR cannot provide anticorruption training to the Afghans, but it can provide
an independent and objective assessment of capabilities and assistance to reduce
corruption. SIGAR has two audits under way to evaluate the GIRoA’s capacity
at the national and provincial levels to establish the internal controls and the
accountability measures needed to deter corruption. These audits are assessing
U.S. and international efforts to develop the GIRoA’s capacity to deter corrup-
tion. They are also examining how Afghan officials at the national and local
levels control and account for the flow of funds. SIGAR will publish the first in a
series of findings later this year.


INTERNATIONAL COOPERATION
The U.S. strategy for Afghanistan and Pakistan emphasizes increasing interna-
tional dialogue and integrating international assistance. Since announcing the
strategy earlier this year, the United States has participated in several interna-
tional conferences that focused on stabilizing Afghanistan. Each of these meet-
ings endorsed the central role that the UN Assistance Mission to Afghanistan
(UNAMA) has in coordinating international aid to Afghanistan. U.S. officials say
they are working with the international donor community—increasingly, under
the auspices of UNAMA—to develop a common framework to guide and inte-
grate international aid to Afghanistan.6
   In his recent report to the UN Security Council, the UN Secretary-General
said donor coordination has improved, in part as a result of greater international
consensus on reconstruction objectives. He noted that the Joint Control




U.S. and international assistance is expanding access to education and health care for Afghan
children, including girls. (SIGAR photo)




              REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2009              7
AFGHANISTAN OVERVIEW




Special Inspector General for Afghanistan Reconstruction Arnold Fields visits a women’s
prison, where young children are allowed to stay with their incarcerated mothers. One of the
goals of the ANDS is to reform the prison system and create better facilities for women and
children. (SIGAR photo)



Monitoring Board (JCMB), which was established in 2006 to coordinate interna-
tional assistance with the GIRoA, has also made progress.7 Over the past three
months, JCMB has approved police reform measures, adopted a new agricultural
development strategy, and established priorities for private sector development.8
    International coordination of projects is essential to maximize the impact of re-
construction dollars. SIGAR has begun a series of sector audits to examine the de-
gree to which projects have been coordinated across U.S. government agencies,
as well as with other international donors. The first of these audits is evaluating
assistance to the energy sector. SIGAR will issue this report in the next quarter.
    The 26 provincial reconstruction teams (PRTs)—12 led by the United States
and 14 by coalition allies—play an important role in the international effort to
stabilize and rebuild Afghanistan. In June 2009, SIGAR attended the second an-
nual PRT conference, which brought together the civilian and military leadership
of the North Atlantic Treaty Organization (NATO) and non-NATO members of
ISAF to improve international coordination of reconstruction projects. SIGAR
is inspecting the management and operational capabilities of all the PRTs in
Afghanistan. It began this series of inspections with the PRT in Farah Province
and will issue a report during the next quarter. SIGAR is currently inspecting the
Parwan-Kapisa PRT, which is located at the Bagram Air Base.




    8                 SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




THE AFGHANISTAN-PAKISTAN STRATEGY
Because U.S. decision-makers believe conditions and events in Pakistan have an
impact on developments in Afghanistan, they are encouraging greater coopera-
tion between the two countries and seeking increased assistance for Pakistan as
well as Afghanistan.9 In May, the United States brought the military and civilian
leaders of Afghanistan and Pakistan together to discuss greater regional coop-
eration. As a result of these trilateral consultations, Pakistan and Afghanistan
pledged to reach a trade agreement by the end of the year, open two additional
border posts, increase cooperation in the agricultural sector, and accelerate
cross-border infrastructure projects. These developments will likely affect recon-
struction programs on the Afghan side of the border.


INTER-AGENCY COORDINATION
SIGAR is coordinating its audits, inspections, and investigations with other in-
spectors general and audit agencies through several forums. The Southwest Asia
Joint Planning Group meets every three months and prepares quarterly reports
on audit and inspection activities in Southwest Asia, including Afghanistan. A
newly formed sub-group of the Southwest Asia Joint Planning Group meets peri-
odically to discuss ongoing and planned work in Afghanistan and Pakistan. This
planning group seeks to prevent duplication of effort and ensure that all impor-
tant oversight issues are being addressed. Finally, SIGAR participates in meetings
held every three weeks at the U.S. Forces - Afghanistan (USFOR-A) headquarters
to coordinate oversight activities in Afghanistan.
   SIGAR investigators and attorneys also collaborate closely with their law-
enforcement colleagues in other U.S. government agencies. SIGAR is a member
of the International Contract Corruption Task Force (ICCTF), the principal orga-
nization coordinating federal criminal and civil cases that involve procurement
fraud and corruption related to U.S. government spending in Southwest Asia.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009        9
An Afghan reporter speaks with women about the
importance of having radios and listening to the news.
(U.S. Army photo, SPC Phoebe R. Allport)
2   SIGAR
    OVERSIGHT




       11
   “To ensure that our programs
 operate according to the highest
  standards of effectiveness and
  integrity, we are committed to
    supporting the efforts of the
Congressionally-mandated Special
   Inspector General for Afghan
 Reconstruction (SIGAR), as well
as the Government Accountability
 Office (GAO) and State, USAID,
  and DoD Inspectors General.”
   —Ambassador Richard C. Holbrooke,
           Special Representative for
          Afghanistan and Pakistan10




        12      SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                         SIGAR OVERSIGHT




AUDITS
SIGAR issued three audit reports this quarter and has seven other audits
under way. These audits cover a spectrum of reconstruction issues, including
contract oversight, program management, and contractor performance, as
well as reconstruction activities to improve security, foster good governance,
and support economic development. Two of the audits were initiated recently
to examine the U.S. and international efforts to strengthen the Afghan govern-
ment’s capacity at the national and provincial levels to establish internal con-
trols and provide the accountability that is critical to preventing corruption.
   SIGAR believes that an important part of its oversight mission is to identify
issues in real time and bring them to the attention of implementing agencies,
so they can make immediate program adjustments to improve the effective-
ness of the reconstruction program. In this spirit, SIGAR provided the U.S.
Embassy in Kabul with a report recommending measures to strengthen
Afghanistan’s capacity to conduct elections. An audit examining the funding
and implementation of programs related to the August 20, 2009, presidential
and provincial council elections will be completed after the elections. SIGAR
will also issue a report assessing the participation of women in the election
process.
   The three audit reports issued during this quarter identified problems with
contract oversight, information management, and capacity building.



COMPLETED AUDIT REPORTS

Contract Oversight Capabilities of the Defense Department’s
Combined Security Transition Command - Afghanistan
(CSTC-A) Need Strengthening, SIGAR Audit 09-1
More than half of all U.S. reconstruction dollars provided for Afghanistan
since 2002 have gone into training, equipping, and deploying the Afghan Na-
tional Security Forces (ANSF). The Combined Security Transition Command
- Afghanistan (CSTC-A), in conjunction with the Government of the Islamic
Republic of Afghanistan (GIRoA) and U.S. coalition partners, is the joint




            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009      13
SIGAR OVERSIGHT




command responsible for the management of U.S. programs to develop the
ANSF, which includes the Afghan National Army (ANA) and the Afghan Na-
tional Police (ANP).
   SIGAR’s review of CSTC-A’s management of a $404 million contract to
provide training and training support for the ANSF in 17 locations through-
out Afghanistan found that although CSTC-A is responsible for the manage-
ment of the training programs for the ANSF, it does not have the capability to
ensure that U.S. funds are managed effectively and spent wisely. At the time
of the audit, CSTC-A had only one contracting officer’s technical representa-
tive (COTR) located in Afghanistan to provide contract oversight. That official
had limited contracting experience and training, and had been unable to make
field visits to monitor contractor performance.
   Because a lack of oversight increases the likelihood that training funds
may not be used as intended, SIGAR recommended that CSTC-A strengthen
its oversight capabilities. Specifically, SIGAR suggested CSTC-A:
• obtain management staff who have the qualifications and training to con-
    duct contract oversight work
• develop a program for contract oversight that includes visits to the field
    where the contractor is providing services

   CSTC-A concurred with the findings of the audit and responded that it was
acting to establish proper contract management and oversight processes.
CSTC-A also said it viewed SIGAR’s audit as a mechanism to help it obtain
the resources required to monitor the contract effectively. In July, during a
follow-up visit to CSTC-A, SIGAR learned that a team of contract specialists
from the Defense Contract Management Agency had arrived in Afghanistan to
conduct a review of the contract management and oversight for all CSTC-A
contracts funded through the ASFF.

UN Action Urged To Strengthen Afghanistan Capacity To
Support Future Elections, SIGAR Audit 09-2
SIGAR issued a letter report on July 6, 2009, related to the preparation and
conduct of presidential and provincial council elections. Public distribution of
the letter report is limited until after the August 2009 elections.

Management Information Systems Available to
Reconstruction Decision-Makers in Afghanistan, SIGAR
Audit 09-3
SIGAR’s review of the management information systems of the key U.S. agen-
cies and commands in Afghanistan found that no single management




  14               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                         SIGAR OVERSIGHT




information system provides full and accurate information of all finished,
ongoing, and planned reconstruction activities. Having this information would
help decision-makers to plan, coordinate, monitor, and report on reconstruc-
tion activities, and, if necessary, take corrective action. The lack of an inte-
grated management information system increases the risk that U.S. resources
may be wasted either through duplication of effort or because projects are in
conflict with each other.
    Five agencies and commands—the Department of State (DoS), the U.S.
Agency for International Development (USAID), U.S. Forces - Afghanistan
(USFOR-A), CSTC-A, and the U.S. Army Corps of Engineers’ Afghanistan
Engineer District—play major roles in the implementation of U.S.-funded re-
construction programs in Afghanistan. While each of these organizations said
it uses established information systems for financial and accounting purpos-
es, SIGAR found the availability and use of information systems for project
management varied significantly and did not allow agencies and commands
to easily share information about projects. Instead, most sharing of informa-
tion between the agencies and commands occurred at periodic meetings and
through ad hoc reports and presentations. Senior representatives from the
main U.S. entities operating in Afghanistan agreed they would all benefit if
they had access to a system that provided a common operating picture of the
status of reconstruction projects.
    USAID, at the direction of the National Security Council Deputies Com-
mittee in late 2008, completed a study in June 2009 assessing the feasibil-
ity of a joint information management system for reconstruction activities.
The USAID study provided recommendations that could form the basis for
a broader coordinated effort to develop a robust system to share informa-
tion on the reconstruction effort in Afghanistan. However, additional work,
coordinated among the key U.S. implementing agencies, is now needed to
jointly develop an integrated management information system for Afghanistan
reconstruction activities.
    SIGAR has recommended the reconstruction stakeholders appoint an
executive agent to coordinate the development of an integrated information
system that takes into account the various systems currently used to collect
reconstruction data and also identifies the resources needed to implement
and sustain a new system.




            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009      15
SIGAR OVERSIGHT




ONGOING AUDITS

Agencies’ Management Oversight, Procedures, and Practices
for Reconstruction Funds and Projects
SIGAR is conducting individual audits of implementing agencies’ capacity
to provide oversight of the reconstruction funds that have been allocated to
them. The first of these audits examine CSTC-A’s contract oversight capabil-
ity. The second is examining how USAID provides oversight of contracts for
Afghanistan reconstruction. Auditors are reviewing USAID’s current contract
files as well as prior work done by the Government Accountability Office
(GAO), the USAID Office of the Inspector General (USAID OIG), and the
Commission on Wartime Contracting concerning USAID contract oversight
and project requirement issues.

Contractor Performance and Agency Oversight of
U.S. Government Contracts in Afghanistan with Louis
Berger Group
SIGAR auditors are reviewing the contracts that U.S. agencies have with the
Louis Berger Group. The audit, which is assessing the agencies’ oversight of
the contractor as well as contractor performance, is scheduled for completion
during the third quarter of 2009.

U.S. and International Donor Programs To Assist
Afghanistan’s Energy Sector
SIGAR has begun its program to assess the overall management and effective-
ness of the U.S. and international effort in various reconstruction sectors.
This audit, which is focusing on programs to rebuild Afghanistan’s energy
sector, seeks to identify U.S. and international goals for the reconstruc-
tion and sustainment of Afghanistan’s energy sector. It will determine what
performance metrics are being used to track and measure outcomes rather
than outputs and examine the degree to which reconstruction programs in
the energy sector support objectives established in the Afghanistan National
Development Strategy (ANDS). SIGAR auditors are also assessing the coor-
dination between U.S. and international agencies, and the degree to which
Afghans have participated in the design and implementation of projects. This
report will be completed during the next quarter.




  16              SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




Controls and Accountability for the Commander’s Emergency
Response Program (CERP)
SIGAR auditors are examining the management controls and procedures in
place to ensure that the Commander’s Emergency Response Program (CERP)
funds are properly accounted for as well as used to support program objec-
tives and mission strategies.

Review of U.S. Assistance for the Preparation and Conduct of
Presidential and Provincial Council Elections in Afghanistan
SIGAR is conducting a multi-part evaluation of the election process in Afghan-
istan. In the first part, auditors are assessing the U.S. and international assis-
tance provided for the presidential and provincial council elections scheduled
to take place on August 20, 2009. SIGAR is examining the effectiveness of the
programs to prepare for the elections in several areas, including voter regis-
tration, voter education, polling center security, ballot box integrity, and vote-
counting procedures. This audit will be released after the elections.
   As noted above, SIGAR believes an important part of its mission is to make
the overall reconstruction program more effective. Therefore, SIGAR has
already delivered a report to the U.S. Embassy both to provide information to
implementing agencies and to allow them to make real-time adjustments to
increase program effectiveness. After the elections, SIGAR will also issue a
report assessing the participation of women in the electoral process.
   Later this year, SIGAR will issue an audit report that identifies lessons
learned that may be applied to future elections.

Review of Oversight and Anticorruption Capabilities and
Performance of the Afghan Central Government; U.S. and
Other Donor Efforts To Strengthen the Capabilities; and
Funds That May Be at Risk
Recognizing that corruption has become a very serious issue affecting the
reconstruction effort, SIGAR is conducting an audit of U.S. and international
assistance to the GIRoA at the national level, to establish internal controls
and provide the accountability needed to combat corruption. This audit also
will evaluate the ability of selected Afghan ministries to control and account
for the flow of funds. It seeks to identify the funds at risk in certain ministries,
assess the U.S. and international efforts to develop Afghan capacity to fight
corruption, and provide recommendations to strengthen the internal controls
and accounting mechanisms needed to ensure the effective and transparent
management of government funds. SIGAR plans to publish a series of reports
on this issue. The first will be released in the next quarter.



             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009         17
                                            SIGAR OVERSIGHT




                                            Review of Accountability and Anticorruption Capabilities
                                            and Performance of Afghan Provincial Governments; U.S.
                                            and Other Donor Efforts to Strengthen the Capabilities; and
                                            Funds That May Be at Risk
                                            Whereas the preceding audit is assessing the anticorruption assistance and
                                            capabilities in the central government, this audit is examining the capacity of
                                            Afghan officials at the provincial level to apply internal controls and account
                                            for funds under their control. SIGAR is evaluating both U.S. and international
                                            efforts to improve provincial government internal controls and accountabil-
                                            ity, which are critical to preventing corruption. It is also assessing options to
                                            strengthen the capacity at the provincial level to implement internal controls
                                            and other anticorruption measures.
                                                SIGAR plans to produce multiple reports, each one focusing on a province.
                                            The first report will be issued later this year.



                                            INSPECTIONS
                                            SIGAR issued one inspection report and initiated four inspections—two of
                                            PRTs and two of infrastructure projects—during this reporting period. The
                                            inspection of the Khowst City Power System identified several issues, includ-
                                            ing a high turnover of personnel involved in reconstruction projects that has
                                            resulted in a loss of institutional knowledge about projects, inadequate quality
                                            assurance and quality control measures, and insufficient training for Afghan
                                            operators to sustain projects.



                                            COMPLETED INSPECTIONS

                                            Improvements to the Khowst City Power System, SIGAR
                                            Inspections 09-1
                                            At the request of the Khowst provincial and city governments, the Khowst
                                            PRT initiated a $1.6 million project, funded by CERP, to improve the Khowst
                                            City Power System. The PRT divided the project into two contracts. The first
                                            contract, valued at $575,000, was to repair the existing power plant (Power
The three new 500-kW generators at the      Plant 1), build a second power plant (Power Plant 2), purchase and install
Khowst Power Plant as they appeared         three new 500-kW generators at Power Plant 1, and relocate an existing 400-
during the SIGAR inspection visit on May    kW generator to Power Plant 2. The second contract, valued at slightly more
16, 2009. Of these three new generators,    than $1 million, was to expand the underground electric grid within the city
only two are operational; the third is
                                            of Khowst. Collectively, the two projects were to add 1.5 MW to the local grid
awaiting replacement parts. (SIGAR photo)




                                              18               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                         SIGAR OVERSIGHT




and provide increased access to power for the residents and businesses of
Khowst.
   SIGAR conducted the inspection in May 2009 after a preliminary site visit
earlier this year raised concerns about safety and sustainability issues at
Power Plant 1. SIGAR found that the expansion of the electrical distribution
system had been successfully completed in compliance with the second con-
tract. However, SIGAR identified several issues relating to the first contract
that needed to be addressed. These issues concern plant safety, quality assur-
ance, and sustainability:
• The statements of work provided to the contractors did not include inter-
   nationally accepted construction codes for the contractors to follow. The      A 400-kV distribution panel as rewired by
   PRT did not include the installation of any safety equipment, such as that     Afghan plant operators at Khowst Power
   needed to fight fires, in the project’s statement of work.                     Plant 1. (SIGAR photo)
• The contractor did not fully comply with the terms of the contract, using
   sub-standard building materials in some areas.
• The PRT did not provide the quality assurance needed to ensure that the
   contractor met the technical requirements specified in the statement of
   work.
• A key mechanism needed to synchronize the newly installed generators
   failed shortly after the project was turned over to the Afghan authorities.
   Unable to repair the synchronizer mechanism, the plant operator bypassed
   it and wired two of the generators directly to the power distribution panel.
   As a result, two of the generators were running constantly and one of
   the newly installed generators was out of commission at the time of the
   inspection.
• The military’s rotation schedule meant that the PRT experienced a com-
   plete turnover of its military personnel every nine months. During these
                                                                                  A rusted fuel tank resting on rocks is used
   rotations, the PRT claimed that some records and documents were lost.
                                                                                  as the fuel reservoir for Khowst City Power
   Consequently, SIGAR found the PRT had a limited institutional memory           Plant 2 instead of the two new 6,000-liter
   about this reconstruction project.                                             fuel tanks that should have been installed
                                                                                  in accordance with the project design.
  SIGAR made the following recommendations and the PRT commander                  (SIGAR photo)
concurred with them. The PRT should:
• identify and correct the safety and technical deficiencies at the power
   plants
• assign qualified personnel to provide oversight of the follow-on CERP proj-
   ects to correct the safety hazards and technical deficiencies of the Khowst
   Power System
• provide training and mentoring of local power plant management and per-
   sonnel to build capacity so that long-term maintenance and sustainability
   of the Khowst Power System are addressed
• review its other CERP projects to determine whether it is providing
   adequate project oversight and adequate training and mentoring to build
   capacity for long-term project sustainment




            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009     19
SIGAR OVERSIGHT




   The PRT commander concurred with SIGAR’s findings and recommenda-
tions and said the PRT had procured additional CERP funding to address
deficiencies in the Khowst City Power System.



CURRENT INSPECTIONS

Operations and Management Inspections of the Provincial
Reconstruction Teams
SIGAR has initiated a program of inspections of the management and opera-
tional capabilities in Afghanistan. The PRTs’ principal mission is to strengthen
local governance and foster economic development; they play a key role in
the international effort to stabilize Afghanistan. They also help coordinate
the reconstruction effort in the provinces, not only between U.S. agencies
but also with the international community and the local Afghan authorities.
Of the 26 PRTs, 12 are led by the United States and 14 are led by other coun-
tries that are also part of the International Security Assistance Force (ISAF).
SIGAR has conducted one PRT inspection and will issue a report during the
next quarter. It has begun a second PRT inspection and plans to complete two
others in 2009.
   These inspections seek to determine whether the PRT is:
• staffed at levels that allow it to conduct its mission
• staffed with inter-agency representation at appropriate levels of seniority
    and experience
• appropriately equipped, resourced, and trained to accomplish its mission
• coordinating reconstruction efforts with inter-agency partners, Afghan
    authorities, and other stakeholders
• executing the U.S. government’s quality assurance program for projects for
    which the PRT is responsible
• creating and maintaining appropriate files and documentation for projects
    for which it is responsible
• complying with established guidelines, procedures, and policies required to
    ensure an effective handover and transfer of tasks to successive PRT staff


Operations and Management Inspection of the Farah PRT
SIGAR began its series of inspections of the operations and management of
the PRTs throughout Afghanistan in Farah, a western province that borders
Iran. SIGAR selected the Farah PRT for its first inspection because of its
remote location and unique command-and-control relationship with ISAF.




  20               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




SIGAR sought to determine whether the PRT was adequately resourced and
staffed to execute programs to improve security, foster good governance, and
support economic development.
   The Farah PRT was created in late 2004 and became operational in early
2005 under direct U.S. military command. Italy, a coalition partner in ISAF,
assumed responsibility for the Regional Command West in 2005 and took over
operational control of the PRT at that time. Administrative control of the PRT,
however, remained with the U.S. military. Farah is one of two U.S.-led PRTs
that reports to a non-U.S. command.
   The Farah PRT, unlike other PRTs, also has been assigned a number of
tasks not related to reconstruction. They include managing an isolated for-
ward operating base (FOB) and local airfield, as well as administering a large
area that houses numerous agencies and organizations that are not under the
control of the PRT. Only 15% of the more than 600 residents on the base fall
under the authority of the PRT commander. SIGAR will issue this report dur-
ing the next quarter.


Operations and Management Inspection of the
Parwan-Kapisa PRT
SIGAR has commenced an inspection of management aspects of the Parwan-
Kapisa PRT, which is located at the Bagram Air Base. The report will be
completed later this year.



INFRASTRUCTURE INSPECTIONS
While in Farah Province, SIGAR conducted two inspections of U.S.-funded
infrastructure projects and will issue final reports during the next quarter. The
first is a $1.75 million CERP project to build a bridge (the Tojg Bridge) across
the Farah River at a crossing point about 37 miles southwest of the city of
Farah. SIGAR is assessing whether the project, which began in September
2007 and is about 30% complete, is being built to contract specifications.
   The second inspection is of a joint project implemented by the Farah PRT
and USAID to refurbish broadcast facilities to expand the coverage of Radio
Television Afghanistan, the state-run media organization. The PRT used CERP
funds to repair the facilities and USAID funds to rebuild the transmission tow-
ers. A complete report assessing whether the project fulfilled the terms of the
contract, functions as intended, and is sustainable will be issued next quarter.




            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009       21
SIGAR OVERSIGHT




PLANNED INSPECTIONS
SIGAR has notified USAID that it will inspect the $259 million Kabul Power
Plant. This USAID-funded project was designed to build a power plant and
switching station that could deliver 105 MW of power to the people of Kabul.
USAID reports that it has obligated $237 million to date. The GIRoA has pro-
vided $20 million for this project.11
   SIGAR will review the documents used to establish the requirements for
U.S. funding of the Kabul Power Plant, all relevant contracts, statements of
work, and task orders, as well as the contractor’s quality control records and
the U.S. government’s quality assurance records.
   SIGAR is planning two other infrastructure inspections, one of an ANP
training center and the other of a hydroelectric power plant.



THE SIGAR HOTLINE
The SIGAR hotlines in Afghanistan and the United States received 30 calls
reporting issues and complaints during this reporting period. SIGAR evalu-
ates each call that concerns reconstruction activities in Afghanistan. Of these,
SIGAR has referred three complaints to other agencies for investigation.
   SIGAR has launched a media campaign to inform people in Afghanistan
about its hotline/complaints reporting service. SIGAR distributed about 1,500
posters in English, Dari, and Pashtu to Afghan government offices, interna-
tional organizations, PRT commanders, and USFOR-A. Radio Free Afghani-
stan, the Armed Forces Network, and Voice of America ran public service
announcements about the hotline in English, Dari, and Pashtu. In addition,
the Inspector General discussed the hotline in his interviews with Afghan
media during his recent trip to Afghanistan.




  22               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                         SIGAR OVERSIGHT




INVESTIGATIONS
During this reporting period, SIGAR initiated preliminary inquiries into 23
allegations of fraud, waste, and abuse related to Afghanistan reconstruction
activities. The areas of inquiry include possible shipping fraud, weapons ac-
countability, fuel procurements, and heavy-equipment leases. SIGAR inves-
tigators are also evaluating allegations of contractor misconduct, including
false claims and overpayments.
   Remedies for resolving cases involving fraud, waste, and abuse include
not only criminal and civil prosecution but also administrative actions (fed-
eral procurement contract remedies and suspensions/debarments). The
Department of Justice (DoJ) has directed prosecutors to consider all reme-
dies. SIGAR has met with the DoJ Civil Attorney and the Army’s Procurement
Fraud Branch to ensure civil remedies and suspension and debarment
actions are considered and pursued to the maximum extent possible in
appropriate cases.



THE INTERNATIONAL CONTRACT CORRUPTION
TASK FORCE (ICCTF)
SIGAR investigators are working closely with the ICCTF, the principal organi-
zation coordinating federal cases that involve contract fraud and corruption
related to U.S. government spending in Southwest Asia. As of June 30, 2009,
the ICCTF had 25 open “Afghanistan Procurement Fraud” cases. Five of these
were initiated in 2009.
   The ICCTF reports to the International Sub-Committee of DoJ’s National
Procurement Fraud Task Force. Other members of the ICCTF are:
• Federal Bureau of Investigation (FBI)
• DoD DCIS
• U.S. Army Criminal Investigation Command’s (CID) Major Procurement
   Fraud Unit
• Naval Criminal Investigative Service (NCIS)
• Air Force Office of Special Investigations (AFOSI)
• DoS, Office of the Inspector General (DoS OIG)
• USAID OIG
• Special Inspector General for Iraq Reconstruction (SIGIR)

   In Afghanistan, the ICCTF has offices in Kabul, Bagram, and Kandahar.
Each member of the ICCTF deploys agents to these combined offices to work
jointly on investigations in Afghanistan. In addition to doing casework, the




            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009    23
SIGAR OVERSIGHT




agents are also conducting fraud awareness briefings and risk assessments.
The ICCTF enables the investigative agencies to share their respective exper-
tise, leverage their resources, and minimize duplication of effort, not only in
Afghanistan but throughout the world.
   During this reporting period, SIGAR worked with colleagues in the ICCTF
on cases involving fraud and corruption. These cases are at various stages of
investigation and prosecution. For example:
• In cooperation with military authorities, SIGAR investigated allegations
    that an active-duty soldier had accepted bribes for directing reconstruc-
    tion contracts. This case has been referred to the Army Staff Judge Advo-
    cate. A courts martial prosecution under the Uniform Code of Military
    Justice may result.
• SIGAR is reviewing complaints concerning an Afghan government official
    allegedly involved in influence-peddling.

Afghanistan reconstruction cases currently being prosecuted include:
• Two DoD contractors and their company were charged variously with
   bribery and conspiracy related to U.S. Army Corps of Engineers contracts.
   The case is being investigated by the ICCTF and prosecuted by DoJ’s Anti-
   trust Division. The indictment was filed on May 6, 2009. Trial is scheduled
   for September 2009.
• DoJ’s Criminal Division Fraud Section is prosecuting a case emanating
   from the Rehabilitation of Economic Facilities Program, in which a secu-
   rity contractor is charged with submitting inflated expenses to the prime
   contractor which, ultimately, were submitted to the U.S. government.
   USAID is the lead investigative agency. Trial is set for September 2009.



SIGAR BUDGET
The Supplemental Appropriation for FY 2009 (P.L. 111-32), signed by the U.S.
president in June, provided $7.2 million to SIGAR over two years to address
the organization’s budget shortfall. SIGAR had submitted a request for this
amount to the Office of Management and Budget to be included in the supple-
mental appropriation. With the additional funding, SIGAR’s budget for FY
2009 totals $23.2 million. The supplemental funding allows SIGAR to hire an
additional 25 full-time equivalents (FTEs) as well as locally employed staff
(interpreters). This staff is critical to SIGAR’s mission to conduct indepen-
dent audits, inspections, and investigations of the reconstruction program in
Afghanistan. See Table 2.1 for a SIGAR funding summary.




  24               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                          SIGAR OVERSIGHT




SIGAR STAFF
Since its last quarterly report to Congress, SIGAR has significantly enhanced
its capacity to conduct oversight, increasing the number of federal employees
on its staff from 32 to 44.12 SIGAR expects to hire an additional three auditors,
one inspector, two investigators, and one information technology manager by
the end of August 2009.


TABLE 2.1


 SIGAR FUNDING SUMMARY ($ MILLIONS)
Appropriation                             Public Law     Appropriated Made Available       Expires   Amount
Supplemental Appropriations for Fiscal    P.L. 110-252    6/30/2008       6/30/2008     9/30/2009      $2.0
Year 2008, HR2642
Supplemental Appropriations for Fiscal    P.L. 110-252    6/30/2008       10/1/2008     9/30/2009      $5.0
Year 2008, HR2642
Consolidated Security, Disaster As-       P.L. 110-329    9/30/2008       9/30/2008     9/30/2010      $9.0
sistance, and Continuing Appropriations
Act, 2009
Supplemental Appropriations for Fiscal    P.L. 111-32     6/24/2009       6/24/2009     9/30/2010      $7.2
Year 2009, HR2346
                                                                                           TOTAL     $23.2




                  REPORT TO THE UNITED STATES CONGRESS              I   JULY 30, 2009                25
Kunar Construction Center Graduates
Graduates of the Kunar Construction Center (funded
jointly by USAID and CERP) in eastern Afghanistan
received formal vocational training in carpentry, masonry,
electrical work, and painting. (USAID photo)
3   RECONSTRUCTION
    UPDATE




       27
 “As an Afghan-owned blueprint
       for the development of
     Afghanistan in all spheres
of human endeavor, the ANDS will
 serve as our nation’s…roadmap
   for the long-desired objective
of Afghanization, as we transition
 towards less reliance on aid and
   an increase in self-sustaining
         economic growth.”
      —Afghan President Hamid Karzai,
     describing the Afghanistan National
                  Development Strategy13




          28      SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                             RECONSTRUCTION UPDATE




RECONSTRUCTION UPDATE
Since 2002, the United States has provided over $38 billion for the reconstruction
of Afghanistan. Two strategies—the Afghanistan National Development Strategy
(ANDS) and the new U.S. strategy for Afghanistan—provide the framework
for the U.S. reconstruction effort. The ANDS, developed in consultation with
the international community, establishes benchmarks under three reconstruc-
tion pillars: security; governance, rule of law, and human rights; and economic
and social development. In addition, the ANDS identifies six issues—regional
cooperation, counter-narcotics, anticorruption, gender equality, capacity devel-
opment, and environment—that cut across all three pillars. The Government of
the Islamic Republic of Afghanistan (GIRoA) adopted the ANDS in 2008, and the
United States is committed to helping Afghanistan achieve the ANDS objectives.
   This section provides an update on the status of U.S. and international fund-
ing for the reconstruction of Afghanistan, as well as an update on reconstruction
efforts made under each of the three pillars. The sub-section on funding exam-
ines how funds set aside for reconstruction have been apportioned among U.S.
implementing agencies then describes activities under each of the three pillars of




The construction of Jurm School, a USAID-funded school construction project, has created jobs
for Afghan men. (USAID photo, Ben Barber)




              REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2009             29
RECONSTRUCTION UPDATE




the ANDS. The sub-section on security focuses on U.S. efforts to train the Afghan
National Security Forces (ANSF). The sub-section on governance, rule of law,
and human rights sets the stage for the upcoming presidential and provincial
council elections and describes anticorruption efforts. The last sub-section,
which describes the activities undertaken to promote economic and social devel-
opment, includes an update on counter-narcotic efforts.
   The information presented in this section incorporates U.S. government agen-
cies’ data and information, official reports, congressional testimony, and other
public sources. SIGAR has not independently verified the data. All sources are
identified in the endnotes.



THE AFGHANISTAN NATIONAL DEVELOPMENT
STRATEGY (ANDS)
GIRoA adopted the ANDS in 2008, after two years of consultations with a broad
range of Afghans as well as with the international community. Building on the
2006 Afghanistan Compact, the ANDS describes reconstruction objectives under
three pillars—security; governance, rule of law, and human rights; and economic
and social development—and establishes benchmarks for achieving the goals. It
also identifies six cross-cutting issues— regional cooperation, counter-narcotics,
anticorruption, gender equality, capacity building, and environmental manage-
ment—that need to be addressed as part of the overall development strategy.
   The ANDS establishes priorities for five years (2008–2013) in the three pillars,
described below. Figure 3.1 will be used to highlight the pillars and cross-cutting
issues throughout this section.

Security
The primary goal is to stabilize, with the help of the International Security Assis-
tance Force (ISAF), all regions of the country and increase the capability of the
ANSF to provide for Afghanistan’s security by 2010. This includes expanding the
ANSF—the Afghan National Army (ANA) and Afghan National Police (ANP)—
and ensuring that they represent and are accountable to the people of Afghani-
stan. In addition, the GIRoA seeks to strengthen its law-enforcement capacity at
both the central and provincial levels, increase its coordination and intelligence-
sharing with neighbors to reduce narcotic trafficking, and clear 70% of the area
contaminated by land mines and unexploded ordnance.

Governance, Rule of Law, and Human Rights
The ANDS emphasizes strengthening government institutions at the central and
sub-national levels to improve the delivery of public services and protect the
rights of all citizens. The long list of goals in this pillar includes reforming the




  30                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                             RECONSTRUCTION UPDATE




justice sector and restructuring the civil service to ensure a fiscally sustainable
public administration. It also puts a high priority on developing the capacity of
the Afghanistan Independent Electoral Commission (IEC) to conduct elections,
implementing a national plan to expand female participation in governance,
reforming oversight procedures to prevent corruption, and repairing courts and
prisons.

Economic and Social Development
The ANDS goal is to reduce poverty by expanding the private sector while pro-
gressively eliminating the criminal economy. Private sector growth depends on
expanding the country’s infrastructure in the critical areas of electricity, trans-
portation, and water management. At the same time, the ANDS calls for training
and education programs to build capacity in both the public and private sectors.




FIGURE 3.1

AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY (ANDS)


                         SEC          GOV         DEVE                                Graphic Symbol: The graphic below
                            URIT         ERN          LOPM
                                 Y           ANC          ENT                         represents the three pillars of the ANDS
                                                E
                                                                                      and the six cross-cutting issues affecting
                                                                                      them. Throughout this section, the pillar
 REGIONAL COOPERATION                                                                 or cross-cutting issue under discussion is
                                                                                      highlighted in the margins.
 COUNTER-NARCOTICS
                                                                                                                    GOV   DEV
                                                                                                               SEC      E     EL
                                                                                                                  URIT RNANC OPMEN
                                                                                                                      Y     E     T
 ANTICORRUPTION
                                                                                           REGIONAL
                                                                                           COOPERATION

 GENDER EQUALITY                                                                           COUNTER-NARCOTICS

                                                                                           ANTICORRUPTION


 CAPACITY                                                                                  GENDER EQUALITY

                                                                                           CAPACITY

                                                                                           ENVIRONMENTAL
 ENVIRONMENTAL




                 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009     31
“The ability to implement the
projects and programs included
in the ANDS depends upon the
resources that will be available.”
               —Afghanistan National
                Development Strategy




          32     SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                STATUS OF FUNDS




STATUS OF FUNDS
On June 24, 2009, the President of the United States signed the FY 2009 Supple-
mental Appropriations Act, providing an additional $5.04 billion for the recon-
struction of Afghanistan, including $3.6 billion for the Afghan security forces.14
Including this recent appropriation, the United States has provided approximate-
ly $38 billion in relief and reconstruction assistance to Afghanistan.


U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
Since the United States and its partners overthrew the Taliban in 2001, the U.S.
Congress has passed several major appropriation bills to finance efforts to
rebuild Afghanistan. The Office of Management and Budget (OMB) has appor-
tioned the money to several agencies that are responsible for implementing U.S.
reconstruction efforts in Afghanistan. Figure 3.2 provides an overview of the
major U.S. funds contributing to Afghanistan reconstruction efforts.


FIGURE 3.2

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                                                       FUNDING SOURCES (TOTAL: $38.07)


         ASFF                      CERP                       ESF                     DA                           INCLE                           Other                  Supp.

        $15.06                     $1.62                     $7.63                  $0.89                          $1.99                           $5.84                 $5.04

                                                                                        AGENCIES

         Department of Defense (DoD)                                    USAID                           Department of State (DoS)              Distributed to            Awaiting
                  $16.68                                                $8.52                                   $1.99                         Multiple Agenciesa      Apportionmentb




                                                          AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY (ANDS)
                          Security                                                     Governance                                                       Development

             International Training Organizations                                           Elections                                               Essential Services
                 Afghan National Army (ANA)                                               Human Rights                                                  Agriculture
                Afghan National Police (ANP)                                    Judicial Reform and Prosecution                                  Industry Growth Banking
                                                                                           Rule of Law                                   Provincial Reconstruction Teams (PRTs)
                                                                                          Anticorruption


Note: Numbers affected by rounding. a DoJ, DoD, DoS, U.S. Treasury, USDA, USAID, and other agencies. b Supplemental passed as of 6/24/2009.
Sources: DoD, responses to SIGAR data call, 7/10/2009 and 7/13/2009. USAID, response to SIGAR data call, 7/9/2009. DoS, response to SIGAR data call, 7/2/2009. DoJ/DEA, response to SIGAR
data call, 7/8/2009. DoS, responses to SIGAR data call, 7/10/2009 and 7/13/2009. USDA, response to SIGAR data call, 4/7/2009. OMB, responses to SIGAR data call, 9/30/2008 and 7/16/2009.




                   REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2009                       33
                                                 STATUS OF FUNDS




                                                 •   Afghanistan Security Forces Fund (ASFF): $15.06 billion15
                                                 Administered by the Department of Defense (DoD), the ASFF provides support for
                                                 the training and equipping of the Afghan National Security Forces (ANSF).16


                                                 •   Commander’s Emergency Response Program (CERP): $1.62 billion17
                                                 Administered by DoD, CERP funds enable local U.S. commanders in Afghanistan
                                                 (and Iraq) to support programs and projects that provide assistance at a local
                                                 level.18


                                                 •   Economic Support Fund (ESF): $7.63 billion19
                                                 Administered by the U.S. Agency for International Development (USAID), the ESF
                                                 provides the largest amount of U.S. assistance for democracy and capacity-
                                                 building programs in Afghanistan.20


                                                 •   Development Assistance (DA): $0.89 billion21
                                                 Managed by USAID, DA programs support economic progress and social stability
                                                 in developing countries.22


                                                 •  International Narcotics Control and Law Enforcement Fund (INCLE):
                                                    $1.99 billion23
Graphic Symbol: This report deals with           Managed by the Department of State (DoS) Bureau of International Narcotics and
many funds and projects ranging from             Law Enforcement (INL), INCLE and other INL-managed funds focus primarily on
millions to billions of dollars. To provide an   supporting law enforcement and counter-narcotics programs.24
accurate graphical representation of these
numbers, some bar graphs appear with
a break (a wavy line) to indicate a jump
between zero and a higher number.
                                                 •  Other Funding: $5.84 billion25
                                                 Additional reconstruction funding is managed by DoD, DoS (including INL),
                                                 USAID, and the Department of Justice (DoJ) Drug Enforcement Agency (DEA).26


 $4,100




                                                 Graphic Symbol: Because this report
 $4,050                                          details funding in both millions and
                                                 billions of dollars, it uses a visual cue
                                                 to distinguish the two units. Dollars
                                                 reported in millions are represented
                                                 in brown, and dollars reported in billions
                                                 are depicted in blue.
     $0                                                                                       Pie chart in Millions      Pie chart in Billions




                                                  34                    SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                       STATUS OF FUNDS




AFGHANISTAN SECURITY FORCES FUND (ASFF)
                                                                                                                              ASFF
The DoD Combined Security Transition Command-Afghanistan (CSTC-A) uses
Afghanistan Security Forces Fund monies to provide the Afghan National Secu-
                                                                                                                              DoD
rity Forces (ANSF) with equipment, training, sustainment, counter-insurgency,
and infrastructure development.27
                                                                                                                         ASFF FUND TERMINOLOGY
Status of Funds                                                                                                          DoD reported ASFF funds as available,
As of June 30, 2009, nearly all of the $15.06 billion in funds made available for
                                                                                                                         obligated, or disbursed.32
the ASFF have been obligated ($14.90 billion). Approximately $14.69 billion
(more than 97% of funds available for the ASFF) has been disbursed.28 Figure 3.3                                         Available: Total monies available for commit-
depicts funds made available to the ASFF by fiscal year.                                                                 ments
   Since February 28, 2009, DoD has disbursed more than $1.93 billion in ASFF                                            Obligations: Commitments to pay monies
monies, and obligated an additional $2.07 billion.29 Figure 3.4 compares the                                             Disbursements: Monies that have been
status of funds for the second quarter (as of February 28, 2009) to the status of                                        expended
funds for the third quarter (as of June 30, 2009).

ASFF Budget Activities                                                                                                   FIGURE 3.5
The ASFF is divided into three budget activities: defense forces, interior forces,
and related activities.30 As shown in Figure 3.5, a majority of the ASFF funds                                           ASFF DISBURSEMENTS BY BUDGET
have been disbursed for defense forces, specifically for sustainment, infrastruc-                                        ACTIVITY, FY 2005–2009
                                                                                                                         ($ BILLIONS)
ture, training and operations, and equipment and transportation activities for the
Afghan National Army (ANA). Similarly, the ASFF monies disbursed for interior                                                                 Total: $14.69
forces support the same activity groups for the Afghan National Police (ANP).31

FIGURE 3.3                                             FIGURE 3.4

ASFF AVAILABLE FUNDS BY FISCAL YEAR                    ASFF FUNDS, PERIOD–TO–PERIOD                                                     Defense Forces
($ BILLIONS)                                           COMPARISON ($ BILLIONS)                                                          $9.35
                                                                                                          Available                                  Interior Forces
                                                                                                          $15.06                                      $5.28
$8.0                                                   $15.0                   Available                  Obligated
                                                                               $15.06                     $14.90
                                                                                                          Disbursed
$6.0                                                                                                      $14.69              Related Activities
                                                       $14.0
                                                                                                                              $0.07

$4.0                                                                           Obligated                                 Notes: Numbers affected by rounding and are as
                                                       $13.0                   $12.83                                    of 6/30/2009. ASFF funding terms (available, obligated,
                                                                                                                         disbursed) reported as provided by DoD
                                                                               Disbursed                                 except as specified.
$2.0                                                                           $12.76                                    Source: DoD, response to SIGAR data call, 7/10/2009.
                                                       $12.0


 $0                                                       $0
       2005      2006      2007     2008      2009               As of Feb 28, 2009         As of June 30, 2009


Notes: Numbers affected by rounding. ASFF funding      Notes: Data may include inter-agency transfers. Numbers
terms (available, obligated, disbursed) reported as    affected by rounding. ASFF funding terms (available, obligated,
provided by DoD except as specified.                   disbursed) reported as provided by DoD except as specified.
Source: DoD, response to SIGAR data call, 7/10/2009.   Sources: DoD, responses to SIGAR data call, 2/28/2009 and
                                                       7/10/2009.




                    REPORT TO THE UNITED STATES CONGRESS         I   JULY 30, 2009                          35
                                         STATUS OF FUNDS




                                         COMMANDER’S EMERGENCY RESPONSE PROGRAM (CERP)
          CERP
                                         CERP funds enable U.S. commanders in Afghanistan to respond to urgent hu-
                                         manitarian relief and reconstruction requirements in their areas of responsibility
    DoD
                                         by supporting programs that will immediately assist the local population. CERP
                                         is intended to be used for small-scale projects under $500,000 per project. Proj-
CERP FUND TERMINOLOGY                    ects over $2 million are permitted, but require approval from commanders, U.S.
                                         Central Command (CENTCOM), or their designees.34
DoD reported CERP funds as funded,
obligated, or disbursed.33
                                         Status of Funds
Funding: Total monies available for      Since FY 2004, CENTCOM35 has funded nearly $1.62 billion for CERP in Afghani-
commitments                              stan, including almost $0.54 billion in FY 2009. As of June 30, 2009, approximately
Obligations: Commitments to pay monies   $1.45 billion in CERP funding has been obligated, and nearly $0.81 billion (50% of
Disbursements: Monies that have been     funded amounts) has been disbursed.36 Figure 3.6 depicts CERP funding by fiscal
expended                                 year.
                                            This quarter (between April 1, 2009, and June 30, 2009), DoD disbursed nearly
                                         $0.13 billion in CERP funds and obligated almost $0.21 billion.37 Figure 3.7 com-
                                         pares CERP funded, obligated, and disbursed funds for the second quarter (as of
                                         March 31, 2009) and the third quarter (as of June 30, 2009).
                                         FIGURE 3.6                                                     FIGURE 3.7

                                         CERP FUNDING BY FISCAL YEAR                                    CERP FUNDS, PERIOD-TO-PERIOD
                                         ($ MILLIONS)                                                   COMPARISON ($ BILLIONS)

                                                                                                        $1.6                                        Funded
                                         $600
                                                                                                                                                    $1.62
                                                                                                        $1.5
                                                                                                                           Funded                   Obligated
                                         $500                                                           $1.4                                        $1.45
                                                                                                                           $1.44
                                                                                                        $1.3
                                         $400                                                                              Obligated
                                                                                                        $1.2               $1.25
                                                                                                        $1.1
                                         $300
                                                                                                        $1.0

                                                                                                        $0.9
                                         $200
                                                                                                                                                     Disbursed
                                                                                                        $0.8                                         $0.81

                                         $100                                                           $0.7               Disbursed
                                                                                                                           $0.68

                                            $0                                                            $0
                                                 2004 2005 2006 2007                 2008 2009                 As of Mar 31, 2009       As of June 30, 2009

                                         Notes: Data may include inter-agency transfers. Numbers        Notes: Numbers affected by rounding. CERP funding terms
                                         affected by rounding. CERP funding terms (funded, obligated,   (funded, obligated, disbursed) reported as provided by DoD
                                         disbursed) reported as provided by DoD except as specified.    except as specified.
                                         Source: DoD, response to SIGAR data call, 7/13/2009.           Sources: DoD, responses to SIGAR data call, 7/13/2009
                                                                                                        and 7/14/2009.




                                             36                         SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                                                             STATUS OF FUNDS




ECONOMIC SUPPORT FUND (ESF)
                                                                                                                                         ESF
ESF programs advance U.S. interests by helping countries meet short- and long-
term political, economic, and security needs. Programs range from supporting
                                                                                                                                          USAID
counter-terrorism to bolstering a nation’s private sector, to assisting in the devel-
opment of effective, accessible, independent legal systems for a more transpar-
ent and accountable government.38                                                                                         ESF FUND TERMINOLOGY

                                                                                                                          USAID reported ESF funds as appropriated,
Status of Funds
                                                                                                                          obligated, or disbursed.41
Since 2002, the Congress has appropriated approximately $7.57 billion to ESF
programs for Afghanistan. Of this amount, approximately $6.09 billion has been                                            Appropriations: Total monies available for
obligated and $4.17 billion disbursed (nearly 55% of the appropriated amount).39                                          commitments
Figure 3.8 shows ESF appropriations by fiscal year.                                                                       Obligations: Commitments to pay monies
   Since February 28, 2009, USAID has disbursed approximately $454 million and                                            Disbursements: Monies that have been
obligated more than $88 million.40 Figure 3.9 depicts appropriations, obligations,                                        expended
and disbursements for ESF.




FIGURE 3.8                                                   FIGURE 3.9

ESF APPROPRIATIONS BY FISCAL YEAR                            ESF FUNDS, PERIOD-TO-PERIOD
($ BILLIONS)                                                 COMPARISON ($ BILLIONS)

$2.5                                                                            Appropriated              Appropriated
                                                                                $7.57                     $7.57
                                                             $7.0

$2.0
                                                             $6.0               Obligated                  Obligated
                                                                                $6.00                      $6.09
$1.5
                                                             $5.0

$1.0
                                                             $4.0                                          Disbursed
                                                                                 Disbursed                 $4.17
                                                                                 $3.72
$0.5



 $0                                                           $0
       2002 03       04     05     06     07     08     09           As of Feb 28, 2009        As of June 30, 2009

Notes: Data may include inter-agency transfers. Numbers      Notes: Data may include inter-agency transfers. Numbers
affected by rounding. ESF funding terms (appropriated,       affected by rounding. EFF funding terms (appropriated,
obligated, disbursed) reported as provided by USAID except   obligated, disbursed) reported as provided by USAID except
as specified.                                                as specified.
Source: USAID, response to SIGAR data call, 7/9/2009.        Sources: USAID, responses to SIGAR data call, 2/28/2009
                                                             and 7/10/2009.




                    REPORT TO THE UNITED STATES CONGRESS              I   JULY 30, 2009                         37
                                             STATUS OF FUNDS




                                             DEVELOPMENT ASSISTANCE (DA)
                        DA
                                             Primarily managed by USAID, DA programs are designed to advance sustainable,
                                             broad-based economic progress and social stability in developing countries, in-
                USAID
                                             cluding Afghanistan.43 DA funds finance long-term projects to provide humanitar-
                                             ian assistance, address environmental issues, improve governance, and promote
DA FUND TERMINOLOGY                          socioeconomic development.44

USAID reported DA funds as appropriated,
                                             Status of Funds
obligated, or disbursed.42
                                             As of June 30, 2009, approximately $890 million in DA funds has been provided
Appropriations: Total monies available for   for Afghanistan.45 USAID has obligated nearly $883 million of these funds.46
commitments                                  Of this amount, almost $674 million (nearly 76% of DA funds) has been dis-
Obligations: Commitments to pay monies       bursed.47 Figure 3.10 shows DA appropriations by fiscal year.
Disbursements: Monies that have been            Since February 28, 2009, USAID has disbursed more than $44 million in DA
expended                                     funds for Afghanistan and obligated almost $8.6 million.48 USAID has reported
                                             that 2008 disbursements were affected by delayed receipt of funds; the major-
                                             ity of funds were not released to USAID until late August and mid-September.49
                                             Figure 3.11 depicts appropriated, obligated, and disbursed DA funds.

                                             FIGURE 3.10                                                  FIGURE 3.11

                                             DA APPROPRIATIONS BY FISCAL YEAR                             DA FUNDS, PERIOD–TO–PERIOD
                                             ($ MILLIONS)                                                 COMPARISON ($ MILLIONS)

                                             $200                                                                              Appropriated              Appropriated
                                                                                                                               $890.17                   $890.17

                                                                                                                                Obligated
                                                                                                                                $873.99                    Obligated
                                                                                                          $850
                                             $150                                                                                                          $882.56

                                                                                                          $800


                                                                                                          $750
                                             $100

                                                                                                          $700
                                                                                                                                                           Disbursed
                                                                                                                                                           $673.94
                                              $50                                                         $650
                                                                                                                                Disbursed
                                                                                                                                $629.32


                                               $0                                                           $0
                                                      2002 03 04 05              06     07    08     09            As of Feb 28, 2009        As of June 30, 2009

                                             Notes: Data may include inter-agency transfers. Numbers      Notes: Numbers affected by rounding. ESF funding terms
                                             affected by rounding. DA funding terms (appropriated,        (appropriated, obligated, disbursed) reported as provided
                                             obligated, disbursed) reported as provided by USAID except   by USAID except as specified.
                                             as specified.                                                Source: USAID, response to SIGAR data call, 7/9/2009.
                                             Source: USAID, response to SIGAR data call, 7/9/2009.




                                                 38                         SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                            STATUS OF FUNDS




BUREAU OF INTERNATIONAL NARCOTICS CONTROL
AND LAW ENFORCEMENT AFFAIRS (INL)                                                                                                                     INCLE


INL is a branch of DoS responsible for overseeing projects and programs de-
signed to combat narcotics trafficking and drug production. INL manages INCLE,                                                                         DoS

which supports rule of law and interdiction; poppy eradication and demand re-
duction; and public information. INL also receives funding from other agencies,                                            INL FUND TERMINOLOGY
primarily DoD, to support counter-narcotics programs in Afghanistan.50
                                                                                                                           INL reported INCLE and other INL funds
                                                                                                                           as allotted, obligated, or liquidated.53
Status of Funds
As of June 30, 2009, approximately $3.11 billion was allotted for INL programs                                             Allotments: Total monies available
in Afghanistan. Of this amount, INL obligated approximately $2.88 billion and                                              for commitments
liquidated $2.10 billion (more than 67% of funds allotted).51 Figure 3.12 shows INL                                        Obligations: Commitments to pay monies
allotments by fiscal year.                                                                                                 Liquidations: Monies that have been
   Since March 10, 2009, INL was allotted an additional $270 million. During the                                           expended
same period, INL obligated more than $368 million and liquidated more than $295
million.52 Figure 3.13 shows allotted, obligated, and liquidated INL funds (includ-
ing INCLE) for the second quarter (as of March 10, 2009) and the third quarter (as
of June 30, 2009).

FIGURE 3.12                                                 FIGURE 3.13

INL ALLOTMENTS BY FISCAL YEAR ($ MILLIONS)                  INL FUNDS, PERIOD–TO–PERIOD
                                                            COMPARISON ($ BILLIONS)
                                                                                                               Allotted
$800                                                                                                           $3.11
                                                            $3.00
$700                                                                               Allotted                   Obligated
                                                                                   $2.84                      $2.88
                                                            $2.75
$600
                                                            $2.50                 Obligated
$500                                                                              $2.51

                                                            $2.25
$400
                                                                                                              Liquidated
                                                            $2.00                                             $2.10
$300                                                                               Liquidated
                                                                                   $1.80
                                                            $1.75
$200

$100

  $0                                                           $0
       2002 03       04     05     06    07     08     09            As of Mar 10, 2009          As of June 30, 2009

Notes: Data may include inter-agency transfers. Numbers     Notes: Numbers affected by rounding. INL funding terms
affected by rounding. INL funding terms (allotted,          (allotted, obligated, liquidated) reported as provided by
obligated, liquidated) reported as provided by DoS and      DoS and INL except as specified.
INL except as specified.                                    Sources: DoS, responses to SIGAR data call, 7/2/2009
Sources: DoS, responses to SIGAR data call, 7/2/2009        and 7/15/2009.
and 7/15/2009.




                    REPORT TO THE UNITED STATES CONGRESS              I   JULY 30, 2009                          39
STATUS OF FUNDS




INL Programs
INL funds are divided into several program groups: police, counter-narcotics,
rule of law/justice, and other programs. Police programs have the largest
amount of liquidations ($1,178 million or 56% of liquidations), followed by
counter-narcotics programs ($769 million or nearly 37% of liquidations).54
Figure 3.14 shows liquidations by program for INL (including INCLE).

INCLE
The majority of INCLE funds are used to support police, counter-narcotics, and
rule of law and justice programs. As of June 30, 2009, approximately $1.99 billion
has been allotted to INCLE, almost $1.78 billion has been obligated and nearly
$1.48 billion has been liquidated.55
   Figure 3.15 depicts INCLE allotments, obligations, and liquidations for the sec-
ond quarter (as of March 10, 2009) and for the third quarter (as of June 30, 2009).




FIGURE 3.14                                                 FIGURE 3.15

TOTAL INL LIQUIDATIONS BY PROGRAM,                          INCLE FUNDS, PERIOD–TO–PERIOD
FY 2002–2009 ($ MILLIONS)                                   COMPARISON ($ BILLIONS)


                     Total: $2,099.53                                             Allotted                    Allotted
                                                            $2.0                  $1.99                       $1.99

                                                                                  Obligated                   Obligated
                                                                                  $1.66                       $1.78

                                  Police                    $1.5
                                                                                                              Liquidated
                                  $1,178.44
                Counter-                                                                                      $1.48
                narcotics                                                         Liquidated
                $769.03                                                           $1.27
                                                            $1.0



               Other              Rule of Law/Justice
               $32.23             $119.83                   $0.5


Notes: Data may include inter-agency transfers.
Numbers affected by rounding. INL funding terms
(allotted, obligated, liquidated) reported as provided by
DoS and INL except as specified.                              $0
Source: DoS, response to SIGAR data call, 7/14/2009.
                                                                    As of Mar 10, 2009          As of June 30, 2009

                                                            Notes: Data may include inter-agency transfers.
                                                            Numbers affected by rounding. INL funding terms
                                                            (allotted, obligated, liquidated) reported as provided by
                                                            DoS and INL except as specified.
                                                            Sources: DoS, responses to SIGAR data call,
                                                            3/19/2009 and 7/10/2009.




    40                           SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                          STATUS OF FUNDS




GOVERNMENT OF AFGHANISTAN FUNDS                                                      FIGURE 3.16

                                                                                     GIRoA BUDGET, 2008–2009 ($ BILLIONS)
The Government of the Islamic Republic of Afghanistan (GIRoA) also provides
                                                                                                            Total: $7.3
funds for reconstruction efforts, in addition to its operating expenses. The GIRoA
Ministry of Finance (MOF) is responsible for the management and execution of
the budget, which includes Afghan funds for reconstruction efforts.56 MOF also
is accountable for international funds when they are routed through government                           External Budget
                                                                                                         $4.9
ministries. USAID reported that the GIRoA faces challenges in its financial man-
agement, particularly anticorruption performance, procurement systems, and
budget execution rates.57

Domestic Budget and Budget Execution
The GIRoA budget for 2008–2009 is an estimated $7.3 billion. The budget is              Core Budget–                       Core Budget–
                                                                                        Development                        Operating
broken into two categories: the $2.4 billion core budget (including operating and       $1.0                               $1.4
development budgets) and the $4.9 billion external budget.58 Figure 3.16 provides
a breakdown of GIRoA budget amounts.                                                 Note: Numbers affected by rounding.
                                                                                     Source: U.S. Treasury, response to SIGAR data call,
• Core Budget - Operating—The GIRoA has provided $1.4 billion for its oper-          7/9/2009.
   ating budget, composed primarily of recurrent costs, such as government
   salaries. Budget execution for this section of the GIRoA budget has reached
   100%.59
• Core Budget - Development—The GIRoA also budgeted $1 billion for devel-
   opment in the areas of governance, infrastructure, agriculture, economic          FIGURE 3.17
   reform, and private sector development. The GIRoA currently executes
                                                                                     GIRoA DOMESTIC REVENUE, 2008–2009
   approximately 50% of its development budget each year. According to the           ($ MILLIONS)
   U.S. Treasury (Treasury), the GIRoA has trouble executing its development
   budget because of low capacity in the ministries and continuing security                              Total: $978.14
   challenges.60
• External Budget—For FY 2009, Afghanistan’s external budget was approxi-
   mately $4.9 billion. The GIRoA’s external budget is composed primarily of                                        Customs
   security expenses, though some development funding is included. Afghani-                                         Revenue
                                                                                                    Tax             $264.67
   stan’s entire external budget is dependent on international assistance.61                        Revenue
                                                                                                    $490.99        Non-tax
Domestic Revenue                                                                                                   Revenue
                                                                                                                   $222.48
For 2008–2009, Treasury reported Afghanistan’s revenue as approximately $978
million—nearly 41% of its $2.4 billion core budget.62 Figure 3.17 depicts the
sources of domestic revenue for the GIRoA. Treasury reported that the GIRoA          Note: Numbers affected by rounding.
                                                                                     Source: U.S. Treasury, response to SIGAR data call,
relies on external revenue to fund almost 60% of its core budget, plus its entire    7/9/2009.
external budget.63




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009        41
STATUS OF FUNDS




Blocked Funds
During Taliban rule (prior to December 31, 2001), $264 million was blocked
or frozen in U.S. bank accounts pursuant to sanctions against the Taliban; this
represents the valuation of 703,000 ounces of gold held by the Central Bank of
Afghanistan with the U.S. Federal Reserve, according to Treasury. Following the
U.S.-led military campaign, the Afghan Interim Authority established control over
Afghanistan. The United States returned blocked Taliban assets to the Afghan
Interim Authority between February and April 2002. Treasury reported that funds
were not vested by the U.S. government.64


INTERNATIONAL DONORS
At the Paris Conference in June 2008, Afghanistan presented the ANDS and
requested $50.1 billion over five years to support the ANDS initiatives. The $50.1
billion included $14 billion to improve infrastructure, $14 billion to build the
ANSF, $4.5 billion for agriculture and rural development, and additional funding
for other programs.65
    The international community pledged approximately $21 billion, less than half
of the requested amount. The donors cited a relative lack of transparency in the
GIRoA as the main reason for lower donations.66
    According to Treasury, the $21 billion international pledge represents a
significant sum considering the GIRoA’s capacity to absorb funding and execute
projects. Treasury recommends an increased focus on effective and efficient ex-
penditure of the money currently pledged to Afghanistan before further funding
is solicited.67

Afghanistan Reconstruction Trust Fund
In addition to Paris Conference pledges, the international community contributes
monies to international institutions and trust funds that manage reconstruction
programs in Afghanistan.68
   For example, the World Bank manages the Afghanistan Reconstruction Trust
Fund (ARTF). Between March 22, 2008, and March 21, 2009, 19 international
countries pledged $627 million to Afghanistan reconstruction efforts through the
fund; a similar amount was pledged between March 22, 2007, and March 21, 2008.
Since its inception in 2002, international donors have contributed approximately
$3 billion to the ARTF.69 Table 3.1 depicts funding pledges to the ARTF between
March 22, 2008, and March 21, 2009.




  42               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                   STATUS OF FUNDS




TABLE 3.1

CONTRIBUTIONS TO THE ARTF (MARCH 22, 2008–MARCH 21, 2009) ($ MILLIONS)
Main Contributors                                                         Total Pledges         Paid Funds as of May 2009
United States                                                                  $151.50                             $1.50
United Kingdom                                                                 $100.24                             $0.00
Netherlands                                                                        $50.15                          $0.00
Canada                                                                             $45.69                         $16.34
Norway                                                                             $43.30                         $11.32
Germany                                                                            $34.47                          $0.00
Spain                                                                              $34.47                          $0.00
Sweden                                                                             $17.11                          $0.00
European Commission/European Union                                                 $16.81                          $0.00
Australia                                                                          $14.99                         $14.99
Others                                                                             $17.45                          $0.00
Total                                                                         $526.18                            $44.15
Source: World Bank, “ARTF: Administrator’s Report on Financial Status,” 5/21/2009.




                    REPORT TO THE UNITED STATES CONGRESS                       I     JULY 30, 2009                43
       STATUS OF FUNDS




      “Security in all parts
 of the country is essential for
 effective governance, private
sector development, economic
  growth, poverty reduction,
    and the safeguarding of
       individual liberty.”
             —Afghanistan National
              Development Strategy




        44     SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                SECURITY




                                                                                                                                 AFGHANISTAN NATIONAL
SECURITY                                                                                                                         DEVELOPMENT STRATEGY (ANDS)


                                                                                                                                                           GOV   DEV
                                                                                                                                                    SEC        E     EL
FUNDING SUMMARY                                                                                                                                          URIT RNANC OPMEN
                                                                                                                                                             Y     E     T

The U.S. Department of Defense (DoD) reported that of the $15.06 billion avail-                                                  REGIONAL
                                                                                                                                 COOPERATION
able for the Afghanistan Security Forces Fund (ASFF) between FY 2005 and
June 30, 2009, $11.08 billion has been made available for training and opera-                                                    COUNTER-NARCOTICS
tions, infrastructure, and equipment and transportation for the Afghan National                                                  ANTICORRUPTION
Security Forces (ANSF), which comprises the Afghan National Army (ANA)
and the Afghan National Police (ANP).70 This sum represents roughly 33.6% of                                                     GENDER EQUALITY

the $33.03 billion in U.S. reconstruction funds made available for Afghanistan.71                                                CAPACITY
During the same period, $11.01 billion has been obligated and $10.88 billion has
been disbursed for the ANSF. More than 49% was disbursed for equipment and                                                       ENVIRONMENTAL

transportation, while the remaining available funds were split, with 30.2% going
to infrastructure and 20.6% going to training and operations.72 See Figure 3.18 for
details on the status of ASFF funds for ANSF training and operations, infrastruc-
ture, and equipment and transportation.
                                                                                                                                 FIGURE 3.19
DoD-Funded Contracts
DoD reported that a total of $1.91 billion has been expended during the period from                                              CSTC-A CONTRACT OBLIGATIONS
January 1 through June 30, 2009, against $4.28 billion obligated under active U.S.-                                              AND EXPENDITURES, JANUARY 1–
                                                                                                                                 JUNE 30, 2009 ($ MILLIONS)
funded contracts in Afghanistan.73 These contracts funded projects including con-
struction, foreign military sales, operation and maintenance, the ANA, and the ANP.
See Figure 3.19 for additional details on contract obligations and expenditures.                                                             Total Obligations: $4,280.04


FIGURE 3.18

STATUS OF ASFF FUNDS FOR ANSF TRAINING AND OPERATIONS, INFRASTRUCTURE, AND
EQUIPMENT AND TRANSPORTATION, FY 2005–2009 ($ BILLIONS)                                                                                       Unexpended
                                                                                                                                              $2,373.53        Expended
                                                                                                                                                               $1,906.51
                                         Available                                 Disbursed: $10.88
                                         $11.08
  $11.0
                                         Obligated
                                         $11.01
                                                                                         Infrastructure                          Notes: Numbers affected by rounding. Unexpended
  $10.9                                                                   Equipment and $3.28                                    obligations may include unreported expenditures.
                                         Disbursed                        Transportation                                         Source: CSTC-A, response to SIGAR data call, 7/1/2009.
                                         $10.88                           $5.35
  $10.8
                                                                                         Training and
                                                                                         Operations
                                                                                         $2.24
     $0


Notes: Numbers affected by rounding and are as of June 30, 2009. ASFF funding terms (available, obligated, disbursed) reported
as provided by DoD except as specified.
Source: DoD, response to SIGAR data call, 7/10/2009.




                    REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2009                        45
                                     SECURITY




                                     Programs
                                     Approximately $1.94 billion in contract awards has been obligated for the ANA.
                                     Of this amount, $199.80 million has been obligated for ANA operations and main-
                                     tenance programs. The ANA received approximately 45.4% of the total reported
                                     contract obligations. In comparison, $1.42 billion in contract awards has been ob-
                                     ligated for the ANP, representing 33% of total reported contract obligations.75 See
                                     Figure 3.20 for additional details on contract obligations by program.

                                     Contract Types
                                     Approximately $1.47 billion in contract awards has been obligated for construc-
                                     tion contracts, representing 34.4% of total reported contract awards. The next
                                     largest category, not including “Additional Program Obligations,” was foreign
                                     military sales, which accounted for $419.46 million, or 9.8%, of the total reported
                                     contract awards. See Figure 3.21 for additional details on contract obligations by
    “There can be no                 contract type.76
 government without an
 army, no army without
                                     TRAINING THE ANSF
money, no money without
   prosperity, and no                Security is a prerequisite for stability and development in Afghanistan. Training
                                     the ANSF to provide this security is a top priority for the United States.77 This
prosperity without justice           section focuses on the U.S. efforts to train and equip the ANSF.
and good administration.”
                                     FIGURE 3.20                                                  FIGURE 3.21
            —Ibn Qutayba, notable
      9th-century Islamic scholar,   CSTC-A CONTRACT OBLIGATIONS                                  CSTC-A CONTRACT OBLIGATIONS BY
   reflecting on the importance of   BY PROGRAM, JANUARY 1–JUNE 30, 2009                          CONTRACT TYPE, JANUARY 1–JUNE 30, 2009
                                     ($ MILLIONS)                                                 ($ MILLIONS)
    security to the prosperity and
        development of a country74                    Total: $4,280.04                                                Total $4,280.84


                                                                                ANA-Operations
                                                                                and Maintenance
                                                    ANA                         $199.80
                                                    $1,742.88                                                    Additional
                                                                                                                                 Construction
                                                                                                                 Contract
                                                                                                                                 $1,471.85
                                                                  ANP                                            Obligations
                                                                  $1,415.68                                      $2,176.34

                                     Additional
                                     Program                                                                                              Operations and
                                     Obligations                   Local                                Foreign Military Sales            Maintenance
                                     $637.36                       $284.31                              $419.46                           $212.39


                                     Notes: Numbers affected by rounding. Additional Program      Notes: Numbers affected by rounding. “Contract type”
                                     Obligations represents obligations for 1-story and 2-story   represents the data call category “Fund Type/Type
                                     programs and obligations for which a program type was not    Contract.” O&M includes “FMS, O&M” and “O&M OBAN
                                     provided.                                                    GWOT.” Additional contract obligations represents
                                     Source: CSTC-A, response to SIGAR data call, 7/1/2009.       obligations for which a contract type was not provided.
                                                                                                  Source: CSTC-A, response to SIGAR data call, 7/1/2009.




                                        46                         SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                                                                    SECURITY




Background
In December 2001, participants at the United Nations (UN) Talks on Afghanistan
(the Bonn Conference) committed to helping the Government of the Islamic
Republic of Afghanistan (GIRoA) establish and train a new Afghan security
force.78 In early 2006, the GIRoA and the international community met during                                                           International Security Assistance Force
the London Conference on Afghanistan and agreed to continue the efforts of the                                                         (ISAF): An international coalition formed
North Atlantic Treaty Organization–led (NATO) International Security Assistance                                                        as a result of the Bonn Conference and
Force (ISAF) and the U.S.-led Operation Enduring Freedom (OEF) to develop a                                                            designed to assist the GIRoA in securing
fully functional ANA and ANP.79 The Afghanistan Compact also specified sev-                                                            and rebuilding Afghanistan83
eral benchmarks and timelines for achieving security goals. These benchmarks
                                                                                                                                       Operation Enduring Freedom (OEF):
became the basis for security targets of the ANDS.80 These original ANDS targets
                                                                                                                                       The U.S.-led operation conducting counter-
are summarized in Table 3.2. The GIRoA has made progress toward these goals
                                                                                                                                       terrorism combat missions and training the
and updated the targets to reflect changing conditions. For example, as of May                                                         ANSF84
2009, the target ANA force size was 134,000 troops by December 2011, com-
pared with 80,000 troops by the end of 2010, as specified in the original ANDS.81
In addition, on March 27, 2009, the President of the United States announced a
new strategy for Afghanistan. According to the President, this strategy includes
increasing U.S. military forces in Afghanistan and shifting the emphasis of the
U.S. mission to training and increasing the size of the ANSF.82




TABLE 3.2


ANDS PILLAR I: SECURITY
Projected Date      Target                         Description
End 2010            Afghan National Army           The ANA will achieve and surpass a milestone of 80,000 troops (plus
                                                   6,600 in training), and it will ensure that 75% of field battalions and
                                                   brigades are capable of conducting independent operations (with the
                                                   addition of some external enablers and air support).
                    Removing Unexploded            The land area contaminated by mines and unexploded ordnance will be
                    Ordnance                       reduced by 70%.
3/20/2011           Disarmament of Illegal         All illegal armed groups will be disbanded in all provinces.
                    Armed Groups
2012                Removing Unexploded            Ninety percent of all known areas contaminated by mines and explosive
                    Ordnance                       remnants of war will be cleared.
2013                Removing Unexploded            All emplaced anti-personnel mines will be cleared.
                    Ordnance
                    Counter-narcotics              By 2013, areas under poppy cultivation will be reduced by half compared
                                                   with 2007 levels.
End 2013            Afghan National Police         The Ministry of Interior will achieve a target strength of 82,180
                                                   professional policemen (including Afghan Border Police).

Notes: This table summarizes the information in the ANDS. Please see the ANDS in Appendix J of the October 2008 SIGAR Quarterly
Report for additional details. These original targets have been provided for historical context and may have changed since they were
published.
Source: GIRoA, “Afghanistan National Development Strategy,” 6/2008, pp. 4, 6.




                     REPORT TO THE UNITED STATES CONGRESS                         I   JULY 30, 2009                          47
                                                                   SECURITY




                                                                   Training Organizations
                                                                   Since 2002, the United States and the international community, in partnership
                                                                   with the GIRoA, have trained the ANA and ANP. The United States, through the
                                                                   Combined Security Transition Command-Afghanistan (CSTC-A), leads the inter-
                                                                   national ANSF training efforts in conjunction with NATO’s ISAF and the Euro-
                                                                   pean Union Police Mission in Afghanistan (EUPOL).85

                                                                   Combined Security Transition Command-Afghanistan
                                                                   CSTC-A is a joint-service coalition organization under the control of the U.S. Cen-
                                                                   tral Command (CENTCOM). It has personnel from the United States, the United
                                                                   Kingdom, Canada, Poland, Albania, Germany, France, and Romania. Its mission,
                                                                   which began as the Office of Military Cooperation - Afghanistan in 2002, has
                                                                   evolved and currently is to help the Ministry of Interior (MOI) and the Ministry
                                                                   of Defense (MOD) develop and manage the ANSF so it can combat insurgency,
                                                                   establish and maintain the rule of law, and achieve security and stability in Af-
                                                                   ghanistan.86 CSTC-A evolved from two prior organizations. See Figure 3.22 for a
                                                                   timeline of this evolution.
                                                                      Under the operational control of CSTC-A are the Combined Joint Task Force
                                                                   Phoenix (CJTF Phoenix) and five Afghan Regional Security Integration Com-
                                                                   mands (ARSICs).87

                                                                   COMBINED JOINT TASK FORCE PHOENIX
                                                                   CJTF Phoenix is a joint task force that trains and mentors the ANSF to prepare
                                                                   the ANA and ANP to conduct independent security operations that create stabil-
                                                                   ity in Afghanistan.88


FIGURE 3.22

THE EVOLUTION OF CSTC-A


 2002                       2003                       2004                     2005                      2006                       2007                 2008           2009
   ttt ttt ttt ttt ttt ttt ttt ttt ttt ttt
            MAY 2002: Office of Military                                       JULY 2005:                            APRIL 2006: Combined Security
            Cooperation-Afghanistan (OMC-A)                                    Office of Security                    Transition Command-Afghanistan
            Established                                                        Cooperation-                          (CSTC-A) Established
                                                                               Afghanistan
                                                                               (OSC-A) Established

Sources: DoS and DoD, Inspectors General, Interagency Assessment of Afghanistan Police Training and Readiness, 11/2006, p. 9. DoD, DefenseLINK,
“Afghanistan Unit Takes on New Mission, Name,” 7/13/2005, www.defenselink.mil/news/newsarticle.aspx?id=16650, accessed 7/7/2009. CSTC-A,
“Combined Security Transition Command-Afghanistan, Fact Sheet,” 5/21/2008, p. 1.




                                                                       48                          SPECIAL INSPECTOR GENERAL                 I    AFGHANISTAN RECONSTRUCTION
                                                                         SECURITY




AFGHAN REGIONAL SECURITY INTEGRATION COMMANDS
ARSICs are regional commands attached to each of the five ANA corps located
across Afghanistan. The North, South, East, West, and Central ARSICs support
the CSTC-A mission.89

INTERNATIONAL SECURITY ASSISTANCE FORCE
Following the Bonn Conference, the ISAF was created to help the Afghan Tran-
sitional Authority secure Kabul and support the national reconstruction effort.90
NATO assumed leadership of the ISAF in 2003, after six-month national rotations
by (1) the United Kingdom, (2) Turkey, and (3) Germany and the Netherlands.91
In 2003, when NATO took command, the ISAF had about 5,000 troops.92 The U.S.
Department of State (DoS) reported that as of June 2009, the ISAF had expanded
to about 61,000 troops from 42 countries.93 The ISAF helps develop the ANSF
through training, mentoring, and equipment donations. In addition, it collects,
catalogues, and destroys illegal weapons and ordnance.94

European Union Police Mission in Afghanistan
In 2007, EUPOL replaced the German Police Project Office, which had taken the
lead on police training in April 2002.95 Nineteen European Union (EU) member
states plus Canada, Croatia, New Zealand, and Norway support the EU police
mission to establish an effective civil police force that interacts appropriately
with the wider criminal justice system under Afghan ownership.96




ANA soldiers in a squad leader’s class listen to a lesson by Kabul Military Training Center NCO
Instructors at Camp Zafar in Herat. (ISAF photo)




               REPORT TO THE UNITED STATES CONGRESS       I   JULY 30, 2009             49
                                                        BACKGROUND




THE AFGHAN NATIONAL ARMY
                                                                                                   TABLE 3.3
History
On December 1, 2002, Afghan President Hamid Karzai                                                  MOD AND ANA COMPONENTS
issued a decree that created the ANA. This all-volunteer                                                                                                                     Authorized
army is composed of soldiers from all of Afghanistan’s                                             Component              Description                                         Personnel
ethnic groups.97                                                                                   Ministry of            MOD is responsible for developing, fielding,                3,246
                                                                                                   Defense and            and ensuring the operational readiness of
                                                                                                   General Staff          the ANA. MOD develops strategic plans to
Mission                                                                                                                   defend Afghanistan. The general staff imple-
The mission of the ANA is to maintain the stability of                                                                    ments MOD policies and guidance
the country, defend its sovereignty, and contribute to                                                                    for the ANA.
regional security, while maintaining its regional and                                                                     Support facilities installation and manage-                 1,519
ethnic balance and continuing to develop its reputation                                            Sustaining             ment, acquisitions, logistics, communica-
                                                                                                   Institutions           tions support, regional military intelligence
as a respected, accountable, and professional force.98                                                                    offices, detainee operations, medical
                                                                                                   Intermediate           command, ANA training and recruiting                     15,484
Organization                                                                                       Command Staff          commands, military police, and the Head-
                                                                                                                          quarters Support and Security Brigade.a
The ANA falls under the MOD. MOD and the ANA are
                                                                                                   Combat Forces          Conducts the ANA’s operations.                           66,406
made up of several components, including the MOD
                                                                                                   Air Corps              Supports the ANA and ANP through attack                     3,412
and general staff, sustaining institutions, intermediate                                                                  air support, medical evacuation, and presi-
command staff, combat forces, and Afghan National                                                                         dential transport.
Army Air Corps (ANAAC) personnel.99 See Table 3.3 for                                              Otherb                 —                                                        13,408
descriptions of these components.                                                                   Total                                                                     103,475
   The ANA combat forces are divided into five corps.                                              Notes: Authorized Personnel numbers appear as reported in the June 2009 DoD report,
                                                                                                   “Progress toward Security and Stability in Afghanistan.”
A typical corps contains one or more brigades and is
                                                                                                   a   An ANA unit that performs specialist tactical and ceremonial missions.
organized into the structure depicted in Figure 3.23.100                                           b   “Other” includes data for Detainee Operations, CN Infantry Kandak, and TTHS.
The ANA corps are located in different regions of                                                  Source: GAO, “Afghanistan Security, Further Congressional Action May Be Needed To
                                                                                                   Ensure Completion of a Detailed Plan To Develop and Sustain Capable Afghan National
Afghanistan. See Figure 3.24 for a map with the                                                    Security Forces,” Report GAO-08-661, 6/2008, pp. 19, 54. DoD, “Progress toward
                                                                                                   Security and Stability in Afghanistan,” 6/2009, p. 26.
locations of the corps.



FIGURE 3.23

ORGANIZATION OF A TYPICAL ANA CORPS


   CORPS                                    Corps




   BRIGADE                             Brigade (2800)




   BATTALION                         Light Infantry (650)          Light Infantry (650)          Light Infantry (650)           Combat Support (500)
                                                                                                                                                                 Combat Support
                                                                                                                                                                  Services (350)


Note: A corps has one or more brigades. A brigade has five battalions. Actual ANA corps organizations may differ from the one presented here.
Source: GAO, “Afghanistan Security, Further Congressional Action May Be Needed To Ensure Completion of a Detailed Plan To Develop and Sustain Capable Afghan National Security
Forces,” Report GAO-08-661, 6/2008, p. 7.




                                                            50                        SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                                                BACKGROUND




FIGURE 3.24

ANA CORPS AND ANAAC REGIONAL LOCATIONS

                                                                         UZBEKISTAN

                                                                                                                           TAJIKISTAN
                                                                                                                                                CHINA

                    TURKMENISTAN
                                                                                          Mazar-e Sharif
                                                                                          209th Corps




                                                                                                         Kabul
                                                                                    201st Corps & Kabul Air Wing
                                                                                                                           Jalalabad
                                                                                                                           Jalalabad Regional
                         Herat                                                                                             Support Squadron
                         207th Corps &
                         Herat Regional
                         Support Squadron
                                                                                                        Gardez
                                                                                                        203rd Corps
                                                                                                        & Gardez
                                                                                                        Regional
                                                                                                        Support
                                                                                                        Squadron




                                                      Kandahar
                                                   205th Corps &
    IRAN                                        Kandahar Arm Wing

                                                                                           PAKISTAN




Sources: GAO, “Afghanistan Security, Further Congressional Action May Be Needed To Ensure Completion
of a Detailed Plan To Develop and Sustain Capable Afghan National Security Forces,” Report GAO-08-661,
6/2008, p. 22. CSTC-A, "Fact Sheet Afghan National Army," 3/15/2009. The Long War Journal, “Afghan
National Security Forces Order of Battle,”
www.longwarjournal.org/multimedia/ANSF%20OOBpage3-ANSF.pdf, accessed 6/21/2009.




Troop Levels
DoD reported that as of May 2009, the ANA had
86,558 troops, comprising 74 battalions. DoD predicts
that the ANA will grow to its target of 134,000 troops
by December 2011.101




                  REPORT TO THE UNITED STATES CONGRESS                          I   JULY 30, 2009                     51
                                              SECURITY




                                              THE AFGHAN NATIONAL ARMY
                                              Overview of ANA Training
Basic Warrior Training Course: The initial    New recruits take the Basic Warrior Training Course at the Kabul Military Train-
training recruits receive upon entry to the   ing Center, where they are taught by Afghan trainers with international support.
ANA102                                        This course establishes basic standards to provide uniformity across ANA train-
                                              ing. Soldiers also receive branch-specific Advanced Combat Training. Once a unit
Advanced Combat Training: The branch-
                                              is fielded, its soldiers receive 60 days of individual and collective training before
specific training soldiers receive to
                                              combat operations.104
strengthen their capabilities103
                                                  According to DoD, each Afghan unit is accompanied by a U.S. Embedded
                                              Training Team or a NATO-ISAF Operational Mentoring and Liaison Team. These
                                              teams advise ANA unit leadership and provide direct access to U.S. and NATO-
                                              ISAF resources. These teams also assess ANA units, identifying strengths, devel-
                                              opment opportunities, and gaps that may exist.105


                                              FIGURE 3.25

                                              UNIT TRAINING WITHIN ANA TRAINING COMMAND, JANUARY 1–JUNE 27, 2009


                                                                                       Total Units: 8, Total Graduates: 3,305

                                                                                          UZBEKISTAN
                                                                                                                                             TAJIKISTAN             CHINA
                                                      TURKMENISTAN
                                                                                         Mazar-e Sharif
                                                                                           209th Corps
                                                                                                              1,989
                                                                                                              GRADUATES
                                                                                                                                                   Unit
                                                                                                                                                              No. of
                                                                                                                                                              Graduates

                                                                                                                                                   1/2/209    483
                                                                                                                                                   5/2/209    286

                                                                Herat                                           Kabul       533
                                                                                                                            GRADUATES
                                                                                                                                                   HQ/2/209
                                                                                                                                                   2/2/209
                                                                                                                                                              100
                                                                                                                                                              514
                                                                207th Corps                               201st Corps
                                                                                                                                                   3/2/209    606

                                                              379
                                                              GRADUATES
                                                                                                                                   Gardez          1/1/201    533
                                                                                                                                   203rd Corps
                                                                                                            404
                                                                                                            GRADUATES
                                                                                                                                                   4/3/203

                                                                                                                                                   6/4/205
                                                                                                                                                              404

                                                                                                                                                              379



                                                                             Kandahar
                                              IRAN                         205th Corps

                                                                                                                                        PAKISTAN




                                              Source: CSTC-A, response to SIGAR data call, 7/1/2009.




                                                 52                           SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




                                                                                     FIGURE 3.26
Training Status
CSTC-A reported that 25,712 ANA troops graduated from programs within the            INDIVIDUAL TRAINING WITHIN
Afghan National Army Training Command (ANATC) between January 1 and June             ANA TRAINING COMMAND,
27, 2009. Of this total, nearly 82% graduated from Soldier Courses. See Figure       JANUARY 1–JUNE 27, 2009
3.26 for individual training graduates by course category.106
   CSTC-A reported that between January 1 and June 27, 2009, eight units com-                      Total Graduates: 25,712
prising 3,305 troops graduated from ANATC unit training programs. More than
half of these units, representing 1,989 graduates, were fielded to the 209th Corps
in Mazar-e Sharif. See Figure 3.25 for additional details on where these units
were fielded.107                                                                                          Soldier Courses
                                                                                                          21,077

ANA Readiness
The MOD uses a readiness reporting system that provides a metrics-based analyt-
ical and decision-support tool to improve ANA readiness. Each unit is evaluated
to determine its ability to conduct operations and assigned one of four Capabil-
                                                                                        Miscellaneous                       Non-
ity Milestone (CM) ratings that reflects the unit’s capabilities. Units capable of      Courses              Officer        Commissioned
conducting primary operations with little or no assistance might be rated at CM1        273                  Courses        Officer Courses
while newly formed units that are not capable of conducting primary operational                              1,926          2,436
missions might be rated at CM4. The units are evaluated on a monthly basis so
                                                                                     Source: CSTC-A, response to SIGAR data call, 7/1/2009.
that the ANA forces can be managed effectively.108

• CM1 describes a unit, agency, staff function, or installation that is capable of
  conducting primary operational missions. Depending on the situation, units
  may require specific assistance from international partners.
• CM2 describes a unit, agency, staff function, or installation that is capable
  of conducting primary operational missions with routine assistance from, or
  reliance on, international community support.
                                                                                       Capability Milestone (CM): DoD criteria
• CM3 describes a unit, agency, staff function, or installation that is capable of
                                                                                       for assessing ANA and ANP progress in
  partially conducting primary operational missions, but still requires assis-         manning, training, and equipping their
  tance from, and is reliant on, international community support.                      forces. CMs range from the most capable,
• CM4 describes a unit, agency, staff function, or installation that is formed,        CM1, to the least capable, CM4.110
  but not yet capable of conducting primary operational missions. It may be
  capable of undertaking portions of its operational mission, but only with sig-
  nificant assistance from, and reliance on, international community support.109




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009       53
                                                              SECURITY




FIGURE 3.27                                                   FIGURE 3.29

STATUS OF ASFF FUNDS FOR ANA INFRA-                           ANA CAPABILITY MILESTONE RATINGS (ANA UNITS)
STRUCTURE, FY 2005–2009 ($ MILLIONS)
                                                                                                                                                Total Units: 123
                                          Available
                                          $2,005.19           Capability Milestone (CM)
$2,000
                                          Obligated           CM1: capable of operating independently
                                          $2,004.73                                                          CM1                                                             47


                                                              CM2: capable of planning, executing, and
                                                              sustaining operations at the battalion level   CM2                                                   32
                                                              with international support
$1,950
                                          Disbursed           CM3: partially capable of conducting
                                          $1,943.85           operations at the company level with           CM3                                                        37
                                                              support from international forces


                                                              CM4: formed but not yet capable of
                                                              conducting primary operational missions        CM4               7
      0

Notes: Numbers affected by rounding and are as of
6/30/2009. ASFF funding terms (available, obligated,                                                               0                10           20           30        40   50
disbursed) reported as provided by DoD except as specified.
Source: DoD, response to SIGAR data call, 7/10/2009.
                                                              Note: May not include fire support, close air support, and MEDEVAC.
                                                              Source: DoD OSD, response to SIGAR data call, 7/8/2009. Numbers as of 5/23/2009.




FIGURE 3.28

STATUS OF ASFF FUNDS FOR ANA                                     CSTC-A reported that as of May 23, 2009, 47 ANA units, out of 123 rated, were
EQUIPMENT AND TRANSPORTATION,
                                                              assessed at CM1.111 See Figure 3.29 for a summary of ANA CM ratings.
FY 2005–2009 ($ MILLIONS)
                                                              Infrastructure Status
                                          Available
                                                              DoD reported that as of June 30, 2009, $2.01 billion has been made available to
                                          $4,109.28
$4,100                                                        the ASFF for ANA infrastructure. Of this amount, $2.00 billion has been obligated
                                          Obligated
                                                              and $1.94 billion has been disbursed.112 Figure 3.27 depicts the status of ASFF
                                          $4,080.24           funds for ANA infrastructure.

                                                              Equipment and Transportation Status
$4,050                                                        DoD reported that as of June 30, 2009, $4.11 billion has been made available to
                                          Disbursed           the ASFF for ANA equipment and transportation. Of this amount, $4.08 billion
                                          $4,035.28           has been obligated and $4.04 billion has been disbursed.113 Figure 3.28 depicts the
                                                              status of ASFF funds for ANA equipment and transportation.

    $0

Notes: Numbers affected by rounding and are as of June
30, 2009. ASFF funding terms (available, obligated,
disbursed) reported as provided by DoD except as specified.
Sources: DoD, response to SIGAR data call, 7/10/2009.




                                                                  54                           SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                                                                 SECURITY




                                                                                                                                         FIGURE 3.31
Challenges
                                                                                                                                         ANA CASUALTIES, 2007–2009
Attacks
DoD reported on the number of attacks against the ANA from October 2006
through June 20, 2009. This data covered attacks in 30 of Afghanistan’s
                                                                                                                                                     Total Wounded in Action: 1,980
34 provinces.                                                                                                                                           Total Killed in Action: 651
   Since October 2006, the ANA has come under 1,277 attacks across Afghani-
stan. In 2009, the ANA came under 192 attacks across 21 provinces. The most                                                               1,000
attacks took place in three neighboring provinces—Helmand, Kandahar, and                                                                                             875
                                                                                                                                            800        750
Zabul—all of which border Pakistan. Attacks in these provinces made up 50.0%
of all the attacks in 2009 and 51.7% of all attacks since October 2006.114 See                                                              600
Figure 3.30 for the attacks on the ANA by province and year.
                                                                                                                                            400                                    355
Casualties                                                                                                                                                   278           259
                                                                                                                                            200
Since 2007, 1,980 ANA soldiers have been wounded in action and 651 have been                                                                                                             114
killed in action. From January 1 through June 22, 2009, 355 ANA soldiers were                                                                  0
wounded in action and 114 were killed in action.115 See Figure 3.31 for a yearly                                                                         2007          2008           2009a
comparison of ANA casualties.
                                                                                                                                                             Wounded in Action (full/partial year)
                                                                                                                                                             Killed in Action (full/partial year)
                                                                                                                                         Note: a Numbers are as of 6/22/2009.
                                                                                                                                         Source: CSTC-A, response to SIGAR data call, 7/1/2009.
FIGURE 3.30

ATTACKS ON THE ANA BY PROVINCE, OCTOBER 2006–JUNE 20, 2009


                                                                                    Total Attacks: 1,277

600                                                                                                                                           568

500
                                                                                              414
400

300

200                                                                                                                                                                                            192

                                             103
100

   0
                            2006 (Oct 1–Dec 31)                                              2007                                            2008                           2009 (Jan 1–June 20)


         0 Attacks             1–5 Attacks           6–15 Attacks          16–25 Attacks         26–161 Attacks
Notes: This data does not necessarily represent a measure of a province's security. For example, a province with no attacks could mean that the ANA experienced no attacks or that its presence and
missions in the province were different than in other provinces. Multiple casualties could occur per attack.
Source: CSTC-A, response to SIGAR data call, 7/1/2009.




                     REPORT TO THE UNITED STATES CONGRESS                      I   JULY 30, 2009                         55
                                                        BACKGROUND




THE AFGHAN NATIONAL POLICE
                                                                                                FIGURE 3.32
History
In 2002, Germany led the effort to rebuild the                                                  ORGANIZATION OF MOI AND ANP
ANP.116 In 2005, the United States took over as
lead nation for reforming the ANP. In 2007, the
European Union began its EUPOL mission.117
                                                                                                                                   Minister of Interior

Goal
The international goal is to create an effective, well-
organized, multi-ethnic, and professional police force                                                        Deputy Minister                             Deputy Minister
                                                                                                           for Counter–narcotics                            for Security
that can provide a stable rule of law.118

Organization
                                                                                                         Deputy                       Afghan National                    Border
The ANP falls under the Ministry of Interior (MOI).                                                    Uniformed                         Civil Order                   Police Chief
The MOI and ANP comprise several components, in-                                                      Police Chief a                    Police Chief

cluding the MOI, the Afghan Uniformed Police (AUP),
the Afghan Border Police (ABP), the Afghan National                                             Note: The graphic has been simplified to illustrate the components in the table below
                                                                                                and does not show the full organizational structure of the MOI.
Civil Order Police (ANCOP), and the Counter-narcotics                                           a   The ANP regional commanders report to the deputy uniformed police chief.
Police of Afghanistan (CNPA). See Table 3.4 and                                                 Sources: DoD, “Progress toward Security and Stability in Afghanistan,” June 2009, p. 26.
                                                                                                GAO, “Afghanistan Security, U.S. Programs To Further Reform Ministry of Interior and
Figure 3.32 for descriptions of these components.                                               National Police Challenged by Lack of Military Personnel and Afghan Cooperation,”
                                                                                                Report GAO-09-280, 3/2009, p. 36.
   ANP training takes place at the Central Training
Center in Kabul and at one of seven Regional Train-
ing Centers.119 See Figure 3.33 for the locations of
these training centers.

TABLE 3.4


MOI AND ANP COMPONENTS
Component                        Description                                                                                                                     Authorized Personnel
MOI                              Responsible for enforcing the rule of law.                                                                                                        5,059
Afghan Uniformed Police          Assigned to police districts and provincial and regional commands; duties include patrols, crime prevention, traffic                             47,384
                                 duties, and general policing.
Afghan Border Police             Provides broad law enforcement capability at international borders and entry points.                                                             17,621
Afghan National Civil            Specialized police force trained and equipped to counter civil unrest and lawlessness.                                                            5,365
Order Police
Counter-narcotics                Law enforcement agency charged with reducing narcotics production and distribution in Afghanistan.                                                2,519
Police of Afghanistan
Other                            —                                                                                                                                                 8,852
Total                                                                                                                                                                           86,800

Note: Authorized Personnel numbers appear as reported in the June 2009 DoD report, “Progress toward Security and Stability in Afghanistan.”

Source: GAO, “Afghanistan Security, U.S. Programs To Further Reform Ministry of Interior and National Police Challenged by Lack of Military Personnel and Afghan Cooperation,” Report GAO-
09-280, 3/2009, p. 35. DoD, “Progress toward Security and Stability in Afghanistan,” 6/2009, p. 26.




                                                           56                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                               BACKGROUND




FIGURE 3.33


ANP TRAINING CENTERS


                                                                         UZBEKISTAN
                                                                                                                    CHINA                                   CHINA
                                                                                                                               TAJIKISTAN


                                                                     Mazar-e Sharif
                     TURKMENISTAN                                                               Konduz




                                                                           Bamyan

                                                                                              Kabul
                     Herat                                                                                         Jalalabad



                                                                                              Gardez


                                                                                                                               Central Training Center

                                                                                                                               Regional Training Center


                                                                                                                               ANP Regional Commands

                                                                                                                               Gardez
                                                          Kandahar
   IRAN                                                                                                                        Kandahar
                                                                                PAKISTAN                                       Herat

                                                                                                                               Mazar–e Sharif

                                                                                                                               Kabul




Source: CSTC-A, “Fact Sheet Afghan National Police,” 3/15/2009, p. 1.




Police Levels
DoD reported that as of May 2009, the ANP stood at
81,509 personnel. DoD reported that in April 2009,                                                    Joint Coordination and Monitoring Board (JCMB): The entity
                                                                                                      established by the GIRoA and the international community
the Joint Coordination and Monitoring Board (JCMB)
                                                                                                      that is responsible for coordinating international assistance
approved an increase in ANP target end-strength to
                                                                                                      efforts in Afghanistan121
86,800.120




                   REPORT TO THE UNITED STATES CONGRESS                        I    JULY 30, 2009                    57
SECURITY




THE AFGHAN NATIONAL POLICE
Overview of ANP Training
In 2002, Germany took the lead for developing the ANP.122 It created a three-year
training program for police officers and a one-year training program for non-
commissioned officers (NCOs). A year later, the Department of State Bureau
of International Narcotics and Law Enforcement Affairs (INL) began a police
training mission to address concerns about the slow progress of the German
program.123 The INL constructed the Central Police Training Center for Police in
Kabul as well as several regional training centers (RTCs).124
   In 2005, the Office of Military Cooperation - Afghanistan (renamed CSTC-A in
2006) took over as the lead for developing the ANP.125 The INL is responsible for
managing the task order for the civilian police training and mentoring mission,
which is directed by CSTC-A. Civilian police advisors deployed by the INL pro-
vide training and mentoring to the ANP at seven INL-operated regional training
centers, a central training center located in Kabul, and field locations located
across Afghanistan’s 34 provinces.126 To date, the United States has invested more
than $6.2 billion in the ANP and MOI.127




Members of the Afghan National Police prepare for their graduation in Maidan Shar, Wordak
Province. (U.S. Army photo, SGT Joshua LaPere)




  58                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                                                         SECURITY




                                                                                                                 FIGURE 3.35
Training Status
CSTC-A reported that 20,898 ANP personnel were trained in 2008 and another                                       STATUS OF ASFF FUNDS FOR ANP
6,548 were trained between January and May 2009.128 The ANP is assessed                                          EQUIPMENT AND TRANSPORTATION,
against the same Capability Milestones as the ANA. As of May 23, 2009, 24 of the                                 FY 2005–2009 ($ MILLIONS)
559 ANP units that have been rated were assessed at CM1.129 See Figure 3.34 for a
summary of ANP CM ratings.                                                                                                                                    Available
                                                                                                                 $1,321.0                                     $1,321.50
Infrastructure Status                                                                                                                                        Obligated
DoD reported that as of June 30, 2009, $1.34 billion has been made available to                                  $1,320.0                                    $1,321.24
ASFF for ANP infrastructure. Of this amount, nearly all the funds have been                                      $1,319.0
obligated and disbursed.130
                                                                                                                 $1,318.0
Equipment and Transportation Status                                                                              $1,317.0
DoD reported that as of June 30, 2009, $1.32 billion has been made available to
the ASFF for ANP equipment and transportation. Of this amount, nearly all has                                    $1,316.0
been obligated and disbursed.131 Figure 3.35 depicts the status of ASFF funds for                                                                            Disbursed
                                                                                                                 $1,315.0
ANP equipment and transportation.                                                                                                                            $1,315.30



                                                                                                                       $0

                                                                                                                 Notes: Numbers affected by rounding and are as of
                                                                                                                 June 30, 2009. ASFF funding terms (available, obligated,
                                                                                                                 disbursed) reported as provided by DoD except as
FIGURE 3.34                                                                                                      specified.
                                                                                                                 Source: DoD, response to SIGAR data call, 7/10/2009.
ANP CAPABILITY MILESTONE RATINGS                     (ANP UNITS)




                                                                          Total Units: 559
Capability Milestone (CM)

CM1: capable of operating independently        CM1         24


CM2: capable of planning, executing, and
sustaining operations at the battalion level   CM2         27
with international support


CM3: partially capable of conducting
operations at the company level with           CM3                 71
support from international forces


CM4: formed but not yet capable of
conducting primary operational missions        CM4                                                   437


                                                     0              100       200        300   400         500


Source: DoD OSD, response to SIGAR data call, 7/8/2009. Numbers as of 5/23/2009.




                      REPORT TO THE UNITED STATES CONGRESS                I   JULY 30, 2009          59
                                                                      SECURITY




FIGURE 3.36
                                                                      Challenges
ANP CASUALTIES, 2007–2009
                                                                      Attacks
                                                                      DoD reported on the number of attacks against the ANP from October 2006
          Total Wounded in Action: 2,885
                                                                      through June 20, 2009. This data covered attacks in 32 of Afghanistan’s 34
            Total Killed in Action: 1,764
                                                                      provinces.
1,500                                                                    Since October 2006, the ANP has come under 2,839 attacks across Afghani-
                                                                      stan. In 2009, the ANP came under 532 attacks across 25 provinces. Most at-
                         1,209
1,200                                                                 tacks took place in two neighboring provinces—Kandahar and Helmand—both
           1,036
                                                                      of which border Pakistan. Attacks in these provinces made up 42.1% of all the
    900
                               724                                    attacks in 2009 and 31.1% of all attacks since October 2006.132 See Figure 3.37 for
                688                    640
    600                                                               the attacks on the ANP by province and year.
                                             352
    300                                                               Casualties
                                                                      Since 2007, 2,885 ANP personnel have been wounded in action and 1,764 have
      0
             2007          2008          2009    a                    been killed in action. From January 1 through June 22, 2009, 640 ANP personnel
                                                                      were wounded in action and 352 were killed in action.133 See Figure 3.36 for a
                   Wounded in Action (full/partial year)              comparison of yearly ANA casualties.
                   Killed in Action (full/partial year)
a
    Numbers as of 6/22/2009.
Source: CSTC-A, response to SIGAR data call,
7/1/2009.




FIGURE 3.37

ATTACKS ON THE ANP BY PROVINCE, OCTOBER 2006–JUNE 20, 2009


                                                                                        Total Attacks: 2,839

1,200                                                                                                                             1,148

1,000                                                                                           965

    800

 600                                                                                                                                                              532

    400
                                                     194
    200

      0
                               2006 (Oct 1–Dec 31)                                              2007                              2008             2009 (Jan 1–June 20)


           0 Attacks              1–10 Attacks             11–30 Attacks        31–60 Attacks     61–259 Attacks
Notes: This data does not necessarily represent a measure of a province's security. For example, a province
with no attacks could mean that the ANP experienced no attacks or that its presence and missions in the
province were different than in other provinces. Multiple casualties could occur per attack.
Source: CSTC-A, response to SIGAR data call, 7/1/2009.




                                                                           60                     SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                           SECURITY




Security Concerns
CSTC-A reported that it cancelled 28 ANP construction projects for security rea-
sons. Of these, one contract was terminated for convenience and 27 projects were
de-scoped from existing contracts. The awarded amounts on these contracts to-
taled $33.53 million.134 As illustrated in Figure 3.38 these security concerns affected
projects in all regions of Afghanistan except for the northern region.


FIGURE 3.38

ANP PROJECTS CANCELLED DUE TO SECURITY CONCERNS ($ MILLIONS)


                                        Total Contract Awards: $33.53 Million


                                                       UZBEKISTAN

                                                                                                       TAJIKISTAN
                                                                                                                            CHINA

           TURKMENISTAN                    JOWZJAN                    KUNDUZ            BADAKHSHAN
                                                        BALKH                  TAKHAR

                                                         SAMANGAN BAGHLAN
                                 FARYAB
                                           SAR-E PUL                    PANISHIR
                      BADGHIS                                                    NURISTAN
                                                                                  $1.65
                       $1.23                                      PARWAN KAPISA
                                                        BAMYAN                        KUNAR
                                                                  $0.45       LAGHMAN
         HERAT                                                         KABUL
         $0.88                                                 WARDAK                       NANGARHAR
                                 GHOR                                 LOGAR                  $9.16
                                            DAYKUNDI
                                             $1.87                        PAKTIYA
                                                             GHAZNI                           KHOWST
                                                                                               $9.18
                                          URUZGAN
            F ARAH                                                     PAKTIKA
                                                     ZABUL             $0.45
                                                                                                Amount of Contract Awards
                                                                                                ($ Millions)
           NIMROZ      HELMAND          KANDAHAR                                                     <$1
IRAN                    $7.31            $1.36
                                                                                                     $1–3.99
                                                                  PAKISTAN
                                                                                                     $4–6.99

                                                                                                     >$7


Note: Numbers affected by rounding.
Source: CSTC-A, response to SIGAR data call, 7/1/2009.




                     REPORT TO THE UNITED STATES CONGRESS                               I   JULY 30, 2009                   61
        SECURITY




  “The goal of the Governance,
 Rule of Law, and Human Rights
Pillar is to strengthen democratic
 processes and institutions and
extend human rights, the rule of
 law, delivery of public services
and government accountability.”
                —Afghanistan National
     Development Strategy: Governance,
           Rule of Law & Human Rights




          62      SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




                                                                                    AFGHANISTAN NATIONAL
GOVERNANCE, RULE OF LAW, AND                                                        DEVELOPMENT STRATEGY (ANDS)
HUMAN RIGHTS
                                                                                                           GOV   DEV
                                                                                                      SEC      E     EL
                                                                                                         URIT RNANC OPMEN
OVERVIEW                                                                                                     Y     E     T

This section addresses Afghanistan’s recent developments in the areas of gover-     REGIONAL
                                                                                    COOPERATION
nance, rule of law, and human rights. During this reporting period, the people of
Afghanistan and the international community were preparing for the August 20,       COUNTER-NARCOTICS

2009 presidential and provincial council elections. The United States considers     ANTICORRUPTION
these elections to be an important milestone on Afghanistan’s road to improved
governance. As U.S. President Barack Obama noted in a press release dated June      GENDER EQUALITY

16, 2009, the United States “support[s] the right of the people of Afghanistan to   CAPACITY
choose their leaders.”135
                                                                                    ENVIRONMENTAL

August 20, 2009 Elections
Afghanistan’s Independent Election Commission (IEC) is responsible for con-
ducting the August 20, 2009, elections with support from the Government of the
Islamic Republic of Afghanistan’s (GIRoA’s) Ministry of Interior (MOI) and Min-
istry of Defense (MOD), and international security forces.136 As of May 9, 2009,
Afghanistan had 41 presidential candidates, including two women.137 To win the
presidential election, a candidate must receive a majority of votes, at least 50%
plus one.138 If any candidate fails to receive 50% plus one or more valid votes,
a second-round (run-off) election will be held.139 The candidate who accrues
the most votes is declared the winner.140 Some 3,324 individuals, including 342     Adopted on March 20, 2008, UN Security
women, are contesting 420 seats in 34 provincial council elections.141              Council Resolution 1806 affirmed the UN’s
   Unlike the 2004 democratic elections, the international community’s role is      commitment to Afghanistan’s journey to
primarily advisory. Under the authority of United Nations (UN) Security Council     achieving “sovereignty, independence, ter-
Resolution 1806, dated March 20, 2008, the international community is support-      ritorial integrity and national unity.”145 Reso-
                                                                                    lution 1806 further supports the GIRoA
ing the elections through the UN Assistance Mission in Afghanistan (UNAMA),
                                                                                    and the Afghan people in their efforts to
which designated the UN Development Programme’s Enhancing Legal and Elec-
                                                                                    “strengthen the foundations of sustainable
toral Capacity for Tomorrow (UNDP/ELECT) project to coordinate international        peace and constitutional democracy.”146
assistance for the election process.142 The United States has contributed $120
million to UNDP/ELECT to support the elections.143
   The U.S. Agency for International Development (USAID) is funding sepa-
rate elections-related activities through a number of local monitoring groups in
Afghanistan, as well as U.S. non-governmental organizations (NGOs), such as
the International Republican Institute (IRI), the National Democratic Institute,




            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009        63
                                  GOVERNANCE




                                  and the International Foundation for Electoral Systems.144 According to the U.S.
                                  Department of Defense (DoD), the United States is focused on ensuring the
                                  integrity of the election process.148 The GIRoA is leading the election-planning
                                  security efforts, with U.S. Forces - Afghanistan (USFOR-A) and the International
                                  Security Assistance Force (ISAF) playing supporting roles.149 DoD reported that
                                  the following guidelines should be a priority for all stakeholders in the elections
                                  process:
                                  • security and transportation access for presidential candidates
                                  • the presence of the necessary international observers with the appropriate
                                      logistical support
                                  • freedom for the media and the press to report on the election
                                  • security and logistical support for IEC, including the IEC Election Com-
                                      plaints Commission
                                  • adequate security preparations
                                  • implementation of a strategic communications plan150
The United States “seeks an
 enduring partnership with        Election Challenges
the Afghan people, not with
   any particular Afghan          Security
                                  According to the UN, the minister of Interior’s most immediate priorities include
leader…enabling the newly         providing security in principal cities and along highways on Election Day and
elected president and other       ensuring the 2009 elections are conducted in a free, fair, and transparent man-
     officials to deliver         ner.151 MOI is responsible for assigning specially trained law-enforcement offi-
                                  cials knowledgeable in election procedures to properly maintain security during
   governance, security,          the election.152 The Afghan National Army (ANA) and the Afghan National Police
   justice, and economic          (ANP), with peripheral support from the International Security Assistance Force
opportunity to all Afghans.”      (ISAF), are responsible for election security.153
                                     USAID announced plans to support the IEC’s mission to implement anticor-
—U.S. President Barack Obama147   ruption measures to safeguard the August elections.154 The IEC issued an official
                                  publication describing individual responsibilities for securing polling stations,
                                  identifying authorized persons permitted in the polling centers, and establishing
                                  the role of the international military on Election Day.155

                                  Anti-fraud Protections
                                  Voters who registered in the 2004 and 2005 elections will be able to re-use their
                                  registration cards in the August elections.156 In November 2008, the IEC launched
                                  a voter-registration campaign targeting individuals who had lost their registra-
                                  tion cards, relocated within the country, or became eligible to vote since 2005.157
                                  The IEC completed four phases of voter registration between November 2008
                                  and February 2009.158 The UN estimated a total of 4.5 million Afghans, with ap-
                                  proximately 38% being women, registered to vote during this period (see Figure
                                  3.39).159 Notably, the UN reported that 546,533 of the new registered voters live in
                                  some of the most volatile provinces.160




                                    64                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            BACKGROUND
                                               GOVERNANCE




INDEPENDENT ELECTION
COMMISSION
The IEC is responsible for setting policy, overseeing,
and administering the election.161 The IEC is composed
of a board of seven commissioners, appointed by the
president.162 The IEC Secretariat is headed by a chief
electoral officer.163
   Although the Afghanistan Constitution stipulated
that elections be held 30 to 60 days before the expira-
tion of the president’s term, which was supposed to
end on May 22, the IEC postponed elections to August
20, 2009, to encourage a greater voter turnout.164 The
international community endorsed the postponement,                    An Afghan citizen places his ballot in a box after he voted in
agreeing that additional time was needed to ensure                    the country’s first parliamentary elections in 2005.
the maximum number of Afghans would have the op-                      (U.S. Army photo, SPC Jason R. Krawczyk)

portunity to participate in the elections.165 In response
to protests over the postponement, the president of
                                                                          STRUCTURE OF INDEPENDENT ELECTION COMMISSION
Afghanistan issued a decree on February 28, 2009,
requesting the IEC to ensure elections were held in
accordance with all relevant articles of the Constitu-
tion.166 The IEC published a statement affirming its                                                     Chairman, Deputy,
                                                                                                        and 7 Members of IEC
selection of August 20 as the election date.167

Relevant Afghan Constitutional Provisions
Article 156 of the Afghanistan Constitution vests ex-                                                      Chief Executive
                                                                                                               Officer
clusive authority to the IEC to manage and oversee all
elections.168
   Article 157 of the Afghanistan Constitution identifies
the IEC as the entity responsible for monitoring imple-                                    Operational                        Administrative
mentation of the articles of the Constitution for unifor-                                    Deputy                              Deputy
mity and consistency.169

Presidential Eligibility
                                                                                                            Field Operation
Article 62 of the Afghanistan Constitution sets forth                                                         Department
the eligibility criteria for presidential candidates.170 To
qualify as president, a candidate must:

•   be a citizen of Afghanistan, Muslim, and born of                                                      34 IEC Secretariat
                                                                                                          Provincial Offices
    Afghan parents
•   be at least 40 years old on the day of candidacy
•   never have been convicted of a crime                                  Source: IEC, “IEC Structure,” www.iec.org.af/content.asp?id=structure, accessed
•   be independent of a non-official military force                       7/17/2009.

•   have not served more than two terms in office.171




              REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2009                       65
                                                              GOVERNANCE




FIGURE 3.39
                                                                 The IEC has taken action to prevent multiple ballot casting. IEC announced
NUMBER OF REGISTERED VOTERS,                                  that accredited agents and election observers would be used to ensure that the
NOVEMBER 2008–FEBRUARY 2009                                   entire electoral process would be conducted in accordance with all laws, regu-
                                                              lations, and international standards.174 According to IEC, all voters must prove
                    Total: 4,500,000                          their identity in advance of receiving a paper ballot.175 Each voter will have the
                                                              right to vote in secrecy, and upon receiving a ballot each voter’s finger will be
                                                              dipped in indelible ink.176
                                                                 Following the closing of all polling locations, each polling station has been
               Men                                            instructed to count the ballots and seal the original tallies in a “tamper-evident
               2,790,000         Women                        bag” to transfer to the national tallying center in Kabul.177 The IEC will conduct a
                                 1,710,000                    fraud investigation if there is any evidence that the tamper-evident bag was com-
                                                              promised.178 Following resolution of all fraud investigations or rectified errors,
                                                              the IEC will certify the results.179

Note: Numbers affected by rounding and are estimates.
                                                              Afghan Public Opinion Poll
Source: Report of the UN Secretary-General, “The Situation    The IRI recently reported that only 21% of Afghans surveyed characterize the po-
in Afghanistan and Its Implications for International Peace
and Security,” 6/23/2009, p. 2.                               litical landscape in Afghanistan’s regions as stable and peaceful.180 According to
                                                              the IRI, the objective of the poll was to gauge Afghan public opinion and use the
                                                              information in support of Afghanistan’s elections process.181 Almost half of the
                                                              respondents stated that Afghanistan’s stability has declined over the past year.182
                                                                  The IRI poll was conducted May 3–16, 2009.183 According to the IRI, trained
                                                              professionals conducted in-person interviews to collect the information used in
 Agents:(political party and candidate
                                                              the poll report.184 Respondents from all 34 provinces participated.185
 agents, hereafter agents), are accredited
 members of political parties or representa-
 tives of independent candidates. Political                   GOVERNANCE
 parties and candidates must be registered
 by the IEC to nominate agents.172
                                                              Background
 Observers:can be either domestic or inter-                   The GIRoA faces intense international scrutiny in anticipation of the country’s
 national observers. Elections observers are                  second democratic elections since the Taliban regime was removed from pow-
 representative of domestic and interna-                      er.186 The elections for the president and provincial officials will be the first
 tional organizations that are registered and                 GIRoA-orchestrated election in Afghanistan’s history.187
 accredited by the IEC.173                                       Since January 2004, Afghanistan has achieved significant accomplishments,
                                                              notably, the adoption of a new constitution and its first democratic elections—in
                                                              accordance with the Constitution—marking a new direction in Afghanistan’s gov-
                                                              ernment structure.188 However, USAID noted that factors such as Afghanistan’s
                                                              limited national and local government capacity, limited prosecution of high-level
                                                              corruption activities, and struggles in operating transparent and accountable gov-
                                                              ernment support classifying Afghanistan as a developing country.189 According
                                                              to the World Bank governance ranking index, Afghanistan’s percentile ranking
                                                              in 2003 ranged from 1.4 to 8.7, compared with a range of 0.5 to 11.1 in 2008.190
                                                              Afghanistan’s governance score in 2003, prior to the 2004 elections, was very low
                                                              for each of the six governance indicators.191 In 2008, both Afghanistan’s gover-
                                                              nance score in each of the six governance indicators and its percentile rankings




                                                                66                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                               GOVERNANCE




increased slightly.192 See Table 3.5 for Afghanistan’s governance performance
ranking.
   Afghanistan’s governance scores during the period between 2003 and 2008
provide insight into its progress over the past five years in achieving and sustain-
ing a free and fair democracy. The ANDS describes the GIRoA’s roadmap over the
next five-year period between 2008 and 2013.193

The Afghanistan National Development Strategy
The ANDS identifies governance, rule of law, and human rights as one of its three
pillars.194 This pillar is designed to:
• support democratic processes and institutions
• improve human rights and the rule of the law
• augment delivery of public services and government accountability195

   The ANDS references a 2000 World Bank assessment that Afghanistan’s
governance capacity fell in the bottom 1% of all countries.196 According to the
ANDS, establishing a stable Islamic constitutional democracy with three inde-
pendent and effective branches of government, all imbued with accountability
and transparency, is an important vision for the GIRoA.197 Part of that vision is
having the GIRoA strengthen both its formal and its informal governance struc-
ture, with the immediate goal of creating an efficient and stable democratic
political environment.198
   The ANDS builds upon the vision and the GIRoA’s commitment, adopting
specific benchmarks articulated in the Afghanistan Compact.199 According
to the Compact, “democratic governance and the projection of human rights
constitute the cornerstone of sustainable political progress in Afghanistan.”200
To achieve this objective, the GIRoA will identify candidates for public service


TABLE 3.5


WORLD BANK GOVERNANCE INDICATORS, PERCENTILE RANKING
                                   2003 Percentile        2003 Governance         2008 Percentile        2008 Governance
                                   Ranking                Score                   Ranking                Score
Governance Indicators              (0—100)                (-2.5—+2.5)             (0—100)                (-2.5—+2.5)
Voice and Accountability           8.7                    -1.45                   11.1                   -1.26
Political Stability                3.4                    -2                      1                      -2.64
Government Effectiveness           7.6                    -1.26                   8.5                    -1.31
Regulatory Quality                 2.4                    -1.79                   3.9                    -1.58
Rule of Law                        1.4                    -1.76                   0.5                    -2.01
Control of Corruption              1.5                    -1.62                   1.4                    -1.64
Note: Higher value indicates better governance ratings.
Source: World Bank, “Governance Indicators: Afghanistan,” http://info.worldbank.org/governance/wgi/index.asp, accessed
7/16/2009.




                      REPORT TO THE UNITED STATES CONGRESS                    I   JULY 30, 2009                          67
                                                                   GOVERNANCE
                                                                   BACKGROUND



             HISTORICAL BACKGROUND                                                                          last king.209 Zahir Shah’s reign lasted 40 years.210

             OF AFGHANISTAN’S                                                                               During this period, Afghanistan maintained its neutral-
                                                                                                            ity during World War II and enjoyed several decades of
             POLITICAL LANDSCAPE                                                                            internal peace.211 In 1964, Zahir Shah amended the
                                                                                                            monarchy requirements in Afghanistan’s Constitution.212
             The formal name of Afghanistan is the Islamic Republic                                             In 1973, Mohammad Daoud staged a coup d’état
             of Afghanistan (Dowlat-e Eslami-ye-Afghanistan).201 The                                        against Zahir Shah.213 Daoud, Zahir Shah’s cousin and
             acronym for the Government of the Islamic Republic                                             brother-in-law, declared himself president and prime
             of Afghanistan is GIRoA.202 Following the execution of                                         minister.214 Under Daoud’s leadership, the economy
             the Treaty of Rawalpindi, Afghanistan secured indepen-                                         declined.215 By 1978, a communist faction had ousted
             dence from the British Empire on August 19, 1919.203                                           Daoud.216
             Afghans celebrate August 19 as their National (Inde-                                               Various tribal groups continued competing for control
             pendence) Day.204                                                                              of Afghanistan until the Soviet Union’s invasion with
                During the 19th century, both Great Britain and                                             80,000 troops in 1979.217 The Soviet Union installed
             Russia vied for control of Afghanistan, for its strate-                                        Babrak Karmal as president.218 Mujahedeen guerrillas,
             gic location in the heart of central Asia and access                                           composed of different factions throughout the coun-
             to the Himalayan Mountains leading to India.205 Dur-                                           try, launched a decade-long guerrilla war against the
             ing this period, Great Britain discovered—at the cost                                          Karmal administration and Soviet occupation.219 The
             of significant casualties and financial loss—that the                                          war resulted in thousands of casualties, the collapse of
             Afghans’ reputation as ferocious and resilient warriors                                        the Afghan economy, and the creation of 5 to 6 million
             was well-earned.206 Toward the end of the 20th century,                                        refugees.220 The mujahedeen enjoyed combined sup-
             the Union of Soviet Socialist Republics (Soviet Union),                                        port from Pakistan and the United States, which directly
             the successor to the Russian Empire, experienced                                               contributed to victory over the Soviets.221 In 1989, the
             the same lesson before withdrawing Soviet troops in                                            Soviet Union agreed to withdraw from Afghanistan.222
             defeat.207                                                                                         The mujahedeen’s military success was short-lived,
                From 1919 through 2001, Afghanistan’s govern-                                               as a civil war between the various factions ensued.223
             mental structure existed in various forms, including a                                         From 1992 through 1996, various political alliances
             constitutional monarchy, an unelected regime, tribal                                           jockeyed to become the leading political and military
             warlords, and a radical Islamic authority.208 In 1933,                                         authority in Afghanistan.224 In 1994, the Pashtun Taliban
             Mohammad Zahir Shah was installed as Afghanistan’s                                             (Taliban), an Islamic fundamentalist group, leveraging



POLITICAL EVOLUTION OF AFGHANISTAN


                                                                                                                    1933: Mohammad Zahir Shah
                                                                                                                    installed as last king of Afghanistan

1900                                                                                                                                                           1950
    tttttttttttttttttttttt
                                                                 AUG 19, 1919:                                      1933: Beginning of 40 years of
                                                                 Afghanistan’s official                             peace
                                                                 date of independence
                                                                 from British rule


Source: LOC,”Country Profile: Afghanistan,” 8/2008, p. 3, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf,
accessed 7/17/2009.




                                                                       68                         SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                   BACKGROUND
                                                                   GOVERNANCE



  public disenchantment with the previous ruling parties,                            held “free and fair democratic elections for president,
  emerged as a strong political force.225                                            the National Assembly, and the Provincial Councils”
     By 1996, the Taliban’s military, economic, and social                           in October 2004.234 Approximately 77% of all eligible
  control extended over most of Afghanistan.226 The                                  voters, including women, participated.235 On October 9,
  Taliban, relying on strict Islamic principles, enacted a                           2004, Hamid Karzai was elected president of
  repressive regime that alienated many Afghans.227 For                              Afghanistan.236
  example, the Taliban “imposed rigid Muslim fundamen-
  talist structures, closed girls’ schools, prohibited wom-
  en from working, and required men to grow beards.”228

  Post-Taliban Governance
  In 2001, a U.S.-led coalition, under the authority of the
  Bonn Conference, removed the Taliban leadership after
  it failed to respond to international pressure to sur-
  render terrorist suspects who were using Afghanistan
  as a safe harbor.229 As part of the Bonn Agreement,
  the international community transferred power to an Af-
  ghanistan Interim Authority on December 22, 2001.230
  The Bonn Agreement mandated that an Emergency
  Loya Jirga be convened within six months to lead Af-
  ghanistan until free and fair elections could be held.231
  The Loya Jirga met between June 10, 2002, and June
  20, 2002, when it granted the Transitional Authority
  18 months to hold a second national Loya Jirga to
  draft a new Afghan Constitution and 24 months to hold
  national elections.232
      On January 4, 2004, the Constitutional Loya Jirga
                                                                                     Members of the Nangarhar PRT and Chaparhar Police Mentor
  adopted Afghanistan’s new Constitution, which provided                             Team meet with village elders at a school in Terelay Village.
  protections for private property, a market economy, and                            (U.S. Air Force photo, Capt. Dustin Hart)
  the foundation for a democratic regime.233 Afghanistan



                                                                                                                                                            AUG 20, 2009:
                                                                                                                                                            Ninety years following
                                                                                                                                                            independence, the first
                                                                                                                               2004: New constitution       Afghanistan government-
                                                  1978: Mohammad Daoud                    1996: Taliban gains control       ratified; election of Hamid     organized elections
                                                  overthrown by communist factions            of most of the country       Karzai as the first president    scheduled

                                                                                                                                        2000
tttttttttttttttttttt
                          1973: Coup d’état by       1979: Soviet Union                1989: Soviet Union         2001: U.S.-led coalition 2006: Afghanistan         2008: Afghanistan
                          Mohammad Daoud;            invades with 80,000               withdraws troops in        forcibly removes Taliban    Compact goes           National Development
                          Mohammad Zahir Shah’s      troops; holy warriors             defeat                            leadership; Bonn          into effect       Strategy adopted
                          reign ends                 engage in decade-long                                            Agreement executed
                                                     guerrilla war




               REPORT TO THE UNITED STATES CONGRESS                 I   JULY 30, 2009                         69
                                                 GOVERNANCE




                                                 on the basis of merit and skill.245 This change in philosophy marks the beginning
                                                 of “a more effective, accountable and transparent administration at all levels of
                                                 government.”246 Another objective discussed in the Compact is implementing
                                                 “measurable improvements in fighting corruption, upholding justice and the rule
                                                 of law, and promoting respect for the human rights of all Afghans.”247
                                                    As shown in Figure 3.40, the GIRoA is composed of three branches of
 “Improving governance is                        government: executive, legislative, and judiciary.248 Progress toward building
essential to the attainment                      sufficient capacity within each branch varies. The GIRoA faces many challeng-
  of the Government’s na-                        es—such as high levels of corruption, an ineffective and poorly defined justice
                                                 system, and security deficiencies that could potentially derail the GIRoA’s
tional vision and the estab-                     forward momentum.249
  lishment of a stable and                          For the executive branch, ensuring the upcoming elections occur without inci-
     functioning society.”                       dent has been the primary focus over the past quarter. The August 2009 elections
                                                 represent an important milestone in the development of Afghanistan’s political
       —Afghanistan National                     independence. According to DoD, the development of Afghanistan’s governance
        Development Strategy:                    capacity is progressing slowly.250 The elections, an important governance objec-
      Governance, Rule of Law,                   tive, are significant to achieving the benchmarks for governance articulated in
                                                 the Afghanistan Compact and adopted in the ANDS.251 The GIRoA projects that
             & Human Rights
                                                 successful completion of free and fair elections will improve the parliamentary
                                                 and legislative processes.252
                                                    Within the legislative branch, the National Assembly made some progress this
                                                 year.253 For example, the National Assembly passed a mortgage law and a private
                                                 investment law, two much-needed laws intended to encourage economic devel-
Elected in October 2004, Hamid Karzai is         opment.254 The National Assembly also made progress on legislation regulating
the current president of Afghanistan.237 As      water usage, the mining industry, and oil and gas production.255 Despite some
president, he is the leader of the executive
                                                 progress in key areas, the overall performance of the National Assembly has
branch, serves as the commander-in-chief
                                                 been poor because of absenteeism and the inability to pass routine legislation.256
of the armed forces, and is the head of
state.238 The president of Afghanistan           Notably, the Wolesi Jirga failed to reach a quorum on more than half of its busi-
serves a five-year term.239 The president’s      ness days during 2008, limiting its effectiveness on any given day.257 On days
term expires on May 22 of the fifth year         when a quorum was reached, it was unable to sustain a quorum the entire day.258
subsequent to the previous election.240              DoD reported that the U.S. and the international community continue to build
                                                 the capacity of the judicial system in Afghanistan consistent with the ANDS rule-
                                                 of-law objectives.259 The GIRoA, with support from U.S. Department of Justice
The Wolesi Jirga comprises 249 representa-       (DoJ) senior legal advisors, has increased the number of narcotics prosecutions
tives and the Meshrano Jirga comprises           under the Central Narcotics Tribunal (CNT) and Criminal Justice Task Force
102 members.241 The allocation of the
                                                 (CJTF) in Kabul.260 Over a six-month period, DoD reported that the combined
Wolesi Jirga seats is calculated based on
                                                 efforts of CJTF and the CNT resulted in the following:261
the distribution of the population geo-
graphically, and its members are elected by      • investigation of 188 separate cases involving 201 suspects
the people of Afghanistan.242 The provincial     • conviction of 113 suspects in district primary court; conviction of 189
councils, district councils, and the president       suspects in appellate court
appoint the 102 members of the Meshrano          • handing over 503 individuals for incarceration
Jirga.243 The National Assembly acts as the
highest legislative body.244                        According to the ANDS, strengthening public administration includes provid-
                                                 ing support for provincial and district governance capacity-building.262 USAID’s




                                                   70               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                  GOVERNANCE




FIGURE 3.40

AFGHANISTAN GOVERNMENT BRANCHES



                  GOVERNMENT OF THE ISLAMIC REPUBLIC OF AFGHANISTAN (GIRoA)

                                                                                                                                    “One of the objectives of
             Legislative
                                                                                                                                   the Afghanistan Compact
                                                        Executive                                 Judiciary
          (National Assembly)
                                                                                                                                  is to establish a permanent
                                                                                                                                     civil and voter registry
   Upper House         Lower House                                                                Stora                              using a single national
 Meshrano Jirga        Wolesi Jirga                     President                                Mahkama
    (102 Seats)         (249 Seats)                                                            (Supreme Court)                    identification document by
                                                                                                                                        the end of 2009.”
                                             1st Vice               2nd Vice                     Provincial                        —The Afghanistan Compact:
                                            President               President                  Court Stations
                                                                                                 (34 Courts)                                        Elections


                                                        Ministers                                Primary
                                                     (23 Ministers)                           Court Stations
                                                                                                (408 Courts)                      The president of Afghanistan and the
                                                                                                                                  bicameral National Assembly, defined in
                                                                                                                                  the 2004 Constitution, are elected and ap-
Sources: Afghanistan Constitution, Chapter III (The President), Chapter IV (The Government), Chapter V (The National Assembly),
Chapter VII (The Judiciary), 1/4/2004; Economist Intelligence Unit, Ltd., Afghanistan Country Profile 2008, p. 7.                 pointed positions.268 The National Assembly
                                                                                                                                  consists of two chambers: the lower cham-
                                                                                                                                  ber, Wolesi Jirga (House of the People), and
                                                                                                                                  the upper chamber, Meshrano Jirga (House
Local Governance and Community Development (LGCD) program, in alignment                                                           of Elders).269
with the ANDS, provides mentors to provincial governors and line ministries and
organizes small, community-led development activities to strengthen sub-national
governance.263 USAID’s Afghan Municipal Strengthening Program’s (AMSP) ob-
jectives are to improve existing governance procedures for municipalities.264
   Other programs focus on electricity, water, and sanitation services on a cost-
recovery basis, and a large, new municipal governance program is in the final
approval stages.

Human Rights
Another objective discussed in the Afghanistan Compact and subsequently
adopted in the ANDS is implementing “measurable improvements in fighting
corruption, upholding justice and the rule of law and promoting respect for the
human rights of all Afghans.”265 Consistent with the ANDS, reducing the number
of human rights violations is an important priority for the GIRoA.266 According to
DoD, improvements in human rights protection have been minimal.267




                     REPORT TO THE UNITED STATES CONGRESS                        I   JULY 30, 2009                         71
                                           GOVERNANCE




                                              The UN Secretary-General reported that Afghanistan continues to encounter
                                           noteworthy human-rights challenges, attributed to decades of decline from weak
                                           governance, pervasive corruption, extreme poverty, and discriminatory laws and
                                           practices against women and girls.270

                                           Gender Equality Issues
AFGHANISTAN NATIONAL                       According to the ANDS, promoting gender equality by reversing historic discrimi-
DEVELOPMENT STRATEGY (ANDS)                nation against women is one of six cross-cutting areas.271 The gender equality
                                           cross-cutting strategy articulates a roadmap to:
                         GOV   DEV
                    SEC      E     EL      • change the treatment of women in society
                       URIT RNANC OPMEN
                           Y     E     T   • improve their social and economic status
                                           • increase their access to development opportunities
REGIONAL
COOPERATION

COUNTER-NARCOTICS                             As defined in the ANDS, “gender equality” is when both women and men enjoy
                                           their individual rights and can equally contribute to and enjoy the benefits of
ANTICORRUPTION
                                           development, and each is free to pursue a full and satisfying life.272 Progress in
GENDER EQUALITY                            achieving gender equality continues to pose a challenge. The ANDS identifies
                                           three important priorities to achieving gender equality:
CAPACITY
                                           • achieve the gender-specific benchmarks identified in the Afghanistan Com-
ENVIRONMENTAL                                 pact (see Table 3.6)
                                           • achieve all gender commitments described in each of the ANDS sectors
                                           • create basic institutional capacities within the ministries and other govern-
                                              ment agencies related to gender integration 273

                                              In March 2009, the president of Afghanistan signed the Shi’a Personal Status
                                           Bill into law.274 The United States has concerns that the Shi’a Personal Status law
 “Basic human rights and                   violates the Afghanistan Constitution by permitting husbands the right to legally
  freedom are essential to                 rape their wives.275 DoD reported that in response to continued international
                                           and domestic protests, enforcement of the Shi’a Personal Status law would be
building a strong free mar-
                                           suspended pending the president of Afghanistan’s review.276
  ket economy in addition
 to being essential for any                Refugees
        democracy.”                        Over the past three decades, more than 6 million Afghans have become refugees,
                                           seeking international protection from neighboring countries such as the Islamic
           —Afghanistan National           Republic of Pakistan and the Islamic Republic of Iran.277 The UN High Commis-
            Development Strategy:          sioner for Refugees (UNHCR) estimated that 25% of the world’s refugee popula-
                                           tions are displaced Afghans.278
                   Human Rights
                                              According to UNHCR, Afghan refugees are dispersed in 69 countries.279 The
                                           trend of Afghans fleeing the country is changing, however. In 2008, UNHCR
                                           estimated that more than 250,000 Afghan refugees returned home, bringing the
                                           number of Afghan refugees who have returned since 2002 to more than 5 million,
                                           approximately one-fifth of Afghanistan’s population.280 The GIRoA, in the ANDS,
                                           estimates that an additional 3 million Afghan refugees continue to live in the
                                           Islamic Republics of Iran and Pakistan, which strains relations between the




                                             72                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                             GOVERNANCE




TABLE 3.6


ANDS GENDER EQUALITY BENCHMARKS
Target Date                      Afghanistan Compact Benchmarks
End 2010                         National Action Plan for Women will be fully implemented.
End 2010                         National Acton Plan will be in line with Afghanistan’s Millennium Development Goals.
End 2010                         Female participation in all Afghan governance institutions will be strengthened.
End 2010                         Prisons will have separate facilities for women.
                                                                                                                            “The ANDS strategic
End 2010                         Net enrollment in primary school for girls will be at least 60%.                         objective with respect to
End 2010                         Number of female teachers will be increased by 50%.                                      refugees, returnees, and
End 2010                         35% of students enrolled in universities will be women (out of 100,000 students
                                 targeted).                                                                              IDPs is to efficiently man-
End 2010                         Using public and private support, 150,000 men and women will receive training in        age their voluntary return
                                 marketable skills.
End 2010                         Number of female-headed households that are chronically poor will be reduced by
                                                                                                                           and their reintegration
                                 20%.                                                                                    into productive participa-
End 2010                         Employment rates for women will be increased by 20%.
                                                                                                                              tion in society.”
Note: The ANDS adopted the benchmarks and timelines from the Afghanistan Compact.
Source: GIRoA, The Afghanistan Compact, 2/2006, Annex I, pp. 6–11.                                                                   —Afghanistan National
                                                                                                                                      Development Strategy
GIRoA and its neighbors.281 As shown in Figure 3.41, 2.1 million Afghans fled to
Pakistan and 900,000 Afghans fled to Iran.
   The ANDS presents a modified sector strategy that targets the remaining 3                                             FIGURE 3.41
million Afghans.282 Under this revised strategy, the GIRoA projects that even with
                                                                                                                         DISTRIBUTION OF AFGHAN REFUGEES
the implementation of specific programs focused on reintegrating refugees and                                            IN ISLAMIC REPUBLICS OF IRAN AND PAKISTAN
internally displaced persons (IDPs), a significant population will still remain in
Pakistan and Iran through 2013.283 The GIRoA estimates as many as 1 million
                                                                                                                                               UZBEKISTAN
Afghans or as few as 400,000 Afghans may voluntarily or forcibly return to
                                                                                                                                                                       TAJIKISTAN CHINA
Afghanistan.284                                                                                                                 TURKMENISTAN




JUDICAL REFORM AND PROSECUTION                                                                                                                      2,100,000
                                                                                                                                                    Refugees
                                                                                                                                   900,000          to Pakistan
                                                                                                                                        Refugees
Judicial System                                                                                                                           to Iran
                                                                                                                         IRAN
Five U.S. agencies are involved with building Afghanistan’s justice system: the
                                                                                                                                                            PAKISTAN
Department of State (DoS) Bureau for International Narcotics and Law Enforce-
ment (INL), DoJ, USAID, the Drug Enforcement Administration (DEA), and DoD.
INL carries primary responsibility for justice reform in Afghanistan.285
                                                                                                                         Note: Numbers are affected by rounding.
   USAID has reported that Afghans are wary of a formal justice system. Their
concerns relate to the integrity of the investigators, prosecutors, and judges,
“who are often part of the problem rather than the solution.”286 The ANDS de-
scribes the GIRoA’s vision for the judiciary system to become an impartial and
independent justice system that guarantees the security of life, religion, property,




                    REPORT TO THE UNITED STATES CONGRESS                    I   JULY 30, 2009                       73
                                                                      GOVERNANCE




                                                                      family and reputation, with respect for liberty, equality before the law, and access
                                                                      to justice for all.287
                                                                          When amended in 2004, the Constitution adopted three significant reforms to
                                                                      the Afghanistan judicial system.288 Pursuant to Article 116 of the Constitution, (1)
                                                                      the judiciary acts as an “independent organ of the State,” (2) the Supreme Court
                                                                      is identified as the head of a unified judicial system, and (3) the Constitution is
                                                                      the guiding authority interpreting the law.289 According to the ANDS, the GIRoA
                                                                      must install a legal framework consistent with the Constitution for civil, criminal,
                                                                      and commercial law by the end of 2010 (Table 3.7).290
                                                                          The ANDS describes Afghanistan’s justice system as a combination of civil law
                                                                      and Islamic Sharia-based law that has evolved over time.291 Within the non-urban
                                                                      areas, the ANDS identifies the customary legal system as based on traditional
                                                                      tribunals.292 The ANDS further describes a customary system based on the prin-
                                                                      ciples of apology, forgiveness, and reconciliation.293
                                                                          Similarly, each Afghan province has committed to installing functioning
                                                                      institutions of justice by the end of 2010.294 Until that time, the GIRoA intends to
                                                                      continue focusing on reforming key institutions of justice, such as the Ministry
                                                                      of Justice (MOJ), the judiciary, the Attorney General’s Office (AGO), MOI, and
                                                                      the National Directorate of Security to improve professionalism, credibility, and
                                                                      integrity.295

                                                                      U.S. Support for Justice Reform and Prosecution
                                                                      According to the Compact, judicial reformation in Afghanistan is a priority for
                                                                      both the GIRoA and the international community.296 The Afghan judiciary is
                                                                      composed of one Supreme Court, 34 provincial court stations, and 408 primary
                                                                      court stations dispersed throughout 400 locations.297 Independent judicial power
                                                                      is conferred on the Supreme Court, the highest court in Afghanistan.298


TABLE 3.7


ANDS RULE OF LAW BENCHMARKS
Target Date                     Afghanistan Compact Benchmark
End 2010                        Pursuant to the Constitution, implement legal framework, including civil, criminal and commercial law established and distributed to all judicial
                                and legislative institutions.
End 2010                        Each province will have a fully operational and functioning institution of justice.
End 2010                        Reformation of oversight procedures relating to corruption, lack of due process and miscarriage of justice will be completely implemented.
End 2010                        Reformation of key justice institutions (MOJ, Judiciary, AGO, MOI, and the National Directorate of Security) to strengthen professionalism, credibility, and
                                integrity.
End 2010                        Justice infrastructure will be rehabilitated to provide for separate facilities for men and women.

Notes: The role of the justice sector in the government’s development strategy is to ensure improved integrity, performance, and infrastructure of Afghanistan’s justice institutions.
Source: GIRoA, “The Afghanistan National Development Strategy,” 6/2008, p. 65.




                                                                           74                          SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE




   In May 2005, supporting Afghanistan’s judicial reform initiatives, INL de-         The Justice Sector Support Program (JSSP),
veloped a justice reform program for Afghanistan incorporating the following          launched as a pilot program in 2005, is the
principles:                                                                           INL’s comprehensive approach to criminal
• Reconstruction in Afghanistan cannot succeed without a functioning                  justice reform. The JSSP provides support to
    criminal justice system to enforce the rule of law.                               the Afghan justice sector, including mentor-
                                                                                      ing and training for MOJ, the AGO, and other
• The long-term effectiveness of the Afghan police program depends on a func-
                                                                                      relevant justice institutions.315
    tioning criminal justice system.
• Counter-narcotics law enforcement efforts need to be accelerated and bol-
    stered to effectively tackle the drug problem.299                                 The Attorney General’s Office assistance
                                                                                      section (AGOAS) provided assistance to the
   According to INL, these guiding principles are the foundation of the GIRoA’s       Attorney General to draft the AGO’s develop-
                                                                                      ment strategy. The AGOAS is an independent
counter-narcotics justice system.300 INL manages several programs to improve
                                                                                      component of the JSSP. In conjunction with
the administration of justice in Afghanistan.
                                                                                      MOI, it established the MOI-AGO Commission
                                                                                      to improve coordination between the police
INL’s Justice Programs                                                                force and prosecutors.316
The Counter-narcotics Justice program is part of the five-pillar counter-narcotics
strategy, to which INL and DoJ provide funding, to establish a specialized task
                                                                                      The Access to Justice and Integration Section
force for prosecuting narcotics cases. The program team includes six senior fed-
                                                                                      (AJIS) partnered with MOJ to establish the
eral prosecutors, two to three criminal investigators, and members from the U.S.
                                                                                      Independent National Legal Training Center
Marshals Service (USMS).301 The Special Operations Group (SOG) of the USMS is         (INLTC) and to draft a charter establishing
not funded by INL or INL’s mission.302                                                INLTC as the exclusive entity to certify pro-
   INL also provides financial support to DoJ to conduct training and mentoring       spective prosecutors and defense attorneys,
for Afghan prosecutors and police investigators within the CJTF.303 Since 2007,       as well as members of the Afghan Bar
the USMS Special Operations Group (SOG), funded separately from INL, assisted         Association. The AJIS also is an indepen-
the Afghan judiciary with providing court security in Kabul.304 In response to the    dent component of JSSP. In 2008, the AJIS
chief justice’s assassination several months ago, the USMS provides security          provided training and mentoring to more than
for judiciary members.305 According to DoJ, the USMS also conducts training           1,100 Afghan justice personnel.317
activities pertaining to the operations of the Counter-narcotics Justice Center
(CNJC).306 The CNJC began operations on May, 1, 2009, according to INL.307 INL        The Corrections System Support Program
reported that the CNJC will support GIRoA’s continuous interdiction efforts.308       (CSSP), established in 2006, is structured to
The CNJC includes detention facilities and office space for prosecutors and           support the Afghan Central Prison Director-
judges as well as support facilities for occupants, such as dining and sleeping       ate to provide training, capacity building, and
facilities.309                                                                        infrastructure support. CSSP has more than
   DoJ reported that the number of security personnel trained or mentored             30 advisors deployed in various areas.318
and their achievements are the tools SOG uses to measure its own accomplish-          In partnership with the University of Washing-
                                                                                      ton School of Law, the INL established a legal
ments.310 SOG has mentored or trained 160 personnel and provided a total of 810
                                                                                      education program providing financial means
hours of training.311 As of June 30, 2009, DoJ reported there have been no breach-
                                                                                      for Afghan law professors to learn English as
es of security or no reported attacks on CNJC.312                                     well as earn a degree or certificate.319
   In addition to the activities of the USMS, DoJ’s criminal division and DEA
provided limited assistance to judiciary security efforts.313 According to DoJ, the
criminal division assisted in the acquisition of armored vehicles used for judicial
security.314




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009        75
GOVERNANCE




Counter-narcotics Justice System
Afghanistan’s Counter-Narcotics Justice System is composed of three main divi-
sions: the CJTF, the CNT, and the CNJC, all based in Kabul.320 CJTF is responsible
for investigating and prosecuting counter-narcotics cases in Afghanistan. CNT,
which has authority over all counter-narcotics-related crimes meeting certain
criteria amounts (such as possession of 2 kg of heroin, 10 kg of opium, 50 kg of
hashish, and precursor chemicals), presides over both counter-narcotics-related
crimes and drug-related corruption.321 CNJC is the venue for all trials.322 CNJC
opened its doors on May 1, 2009.323 It serves as a secure facility for holding and
prosecuting major narcotics offenders.324 DoD provided financial assistance for
the construction of this facility.325
   As shown in Table 3.8, the JSSP regional program provides support to
the Afghan judiciary. Strengthening the judiciary through mentoring supports
GIRoA’s vision for improving the justice sector of Afghanistan is consistent
with the benchmarks set forth in the ANDS.326 INL reported that JSSP Advisors,
through the JSSP program, mentored provisional chief prosecutors and criminal
investigation divisions in 15 provinces throughout Afghanistan.327 Figure 3.42
shows the provinces in which Afghan judiciary members receive mentoring and
training support.

TABLE 3.8


INL JUSTICE AND RULE OF LAW PROGRAMS ($ MILLIONS)
Program Name                             Description                                                                 Funds Allotted
JSSP                                     Supports the Afghan justice sector                                                $132.5
CSSP                                     Supports the Afghan corrections system,                                             $88.4
                                         including training with MOJ and Central Prisons’
                                         Directorate
Counter-narcotics Justice and            Supports CJTF, Anticorruption Unit, and CNT                                          $7.0
Anticorruption
Justice Integration                      Supports local and national NGOs including U.S.                                      $2.0
                                         Institute of Peace
Judicial Security                        Supports improvements to judicial security for                                       $2.0
                                         CNT and to assist MOJ
Justice Trust Fund Support               Provides salary support for justice sector                                          $10.0
Legal Education and Access to            Supports additional education of Afghan legal                                        $5.0
Justice                                  professionals and the Afghan general public on
                                         developments in the Afghan legal sector
Justice Infrastructure                   Supports development of justice sector infra-                                       $10.6
                                         structure
Corrections Infrastructure               Supports development of corrections system                                          $15.0
                                         infrastructure
Total                                                                                                                     $272.5

Notes: Numbers affected by rounding. INL funding terms (allotted) reported as provided by INL except as specified.
Sources: INL, responses to SIGAR data call, 7/2/2009 and 7/7/2009.




    76                          SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                                                                     GOVERNANCE




   Consistent with programs established to improve the rule of law, Afghanistan
is committed to rehabilitating its justice infrastructure (such as prisons), includ-
ing erecting separate facilities for women and juveniles.328 According to DoD,
Afghanistan’s prison population increased by 21% in 2008.329 The United States
is considering a prison reform strategy, drafting standard operating procedures,
and reviewing prisoners’ sentences and conditions to ensure that prisoners’
rights are protected.330 After a review of more than 4,000 prisoners’ case files, 89
inmates were identified as eligible for release.331
   USAID reported that most Afghans believe corruption exists in the formal
justice system and have little confidence in justice being properly adjudicated.332
Instead of resolving conflict through the formal judicial system, some Afghans,
particularly those who reside outside city limits, use community dispute resolu-
tion venues such as local tribunals.333

FIGURE 3.42

INL JSSP, MENTORING PRESENCE BY PROVINCE


                                             UZBEKISTAN
                                                                                                                         TAJIKISTAN        CHINA
        TURKMENISTAN
                                             JOWZJAN                       KUNDUZ TA                 BADAKHSHAN
                                                         BALKH                            KH
                                                                                               AR
                                                                        N
                                                                      GA
                                  FARYAB                          MAN        BAGHLAN
                                                               SA
                                             SAR-E PUL                                           HIR
                                                                                              NIS NURISTAN
                                                                                         PA
                        BADGHIS                                                    AN                             R
                                                                                                               NA
                                                                                          KA

                                                                                                LA




                                                                               RW
                                                                                          PIS

                                                                                                   GH




                                                         BAMYAN              PA                              KU
                                                                                               A

                                                                                                     MA
                                                                                                        N




                                                                                    KABUL
           HERAT                                                      WARDAK                        NANGARHAR
                                  GHOR
                                                                                    AR
                                                                                     G
                                                                                         IYA
                                                                                  LO




                                             DAYKUNDI
                                                                                         KT

                                                                                                    ST
                                                                                     PA

                                                                                               OW




                                                               GHAZNI
                                                                                          KH




                                           URUZGAN
              FARAH                                                         PAKTIKA
                                                       ZABUL

                                                                                                                      Mentoring Presence

             NIMROZ     HELMAND          KANDAHAR
IRAN

                                                                                  PAKISTAN



Source: INL, response to SIGAR data call, 7/2/2009.




                      REPORT TO THE UNITED STATES CONGRESS                                          I     JULY 30, 2009                    77
                                               GOVERNANCE




                                               RULE OF LAW
                                               Since 2002, the U.S. Congress has appropriated $76 million for programs to
                                               strengthen rule of law in Afghanistan.336 Table 3.9 depicts the status of DEA funds
                                               appropriated.

                                               Counter-narcotics Rule of Law
                                               Counter-narcotics rule-of-law initiatives are divided between interdiction and law
                                               enforcement (which supports training and support programs for police and other
                                               law enforcement) and justice reform and prosecution (which works to enhance
                                               the Afghan justice system and its capabilities).337

Interdiction Programs:work to develop
                                               Interdiction and Law Enforcement
Afghanistan’s ability to arrest and pros-
                                               INL reported that the United States provides approximately $200 million per year
ecute command-and-control elements
of drug organizations; this will support       in support to counter-narcotics interdiction and law enforcement through DoD,
Afghanistan’s capacity to disrupt and          DEA, and INL.338
dismantle drug trafficking organizations.334
                                               Operation Data and Intelligence Collection and Exchange
Law Enforcement Programs:work to               In 2008, Operation Data and Intelligence Collection and Exchange (DICE)
enhance Afghanistan’s capacity to arrest,      tracked the movement of a precursor chemical for heroin—acetic anhydride—
prosecute, and process drug traffickers        across Europe, East Asia, and the Middle East. Operation DICE identified
and corrupt officials.335                      trafficking patterns, uncovering previously unknown sources and trading coun-
                                               tries.339 INL reported that the GIRoA identified acetic anhydride as having “no
                                               legitimate use” in the country.340 Plant-based drugs, including cocaine, morphine,
                                               and heroin, require “precursor chemicals” (chemicals mixed with the plants to


                                               TABLE 3.9


                                               DEA FUNDS, FY 2002–2009 ($ MILLIONS)
                                               Appropriation                                           Actual                       Obligated                      Disbursed
                                               FY 2002                                                 $0.58                            $0.58                          $0.58
                                               FY 2003                                                 $2.87                            $2.74                          $2.74
                                               FY 2004                                                 $3.72                            $3.27                          $3.27
                                               FY 2005                                                $16.77                           $12.30                         $12.30
                                               FY 2006                                                $23.66                           $21.27                         $21.08
                                               FY 2007                                                $15.79                           $15.79                         $10.26
                                               FY 2007 (Supplemental)                                  $4.59                            $4.89                          $4.72
                                               FY 2008                                                $18.20                           $13.28                          $8.97
                                               FY 2008 (Supplemental)                                 $22.39                           $12.73                          $9.17
                                               FY 2009                                                $18.80                            $6.62                          $3.35
                                               Total                                               $127.37                           $93.47                         $76.44

                                               Notes: This table represents funding from FY 2001 through FY 2009. Numbers are affected by rounding. DoJ-DEA funding terms
                                               (actual, obligated, and disbursed) reported as provided by DoJ except as specified.
                                               Source: DoJ, response to SIGAR data call, 7/7/2009.




                                                   78                        SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                                                 GOVERNANCE




create drugs) for production. The U.S. counter-narcotics strategy includes                                                     “The United States, our
targeting illicit commercial use of precursor chemicals.341 According to INL,                                                   international partners,
regulation of precursor chemicals such as acetic anhydride is considered a                                                      and most importantly,
serious challenge for Afghanistan because Afghanistan is the source of 93% of
the world’s opium poppies and the location of an increasingly high percentage of                                               the Afghans, must work
heroin production.342                                                                                                         to reduce corruption and
                                                                                                                                 strengthen the rule of
ANTICORRUPTION EFFORTS                                                                                                       law. Without real progress
Afghanistan faces many challenges in combating corruption in multiple facets of                                                on these issues, success
its reconstruction efforts, such as implementing strategies for training                                                        will be very difficult to
security forces, promoting democracy through free and fair elections, and foster-
ing economic development through legal means.343 According to the Afghanistan
                                                                                                                                       achieve.”
Compact and the ANDS, anticorruption is a key cross-cutting issue.344 As shown                                                              —U.S. Ambassador
in Table 3.10 the ANDS describes the GIRoA’s commitment to controlling cor-
                                                                                                                                                 to Afghanistan
ruption using the Afghanistan Compact anticorruption benchmarks. Specifically,
the GIRoA recognizes that corruption in the judicial, financial management, and                                                            Karl W. Eikenberry353
service-delivery responsibilities of government significantly affects the power of
government in a fundamental way.345
    USAID defines corruption as “the abuse of public position for private gain.”346
USAID reported that pervasive corruption in Afghanistan undermines successful
implementation of security, economic development, and state- and democracy-
building initiatives.347 Finding a delicate balance between diverse local practices
and preventing widespread corruption is imperative for establishing the GIRoA’s                                              AFGHANISTAN NATIONAL
authority, according to USAID.348                                                                                            DEVELOPMENT STRATEGY (ANDS)
    The past 30 years of international and regional conflicts have destabilized
Afghanistan’s government institutions and fragmented the country. Existing anti-                                                                      GOV   DEV
                                                                                                                                                 SEC      E     EL
corruption laws need to be strengthened to define the conduct that is prohibited                                                                    URIT RNANC OPMEN
                                                                                                                                                        Y     E     T
and the associated punishment, as a deterrent. For example, USAID noted that
                                                                                                                             REGIONAL
                                                                                                                             COOPERATION

                                                                                                                             COUNTER-NARCOTICS
TABLE 3.10

                                                                                                                             ANTICORRUPTION
ANDS ANTICORRUPTION BENCHMARKS
Target Date             Cross-cutting issue          Benchmark                                                               GENDER EQUALITY

End 2010                Anticorruption               In accordance with Article 50 of the Constitution, citizens will have   CAPACITY
                                                     unlimited right of access to information from GIRoA offices.
End 2010                Anticorruption               The GIRoA will increase the number of arrests and prosecutions of       ENVIRONMENTAL
                                                     drug traffickers and corrupt officials.
End 2013                Anticorruption               The GIRoA will significantly reduce corruption in the judiciary and
                                                     government in the areas of security, customs, civil administration,
                                                     and municipalities.

Source: GIRoA, “The Afghanistan National Development Strategy,” 6/2008, p. 72.




                   REPORT TO THE UNITED STATES CONGRESS                          I   JULY 30, 2009                  79
                                               GOVERNANCE




                                               the Law on the Campaign against Bribery and Official Corruption fails to define
                                               prohibited conduct, such as bribing, illegally recommending, requesting, and
                                               lobbying.349 USAID reported that the GIRoA needs to strengthen the application,
                                               coordinate and streamline certain provisions, and modify the practices of its
                                               existing anticorruption laws and policies to prevent corruption.350
The Capacity Development Program works
closely with the minister of finance and the   Anticorruption Programs
Independent Administrative Reform and          USAID assists the GIRoA in its effort to strengthen the transparency, account-
Civil Service Commission to modernize fi-      ability, and effectiveness of the critical functions of Afghanistan’s national and
nancial and human resource management.         sub-national governments.351 According to USAID, efforts to circumvent corrup-
                                               tion are directed to core governance and rule-of-law capacity programs dedi-
The Office of the President/Support for the    cated to improving transparency and accountability within the critical aspects
Center of Government (OoP/SCoG) sup-           of government.352 The Capacity Development Program, Office of the President/
ports basic public-administration capacity     Support for the Center of Government (OoP/SCoG), and the Afghanistan Rule-of-
development throughout the OoP for finan-      Law Program (AROLP) are designed to foster transparency, accountability, and
cial management, information technology,
                                               effectiveness in circumventing corruption activities.355
and other critical capacity development.
                                                   USAID identified other U.S. government agencies that also provide substan-
The Afghanistan Rule-of-Law Program            tive assistance to supporting Afghanistan’s anticorruption efforts.356 DoS, through
(AROLP) provides training for more than        its Economic Section, provide policy guidance to the central ministers in devel-
1,000 judges; support for development          oping and strengthening the GIRoA’s anticorruption efforts. USAID reported that
of systems for case management, track-         the political and political-ministry sections of DoS work closely with Afghan min-
ing, and open information for courts; and      istries and the National Assembly in addressing anticorruption issues.357 The U.S.
support for developing a code of ethics for    Treasury (Treasury), according to USAID, also has provided mentoring support
judges.354                                     to MOF in providing public financial management reform to ensure transparency
                                               in the use of public funds.358
                                                   With assistance from INL, the Anticorruption Unit (ACU) in the AGO was
                                               established.359 According to INL, the ACU is a 15-member team of investiga-
                                               tive prosecutors specially selected by the Attorney General to investigate and
                                               prosecute corruption cases nationwide.360 The JSSP Advisors and the INL-funded
                                               DoJ prosecutors provide mentoring services.361 The Attorney General has teamed
                                               with the international community to develop a new vetting process for current
                                               and future prosecutors in the ACU.362

                                               High Office of Oversight for the Implementation of the
                                               Anticorruption Strategy
                                               The High Office of Oversight for the Implementation of the Anticorruption Strat-
                                               egy (HOO) opened its Kabul headquarters in July 2008.363 According to USAID,
                                               establishing HOO—a new, dedicated anticorruption agency—is a significant
                                               achievement for the GIRoA.364 In this capacity, HOO will focus its resources on
                                               preventing corruption as well as disseminating more information to the public
                                               relating to the processes and costs of government ministries and departments.365




                                                 80               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE




    According to the UN Secretary-General, one of HOO’s primary responsibilities
is to host regular meetings with the president, the Supreme Court, the Attorney
General, and MOJ.366 USAID reports that, as a relatively new organization, HOO
will be responsible for oversight and reporting for the Afghan government using
guidance articulated in the UN Convention against Corruption (UNCAC).367
According to USAID, HOO is responsible for the following functions:
• strategy                                                                            The UN Convention against Corruption (UN-
• oversight                                                                           CAC), enacted on September 29, 2003, set
• prevention                                                                          forth a detailed, comprehensive, and mul-
                                                                                      tidisciplinary approach for the “prevention,
• complaints
                                                                                      investigation, and prosecution of systemic
• case tracking
                                                                                      corruption.” The UNCAC includes 71 articles
• asset registration                                                                  addressing topics such as public reporting,
• public outreach                                                                     preventing money-laundering, and criminal
   USAID provides technical assistance to HOO for institutional establishment         enforcement. It also recommended preven-
and provides staff training and other assistance to prevent corruption within         tive anticorruption policies and practices
                                                                                      that a sovereign nation can implement
HOO.368 According to USAID, efforts to combat corruption in Afghanistan target
                                                                                      through its own governance mechanisms.372
core governance and rule-of-law capacity development.369 The GIRoA, through its
ministries and agencies, will collaborate with HOO to identify areas of vulnerabil-
ity to corruption and methods to promote integrity.370 HOO’s mission, according
to USAID, will be focused on orchestrating Afghanistan’s anticorruption efforts
in a sustained and coordinated fashion.371 SIGAR plans to assess the capabilities
and the performance of HOO as part of its oversight activities.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009        81
        GOVERNANCE




  “The ANDS strategic objective
 is to enable the private sector to
 lead Afghanistan’s development
within a competitive market-based
       economy in which the
 Government is the policy maker
and regulator of the economy, not
          its competitor.”
    —Afghanistan National Development
         Strategy: Economic and Social
                          Development




          82      SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




                                                                                         AFGHANISTAN NATIONAL
ECONOMIC AND SOCIAL DEVELOPMENT                                                          DEVELOPMENT STRATEGY (ANDS)


OVERVIEW                                                                                                   SEC
                                                                                                                GOV
                                                                                                                    E
                                                                                                                      DEV
                                                                                                                          EL
                                                                                                              URIT RNANC OPMEN
                                                                                                                  Y     E     T
According to the Afghanistan National Development Strategy (ANDS), privatiza-
tion and foreign investment are critical to economic and social development in           REGIONAL
                                                                                         COOPERATION
Afghanistan. Other areas of focus include reliable access to electricity, water
resource management, and safe and integrated transportation.373 This section             COUNTER-NARCOTICS

focuses on progress in Afghan economic and social development, highlights Af-            ANTICORRUPTION
ghan counter-narcotics efforts, and provides an update on provincial reconstruc-
                                                                                         GENDER EQUALITY
tion teams (PRTs).
   Despite U.S. and other international investments in development programs,             CAPACITY
Afghanistan continues to face large-scale economic challenges. Living standards
                                                                                         ENVIRONMENTAL
in Afghanistan remain among the lowest in the world.374 Investment is deterred
by weak institutions and enforcement.375 In addition, the drug trade continues
to inhibit all attempts by the Government of the Islamic Republic of Afghanistan
(GIRoA) to enhance development initiatives and stability.376


KEY ECONOMIC INDICATORS
                                                                                         The under-development of the banking sector,
The ANDS stresses the importance of bolstering the economic development                  combined with high banking commission
of Afghanistan. Some key indicators for that development include an effective            rates, have discouraged Afghans from using
banking system, a growing gross domestic product (GDP), a steady currency, and           formal banking channels, according to the
low unemployment.                                                                        United Nations (UN). In the absence of a
                                                                                         developed banking structure, many Afghans
Banking                                                                                  rely on hawala, an informal financial system,
                                                                                         to move money domestically and abroad.379
In 2004, the GIRoA legislature passed a banking law, formalizing the Afghan bank-
                                                                                             Practitioners of hawala (known as
ing structure. Since then, banking assets have increased steadily. As of March 2009,     hawaladars) are based primarily in Kabul, at
the U.S. Treasury (Treasury) estimated that banking assets were approximately            the money market exchange. The hawaladars
$2.41 billion, and capital totaled approximately $355 million. In the past year, bank-   provide customers with financial services
ing assets have increased by 66% and deposits have increased by 69%.377                  including money exchange transactions, funds
   The Afghan banking system includes two state-owned banks, eight Afghan-               transfers, micro-finance, trade finance, and
                                                                                         deposit taking. They also provide traders with
owned banks, and seven foreign-owned banks. The three largest banks are                  financial services, such as currency conver-
Kabul, Azizi, and Pashtany. These three banks account for more than 50% of               sions, international and domestic money
Afghan banking assets. Kabul and Azizi are both privately owned, and Pashtany            transfers, and deposit-taking services.380
is a state-owned bank.378                                                                Treasury reports that several domestically
                                                                                         owned banks in Afghanistan have a back-
                                                                                         ground in hawala.381




             REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2009          83
                                                          ECONOMIC AND SOCIAL DEVELOPMENT




                                                                     The Afghan central bank, Da Afghanistan Bank, operates on the solar calen-
                                                                  dar timeframe, while commercial banks use the Gregorian calendar, which is
 Solar Calendar: Each solar year (SY)                             commonly used by U.S. and international commercial financial institutions and
 starts on March 22 and lasts until March                         central banks. Da Afghanistan Bank had planned to coordinate a unified time-
 21 the following year. By the solar calen-                       frame for the Afghan banking system by June 2008 but has determined it would
 dar, July 2009 falls within SY 1388.382                          be impractical. The International Monetary Fund (IMF) reported that the central
                                                                  bank has reached an understanding with commercial banks to collaborate on
                                                                  key data points.384 Figure 3.43 shows the overlap between solar and Gregorian
                                                                  calendar years.

FIGURE 3.43                                                       Gross Domestic Product
                                                                  Both real and nominal GDP in Afghanistan are expected to experience growth in
COMPARISON OF SOLAR YEAR TO
GREGORIAN CALENDAR YEAR                                           2009. Treasury reported that estimates of Afghanistan’s GDP vary widely, primar-
                                                                  ily because of data limitations within the country. Treasury uses the IMF’s GDP
2009                   July         2010                          estimates to track GDP spending. Services, including financial and telecommuni-
                                                                  cations companies, are the largest contributors to GDP. Agricultural production
 ttttttttt
         1388                                1389                 (including wheat) is the second-largest provider, followed by the manufacturing
         Solar Year                          Solar Year           industry.385 Table 3.11 shows both nominal and real GDP estimates between 2002
         begins                              begins
         March 22,                           March 22,            and 2010.
         2009                                2010                     GDP does not account for the sizable opium-production industry; some esti-
                                                                  mates indicate the opium trade could be as large as the licit economy.386
Source: USAID, response to SIGAR data call, 7/2/2009.


                                                                  Stability of Afghan Currency
                                                                  Afghanistan’s currency is the Afghani (AFA).387 As of July 1, 2009, Da Afghanistan
In Afghanistan, “licit GDP” acknowledges                          Bank reported the exchange rate at approximately 50 AFAs to one U.S. dollar.388
the existence of a large illicit (illegal)                        The IMF reported that the AFA remained broadly stable throughout 2008; it
revenue, especially through poppy produc-                         depreciated slightly as compared with the U.S. dollar but appreciated in trade-
tion.383                                                          weight terms. Da Afghanistan Bank has tried to maintain the value of the AFA by
                                                                  fostering the market for capital notes and establishing an electronic registry.389

                                                                  Employment
                                                                  The ANDS states that in order to reduce the high poverty rate in Afghanistan,
                                                                  the country will have to make progress toward increasing employment
                                                                  opportunities.390 In 2008, Afghanistan’s unemployment rate was estimated to be
                                                                  40%, one of the highest in the world; out of 199 ranked countries (1 being the
                                                                  lowest unemployment rate), Afghanistan ranked 185.391
TABLE 3.11


AFGHANISTAN GDP GROWTH ESTIMATES
                                                        2002/03       2003/04        2004/05     2005/06    2006/07        2007/08     2008/09     2009/10
Nominal GDP ($ billions)                                      4            4.4             5.4        6.5        7.7           9.7        11.7          13.4
Real GDP Growth (% change, year on year)                     —           15.1              8.8       16.1        8.2          12.1         3.4            9

Notes: Numbers are affected by rounding. Both 2008/2009 and 2009/2010 numbers are estimates.
Source: U.S. Treasury, response to SIGAR data call, 7/10/2009.




                                                                    84                     SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




   From a labor force of approximately 15 million Afghans, 80% are employed in
agriculture, 10% in industry, and 10% in services.392


ESSENTIAL SERVICES

Energy
The main ANDS goals for the energy sector include the construction of a reli-
able, affordable energy system and increased privatization with oversight by the
GIRoA. With these goals in mind, the ANDS anticipates the next steps in energy
development will be the expansion of services and maintenance of competitive
pricing for all but the poorest customers. The expansion process will be the re-
sponsibility of donor-funded projects, while the privatization will be the responsi-
bility of the GIRoA.393
   The United States has provided support for energy development through the
Economic Support Fund (ESF), managed by the U.S. Agency for International
Development (USAID), and the Commander’s Emergency Response Program
(CERP).394 Several large-scale electricity projects are under way, including the
expansion of the North-East Power System,395 the Kabul Power Plant,396 and a
$3.75 million award to support data and technical assistance to the Ministry of
Energy and Water. In addition, the Darunta Hydroelectric Power Plant Rehabili-
tation (supported with $9.86 million in U.S. funds), is in progress for Nangarhar
Province.397
   A recent agreement with neighboring Uzbekistan has allowed for the comple-
tion of an electric transmission line across the northern border of Afghanistan.
With this line completed, the United Nations (UN) Secretary General reported a
“nearly full restoration” of power to parts of Kabul.398

Education
With support from international donors, the GIRoA has reported improved ac-
cess to education throughout Afghanistan. In 2008, approximately 52,200 stu-
dents were involved in higher education, and approximately 6 million children
attended school,399 including almost 2 million girls. Under the Taliban, fewer than
1 million children were in school and girls were not permitted to attend.400
   With the influx of students into Afghan schools, the ANDS goals focus on
increasing the quality of available education. To support this goal, increased
teacher training and support are planned within the educational structure.401
   During the Taliban regime, approximately 80% of Afghan schools were dam-
aged or destroyed. The United States has supported the construction and refur-
bishment of more than 680 schools in Afghanistan. Through USAID, more than
60 million textbooks have been distributed.402




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009         85
                                       ECONOMIC AND SOCIAL DEVELOPMENT




                                            Water
                                            The ANDS stresses the need for improved efficiency in water management as a
                                            crucial component of development in the water sector. As such, the ANDS rec-
                                            ommends a departure from project-by-project work toward an integrated water
                                            resources management (IWRM) program, which will focus on improved storage
                                            facilities, recharge basins, multi-purpose dams, and irrigation systems.403
                                               Since the release of the ANDS, Afghanistan has developed an IWRM that out-
                                            lines a series of detailed goals for the water sector. USAID reported that IWRM
                                            is an internationally accepted approach to water development programming.
                                            Afghan IWRM priorities include:404
                                            • development of multi-purpose dams, which provide irrigation systems, flood
                                                control, water supplies, and power
                                            • improvement of rural, municipal, and urban water supplies, and sanitation
                                                systems

                                               At a June 2009 donor conference in Paris, the GIRoA presented a $5.3 billion
                                            spending plan for its water sector.405 The United States continues to provide sup-
                                            port for Afghan water and sanitation development.406
                                               Although there has been some progress in providing water to the Afghan
                                            people, less than a fourth of the population has continuous access to potable wa-
                                            ter. Since 2001, the UN Children’s Fund (UNICEF) has reported steady improve-
                                            ments in the delivery of clean water. People living in remote areas, however,
                                            continue to have trouble gaining access to safe water.407
                                               The lack of sewer systems and sanitation affects more than health; it also can
                                            affect educational opportunities. According to UNICEF, a lack of gender-specific
                                            latrines prevents many girls from attending school. UNICEF is supporting the
                                            GIRoA’s efforts to provide schools with access to drinking water and gender-
                                            specific latrines.408

                                            Health Care
                                            USAID has defined the health status of Afghans as “among the worst in the
                                            world,”409 and the ANDS states that “by all measures, the people of Afghanistan
                                            suffer from poor health.”410 The ANDS identifies a list of challenges to the health
                                            of the Afghan people:411
                                            • insufficient funding for key programs
                                            • limited sustainability plans when donor funding is completed
                                            • insufficient training for health workers
                                            • limited qualified female health workers for rural areas
An Afghan man receives medical treatment    • large rural population with limited accessibility to health care facilities
at a medical capabilities (MEDCAP) health   • under-utilization of health services, especially preventive services
cooperative. (U.S. Marine Corps photo)
                                            • inconsistent levels of health care service quality
                                            • security concerns in some provinces preventing safe access to health care
                                            • limited infrastructure to provide low-cost health care for poor households
                                            • limited infrastructure to support and regulate private-sector pharmacy care




                                              86                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




   The GIRoA is focusing on specific challenges described in the ANDS. They in-
clude reducing the maternal mortality rate by 15%, reducing the under-5 mortality
rate by 20%, and reducing the infant mortality rate by 20% from 2000 levels.412
   USAID reports that two of the three goals (mortality rate goals for under-5
and infants) have been achieved,413 and overall health conditions for Afghans are
improving.414 Between 2001 and 2007, tuberculosis case detection rates doubled
(from 29% in 2001 to 64% in 2007).415 Table 3.12 shows some of the indicators of
improvement.
   USAID reports that all Afghan provinces currently have access to health
care; however, many rural areas are still between two and four hours’ walk from
medical care. The internationally recognized travel distance for adequate access
to health care is two hours or less.416
   Table 3.13 depicts ways USAID is supporting development in the health care
sector.
   In addition to USAID projects, Afghanistan’s health care sector receives U.S.                                        The Japan International Cooperation
support from the Department of Health and Human Services (HHS) and the                                                  Agency (JICA):is an international devel-
Department of Defense (DoD). Additional health care funding is provided by                                              opment group working with developing
the World Bank, the European Commission, the Japan International Coopera-                                               nations including Mexico, Pakistan, Turkey,
tion Agency (JICA), the French government, the Asian Development Bank, the                                              and Afghanistan.418
Italian government, privately funded non-governmental organizations (NGOs),
and other international governments through provincial reconstruction teams                                             The Asian Development Bank is an inter-
(PRTs).417 For more on PRTs, see the PRT discussion in this section.                                                    national development finance institution
                                                                                                                        supporting poverty eradication and quality-
                                                                                                                        of-life programs for developing countries in
TABLE 3.12
                                                                                                                        Asia and the Pacific.419
IMPROVEMENT INDICATORS FOR HEALTH CARE IN AFGHANISTAN
ANDS Objective                                                      Improvement Indicator as of July 2009
Between 2003 (SY 1982) and 2015 (SY 1394), under-5                  Under-5 mortality has dropped 26% (191 deaths per
mortality will drop 50%.                                            1,000 live births).
By March 2010 (end of SY 1389), infant mortality will               Infant mortality has dropped 22% (129 deaths per
drop 20%.                                                           1,000 live births).
By March 2010 (end of SY 1389), 90% of Afghans will                 More than 80% of Afghans have access to health
have access to health care.                                         care, compared with 8% in 2002.
By March 2010 (end of SY 1389), 100% of under-5                     More than 90% of children under 5 have been vac-
children will be vaccinated against vaccine-preventable             cinated against polio.
diseases.

Sources: GIRoA, “Afghanistan National Development Strategy,” 6/2008, pp. 111–112; USAID, response to SIGAR data call,
7/2/2009; USAID, response to SIGAR vetting, 7/16/2009; USAID, “USAID: Afghanistan,” www.usaid.gov, accessed 6/9/2009.




                   REPORT TO THE UNITED STATES CONGRESS                    I   JULY 30, 2009                       87
                                                        ECONOMIC AND SOCIAL DEVELOPMENT




TABLE 3.13


USAID ONGOING SUPPORT FOR HEALTH CARE PROGRAMS IN AFGHANISTAN
                                                                                                                                                                      Estimated Start–
Activity                                  Description                                                                                                                Completion Dates
Polio Eradication Project                 USAID supports UNICEF’s Polio Eradication Project, which coordinates national immunization days and door-to-door                    Ongoing
                                          vaccinations for children. This project is ongoing. In 2006, more than 7 million children received polio vaccinations.
Capacity Development for                  USAID supports the Communication for Behavior Change: Expanding Access to Private Sector Health Products and                2/2006–3/2010
the Private Health Care                   Services in Afghanistan (COMPRI-A) Project, which works to increase health care capacity through public information,
Sector (COMPRI-A)                         increased access to reproductive health care and child survival, and coordination between private and public health
                                          services.
Tech-Serve                                USAID’s “Tech-Serve” program works to bolster the Ministry of Public Health management information system. The              7/2006–6/2010
                                          program aids the Ministry of Public Health in monitoring its health clinics and provides assistance in ordering and
                                          delivering medicines used by more than 350 health clinics and 3,800 health posts.
Health Services Support                   HSSP assists non-governmental organizations (NGOs) in implementing services to improve management at Afghan                 7/2006–9/2010
Project (HSSP)                            health clinics. The goals of the project include improving systems that support service delivery quality; increasing the
                                          number of health care providers, especially for women in rural and underserved areas; and supporting positive health
                                          care behavior in Afghan families and communities.

Source: USAID, “Programs: Health,” http://afghanistan.usaid.gov, accessed 7/3/2009.




                                                                 Transportation
                                                                 The main transportation goal described by the ANDS requires that Afghanistan
                                                                 build and maintain a safe, integrated transportation network within the country.
                                                                 The transportation system should be low-cost and fairly reliable to encourage the
                                                                 movement of people and goods. The ANDS also adopted three milestone trans-
                                                                 portation goals from the Afghanistan Compact:420
                                                                 • The Ring Road: A well-maintained, modern road system throughout Afghani-
                                                                    stan, including connecting roads leading out of the country, and a sustainable
                                                                    road maintenance system by SY 1387 (2008–2009)
                                                                 • Airport Reconstruction: Full International Civil Aviation Organization com-
                                                                    pliance for Kabul International Airport and Herat Airport, as well as runway
                                                                    repairs and upgrades for regional airports by SY 1389 (2010–2011)
                                                                 • Border Management: A series of trade and transit agreements with neighbor-
                                                                    ing countries, making it easier to move between Afghanistan and bordering
                                                                    nations by SY 1389 (2010–2011)

                                                                    USAID is overseeing the Ring Road project, which is working to rehabilitate
                                                                 the Afghan roadway system. When completed, approximately 60% of Afghans
Pavement is laid on the Kabul-Kandahar                           will live within 50 km of the Ring Road.421 As of September 2008, more than 1,650
Road, part of the Ring Road. (USAID photo)                       miles of road had been constructed or rehabilitated with support by USAID.422
                                                                 According to USAID, the following contributions were pledged to support the
                                                                 national Ring Road system:423
                                                                 • Japan: contributing funds for 116 km
                                                                 • Saudi Arabia: contributing funds for 115 km
                                                                 • United States: contributing funds for 326 km and security, de-mining, design,
                                                                    and construction management for Saudi Arabia’s 115 km




                                                                     88                      SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




                                                                                        HELMAND PROVINCE
   In June 2009, Bost Airstrip was opened as the only commercial airstrip in
                                                                                        Location of Bost Airstrip
southern Afghanistan. Located in Helmand Province, Bost Airstrip is 2,000 m in
length and will primarily support light aircraft; it previously served as a military
airstrip. Commercial passenger aircraft were expected to start using Bost Air-
strip in July 2009. The airstrip was constructed by USAID in partnership with the
Afghan Ministry of Transportation and Civil Aviation (MoTCA).424 As of 2008, Af-
ghanistan had 50 airports, including 14 with paved runways and 36 with unpaved
runways.425


INDUSTRY GROWTH
Afghanistan’s industry is based primarily on agriculture. In addition to subsis-
tence crop production, Afghanistan grows food crops for commercial use, includ-
ing wheat, grapes, apricots, and pomegranates, and industrial crops, including          Source: UNODC, “World Drug Report 2009,” 6/24/2009.

cotton, tobacco, madder, castor beans, and sugar beets. Afghanistan also has
many natural resources, including natural gas, petroleum, coal, and copper; how-
ever, instability in the country and rugged terrain have made it difficult to exploit
these resources.426                                                                     NATURAL GAS IN AFGHANISTAN

Agriculture                                                                             Between 1967 and 1989, natural gas sales
The main agricultural goal for Afghanistan, as defined by the ANDS, is to use de-       accounted for approximately $300 million
velopment in this sector to create a livelihood for the rural poor.427 An estimated     in annual exports revenue—about 56% of
80% of Afghans make their living through farming or herding. Approximately 12%          overall Afghan exports; however, approxi-
of Afghanistan’s land is arable, but only 6% is currently cultivated.428                mately 90% of this revenue was used to pay
   The ANDS provides a two-part strategy to develop the agriculture sector: the         import costs and debts to the Soviet Union.
Comprehensive Agriculture and Rural Development (CARD) initiative, and the              In 1989, when Soviet troops withdrew from
                                                                                        Afghanistan, the natural gas fields were
Agricultural and Rural Development Zone (ARDZ). The CARD initiative is fo-
                                                                                        capped in an attempt to prevent sabotage
cused on reducing poverty through economic regeneration429 and private-sector
                                                                                        by the mujahedeen. Regional instability and
development by enabling farmers and agribusiness.430 CARD priorities are varied,        the loss of trading partners following the col-
depending on regional needs, but the overall theme is to support the most impov-        lapse of the Soviet Union have made it dif-
erished and vulnerable part of Afghanistan: the rural poor. The ARDZ represents         ficult for Afghanistan to reactivate the fields,
the GIRoA’s strategy to expand commercial activities to improve agricultural            as reported by USDA in January 2009.
productivity.431
   The United States provides support for provincial efforts to improve agricul-
tural development. In April 2009, construction began on the Helmand Agricul-
ture Center, an agribusiness industrial park supported by USAID. Located in the
southern province of Helmand, the center is expected to create approximately
2,500 jobs in manufacturing, processing, services, and site maintenance.432




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009         89
                                                      ECONOMIC AND SOCIAL DEVELOPMENT




                                                        Drought
                                                        Below-normal rainfall and snowfall in the winter of 2007–2008 resulted in a seri-
                                                        ous drought for Afghanistan. The drought impaired 2008–2009 wheat seed avail-
                                                        ability, causing wheat production to fall by 55% from the previous year and barley
                                                        production by 67%.433 Despite UN and GIRoA efforts to control price inflation, the
                                                        U.S. Department of Agriculture (USDA) reported that wheat prices climbed to an
                                                        average of 200% higher than normal levels in most Afghan markets.434
                                                           Although Afghanistan has a sufficiently varied agricultural economy to accom-
                                                        modate the shortage of wheat, USAID reports that the loss of a staple grain prod-
                                                        uct caused concern that civil unrest might arise without access to wheat. With
                                                        consideration for the upcoming presidential election, the GIRoA and internation-
                                                        al donors provided extra support to bolster wheat production. USAID provided
                                                        $60 million for agricultural vouchers for increased production in Afghanistan.
                                                        Estimates indicate the next wheat crop will be the highest of the past 30 years.435

LOGAR PROVINCE                                          Mining
Location of Aynak Copper Mining                         The ANDS goal for the mining sector is to encourage private investment and devel-
                                                        opment. The anticipated results of mine industry growth include increased govern-
                                                        ment revenue and improved employment opportunities. To encourage privatization,
                                                        the ANDS expects the Afghan Ministry of Mines (MOM) to transition from a pro-
                                                        ducer of products to an overseer of private industry.436 However, as of July 8, 2009,
                                                        the ministry still described itself as involved in the “research, exploration, develop-
                                                        ment, exploitation, and processing of minerals and hydrocarbons.”437
                                                            In May 2008, MOM signed a contract with China to allow the mining of Aynak
                                                        copper. Through negotiation, the ministry was able to convince China to agree
                                                        to conduct exploration, exploitation, process, smelting, and cathodic infiltration
                                                        within the borders of Afghanistan, instead of transporting the raw product back to
                                                        China for processing. According to MOM, this contract will keep expertise in the
Source: UNODC, “World Drug Report 2009,” 6/24/2009.     country and provide increased infrastructure in the mined province (Logar), which,
                                                        in turn, will encourage the development of primary and secondary schools and
                                                        regional markets.438 The ANDS states that it is crucial for MOM to use the Aynak
                                                        copper contract to attract further investment in the mining sector.439




                                                          90                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




COUNTER-NARCOTICS                                                                                                    AFGHANISTAN NATIONAL
                                                                                                                     DEVELOPMENT STRATEGY (ANDS)
The ANDS recognizes counter-narcotics as a cross-cutting issue, meaning that                                                                        DEV
                                                                                                                                              GOV       EL
                                                                                                                                         SEC      E
it infiltrates all three pillars of reconstruction: security; governance, rule of law,                                                      URIT RNANC OPMEN
                                                                                                                                                Y     E     T
and human rights; and economic and social development. Counter-narcotics
programs are designed to promote four goals:440                                                                      REGIONAL
• disruption of the drug trade                                                                                       COOPERATION

• strengthening and diversification of legal rural livelihoods                                                       COUNTER-NARCOTICS
• reduction of demand for illicit drugs and improved treatment for drug
                                                                                                                     ANTICORRUPTION
     addicts and users
• strengthening of government institutions to fight drugs                                                            GENDER EQUALITY

                                                                                                                     CAPACITY
   According to the U.S. Government Accountability Office (GAO), “The drug
trade has undermined virtually every aspect of the Afghan government’s effort to                                     ENVIRONMENTAL
build political stability, economic growth, rule of law, and its capacity to address
internal security problems.”441 Illegal trafficking also provides funding for the
Taliban and other anti-government groups.442 Afghanistan continues to produce
more than 90% of the world’s opium through the cultivation of poppies.443 Pop-
pies are the source of opium, a key ingredient in heroin and multiple other
opioids, including morphine.444
                                                                                                                      Farm-gate value:refers to the value of the
   As of 2008, approximately 2.4 million Afghans were involved in opium produc-
                                                                                                                      product before shipping, or at the farm’s gate.
tion—about 10% of Afghanistan’s population.445
   According to the U.S. Department of State (DoS) Bureau of International Nar-                                       One hectare (ha):is equivalent to approxi-
cotics and Law Enforcement (INL), if opium were a legal product, it would have                                        mately 2.471 acres of land.450
made up approximately 7% of Afghanistan’s 2008 GDP—a significant drop from
2007 (12%).446 Table 3.14 shows the change in opium farm-gate value in the past
three years.
   Approximately 98% of poppy cultivation is concentrated in the southern prov-
inces, where the Taliban and insurgency continue to hold sway.447 The UN Office
                                                                                                                     According to INL, no legal poppy farms exist
of Drugs and Crime (UNODC) estimates that 22 Afghan provinces will be “poppy-
                                                                                                                     in Afghanistan.451
free” in 2009—an additional four provinces from 2008 (Badakhshan, Baghlan,
Faryab, and Herat).448 A province is defined as “poppy-free” when it has fewer
than 100 hectares (ha) of land used in opium cultivation.449 Figure 3.45 shows
poppy cultivation across Afghan provinces.


TABLE 3.14


OPIUM PRODUCTION IN RELATION TO AFGHAN GDP
                                                                                            Opium Farm-Gate Value
Year                        Licit GDP                 Total Farm-Gate Value                 as a Percentage of GDP
2008                     $10.2 billion                         $730 million                                    7%
2007                      $8.2 billion                          $1.0 billion                                 12%
2006                      $6.9 billion                         $0.76 billion                                 11%

Source: DoS, response to SIGAR data call, 7/2/2009.




                    REPORT TO THE UNITED STATES CONGRESS                I   JULY 30, 2009                  91
                                                       ECONOMIC AND SOCIAL DEVELOPMENT




                                                           FIGURE 3.45

                                                           POPPY CULTIVATION LEVELS BY PROVINCE


                                                                                                                UZBEKISTAN

                                                                                                                                                               TAJIKISTAN
                                                                                                                                                                                       CHINA

                                                                     TURKMENISTAN                   JOWZJAN                    KUNDUZ             BADAKHSHAN
                                                                                                                 BALKH                   TAKHAR

                                                                                                                   SAMANGAN
                                                                                          FARYAB                                BAGHLAN
                                                                                                    SAR-E PUL                     PANISHIR
                                                                                                                                           NURISTAN
                                                                                BADGHIS
                                                                                                                           PARWAN KAPISA        KUNAR
                                                                                                                 BAMYAN
                                                                                                                                       LAGHMAN
                                                                                                                                KABUL
                                                                    HERAT                                               WARDAK          NANGARHAR
                                                                                          GHOR                                 LOGAR
                                                                                                     DAYKUNDI                        PAKTIYA
                                                                                                                      GHAZNI             KHOWST

                                                                                                   URUZGAN
                                                                      F ARAH                                                   PAKTIKA
                                                                                                              ZABUL                                            Considered Poppy-Free

                                                                                                                                                               Very Low
                                                                     NIMROZ     HELMAND          KANDAHAR                                                      Low
                                                            IRAN
                                                                                                                                                               Moderate
                                                                                                                      PAKISTAN
                                                                                                                                                               High

                                                                                                                                                               Very High


                                                           Source: UNODC, "World Drug Report 2009," 6/24/2009, p. 191.




FIGURE 3.44

AFGHAN POPPY CULTIVATION
                                                             In 2008, Afghan opium production dropped 19% from the previous year, as re-
BY YEAR (THOUSANDS OF HECTARES)
                                                           ported by UNODC.452 Figure 3.44 depicts opium production year by year between
                                                           2002 and 2008.
200                                       193
                                   165           157       U.S. Efforts in Counter-narcotics
150                                                        As of July 2, 2009, the United States had the largest international counter-
                     131
                                                           narcotics footprint in Afghanistan.453 In FY 2009, the United States expended
                            104
100                                                        almost $172 million for Afghan counter-narcotics efforts.454
        74      80

 50                                                        Alternative Development Programs
                                                           According to INL, alternative development programs seek to encourage main-
  0                                                        stream economic and political growth outside of poppy production, either
       2002 03        04     05     06     07    08        through the production of alternative crops or with non-agricultural labor.455
                                                           USAID reported that improved availability of off-farm jobs and opportunities to
Note: Numbers affected by rounding and are UN estimates.
Source: UNODC, “World Drug Report,” 6/24/2009.             sell legal crops increase the likelihood that farmers will shift away from growing
                                                           poppies.456




                                                              92                          SPECIAL INSPECTOR GENERAL                      I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




                                                                                                                                  THE ROLE OF THE POPPY IN DRUG PRODUCTION
  Approximately $8.5 million has been allotted to INL for alternative develop-
ment programs. INL has expended almost all of those funds ($8.45 million).457                                                     Approximately one week after the opium
Some of the programs instituted to encourage alternative development include:458                                                  poppy loses its flower petals, sap is pro-
• development of orchards and other perennial crops                                                                               duced in the flowers’ seed pods; this sap
• development of roads to increase rural access to markets                                                                        is opium latex. The sap is allowed to dry
• improved access to storage facilities for crops                                                                                 (becoming opium gum) and then sold to an
• increased enforcement of anticorruption efforts on roadways                                                                     intermediary or directly to a trafficker, who
• enhanced agricultural output processing (for example, grain mills to grind                                                      mixes it with chemicals to produce opium,
  wheat into flour)                                                                                                               morphine (either crude or partially purified),
• development of agri-technology (for example, greenhouses to extend crop                                                         heroin, or white heroin (heroin hydrochlo-
  growing seasons)                                                                                                                ride). Increasingly, drug production is done
                                                                                                                                  in country.460
   Table 3.15 describes the regional work USAID has done to promote alternative
development.
   USAID is implementing a new alternative development program called
Incentives Driving Economic Alternatives for North, East, and West (IDEA-
NEW). The program will replace Alternative Development Programs North and
East. USAID reported that IDEA-NEW is expected to focus on “poppy-prone
provinces” in the east. Southern provinces are covered by a separate alternative
development initiative, which received additional funding in July 2009.459


TABLE 3.15


REGIONAL USAID PROGRAMS IN COUNTER-NARCOTICS
Regional USAID Program                                            USAID Program Description                                                 Dates of Operation       Status
Alternative Development Program North (ADP North)                 Worked to shift the region’s economy from illicit to licit agricultural   2005–February 2009       Complete
                                                                  production through assistance to current and potential opium poppy
                                                                  producers and communities. This USAID team focused on three main
                                                                  components: cash-for-work, formation of and support for sustainable
                                                                  enterprises (on-farm production, agro-processing businesses, and
                                                                  marketing support), and enhancing the investment environment in
                                                                  targeted areas with improved infrastructure (roads, bridges, irrigation
                                                                  systems, private/public institutional support and capacity building,
                                                                  and business services). The program gave special consideration to
                                                                  including women in project activities.
Alternative Development Program Northwest                         Aims to combat the economic dependence of Balkh, Jawzjan, Farah,          2008–2010                Ongoing
                                                                  and Ghor on opium production, processing, and trade. Through this
                                                                  program, USAID hopes to help communities to create sustain-
                                                                  able employment opportunities through legal means. Anticipated
                                                                  program goals include a bolstered infrastructure with increased
                                                                  local employment opportunities for landless laborers, poor farmers,
                                                                  widows, and others susceptible to opium production, processing,
                                                                  or trade; and increased opportunities for groups to start or expand
                                                                  local businesses; work for growing local enterprises; or raise farm or
                                                                  firm revenue through a range of marketing, processing, and business
                                                                  development improvements.

Sources: DoS, response to SIGAR data call, 7/2/2009; USAID, response to SIGAR vetting, 7/16/2009.                                                        Continued on next page




                    REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2009                     93
                                                       ECONOMIC AND SOCIAL DEVELOPMENT




TABLE 3.15 (CONTINUED)


REGIONAL USAID PROGRAMS IN COUNTER-NARCOTICS
Regional USAID Program                                            USAID Program Description                                                Dates of Operation        Status
Alternative Development Program East                              Provided support for accelerated regional economic growth and alter-     2005–March 2009*           Complete
                                                                  native income sources for those dependent on the poppy production        *Program was extended
                                                                  industry in Nangarhar, Laghman, Kunar, and Nuristan provinces.           to June 2009 to overlap
                                                                  USAID reported that this program made progress in meeting its            with a new program started
                                                                  objectives by supporting entrepreneurship in horticulture, livestock,    in March 2009.
                                                                  staple crops, business services, gender and micro-enterprise, and
                                                                  capacity-building initiatives. The program placed particular emphasis
                                                                  on the creation of women-owned enterprises.
Alternative Development Program Southern Region                   Provides counter-narcotics services for Helmand, Kandahar, and           2005–2009                 Ongoing
                                                                  Uruzgan provinces. USAID plans to rehabilitate 300 km of gravel-
                                                                  compacted farm-to-market roads; build 40 km of cobblestone
                                                                  roads; complete a 250-km irrigation canal improvement for 65,000
                                                                  hectares of farmland; rebuild the Lashkar Gar electrical sub-station
                                                                  to improve electrical access for 8,000 families and businesses;
                                                                  establish 14 veterinary field units; establish a commercial feed mill;
                                                                  distribute animal feed to more than 20,000 farmers and improved
                                                                  vegetable seeds to more than 30,000 farmers; and provide technical
                                                                  training for extension workers, para-vets, and farmer co-ops and
                                                                  associations.

Sources: DoS, response to SIGAR data call, 7/2/2009; USAID, response to SIGAR vetting, 7/16/2009.




                                                                   Alternative development programs seek to overcome motivating factors for
                                                                the opium trade. Some of the reasons farmers choose to grow poppies over other
                                                                crops include:461
                                                                • ease of obtaining credit to grow crops
                                                                • ease of sale of product
                                                                • ease of storage (opium does not spoil)

                                                                    Additionally, poppy crops are low-risk. The crops are drought- and pest-tolerant,
                                                                and drug lords have organized mutual assurance societies, providing farmers with
                                                                insurance should poppy eradication teams destroy their crops.462 INL points out
                                                                that some farmers sell opium in addition to subsistence crops—because the crop is
                                                                easy to sell and highly lucrative, it provides the farmers with additional cash with-
                                                                out inhibiting their ability to grow food crops.463
                                                                    A UNODC study released in January 2009 identified additional motivating fac-
                                                                tors. The survey asked village headmen in Afghanistan to identify their primary
                                                                reasons for growing poppies. Across Afghanistan, UNODC reported that more than
                                                                50% of the headmen listed the higher sale price as their reason. Deterrents to grow-
                                                                ing poppies varied by location. In the southern and western regions where 98% of
Poppy plants dry in Helmand Province.                           Afghanistan’s opium poppies are grown, the rising price of wheat was the largest
(U.S. Marine Corps photo, LCpl James                            deterrent to poppy crops (22% of responders). In the other regions, more than 50%
Purschwitz)
                                                                listed pressure from government authorities as their main deterrent.464




                                                                    94                        SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




Public Information
Public information projects focus on providing information to Afghans about
counter-narcotics. Information campaigns and activities are conducted by the
GIRoA with support from the United States.465 Table 3.16 outlines some of INL’s
projects to discourage opium production and disbursement.

Poppy Elimination and Eradication
According to INL, poppy cultivation fell by 19% in 2008, after two years of record
production.466 The number of households involved in the opium trade fell by 28%,
as reported by DoS.467 INL attributed this decrease to several issues, including
poor weather conditions, the falling value of opium relative to other crops, and
improved governance and security.468
   INL reported that poppy eradication programming (in which poppy fields
are sought out and destroyed) will be phased out in 2009, and resources will be
focused on agriculture, interdiction, and public information programs. However,
the United States will continue to support the Good Performers Initiative, which
provides incentives to provincial governors and governments that are successful
in reducing and eliminating poppy cultivation in their areas.469 The United States
will also continue to support Governor-led Eradication (GLE), which reimburses
provincial governments for eradication of poppy crops. GLE reimbursements
are made on the basis of poppy eradication that has been verified by the Afghan
Ministry of Counter-narcotics and UNODC. In 2009, provincial governments were
paid at the rate of $135.00 per ha of verified eradicated crops. The United King-
dom has funded, and continues to fund, eradication efforts.470


TABLE 3.16


U.S. PUBLIC INFORMATION PROJECTS IN AFGHANISTAN
Program Type                          Description
New Media                             In coordination with Voice of America (VOA), this program sends text messages and
                                      robo-calls with counter-narcotics messages and news updates to approximately
                                      130,000 Afghan cell phone users.
Broadcast                             Also in coordination with VOA, this program supports a twice-weekly radio news
                                      package on counter-narcotics. The broadcast is aired on various Afghan radio sta-
                                      tions in both Dari and Pashtu, and also in spots on Afghan television.
Direct Engagement                     This program supports Counter-narcotics Advisory Team (CNAT) initiatives in seven
                                      Afghan provinces (Helmand, Farah, Kandahar, Uruzgan, Balkh, Badakhshan, and
                                      Nangarhar). Each CNAT team is implementing counter-narcotics activities, including
                                      Mothers Against Drugs (MAD), an addicted women’s sewing project, school visits
                                      and contests, and farmers’ workshops.
Live Theater                          This program operates with support from Equal Access. It provides Counter-
                                      narcotics Mobile Theater, which travels between the seven CNAT provinces (listed
                                      above), performing dozens of live shows and conducting youth workshops.
Source: DoS, response to SIGAR data call, 7/2/2009.




                    REPORT TO THE UNITED STATES CONGRESS                  I   JULY 30, 2009                     95
                                          ECONOMIC AND SOCIAL DEVELOPMENT




                                                 UNODC reported that opium cultivation in 2008 vastly outweighed world
                                              demand. With market prices responding slowly to economic conditions, UNODC
                                              believes a large percentage of opiates (including opium, heroin, and morphine)
                                              has been withheld from the market and is being stored somewhere. As part of
                                              poppy elimination and eradication, UNODC reported that these stockpiles are “a
                                              time bomb for public health and global security.”473

                                              Afghan Counter-narcotics Efforts
                                              In response to the continuing challenges of drug trafficking, Afghanistan estab-
                                              lished the Afghan National Drug Control Strategy, which focuses on eight areas
                                              of development:474
                                              • public information outreach
                                              • alternative development
                                              • law enforcement
                                              • justice sector reform
                                              • demand reduction
                                              • international and regional engagement
                                              • institution building
                                              • eradication

                                                 These areas correspond to the ANDS pillars of security; governance, rule of
                                              law, and human rights; and economic and social development.475

                                              International Counter-narcotics Efforts
                                              The United Kingdom and UN also are large-scale contributors to the counter-
                                              narcotics effort.476
                                                 In keeping with the Bonn Agreement, the United Kingdom was the leader
U.S.-managed PRTs:are interim organi-         in counter-narcotics assistance until 2006. In the past three years, the United
zations used to coordinate diplomatic,        Kingdom provided more than $480 million to rule of law and counter-narcotics
economic, reconstruction, and counter-
                                              programming in Afghanistan. This funding supported capacity development
insurgency efforts between the various U.S.
                                              programming in the Ministry of Counter-narcotics, program planning and devel-
agencies, such as DoS, DoD, and USDA in
Afghanistan.471                               opment, and equipment, including tractors and wheat seed.477
                                                 The UN also has a large counter-narcotics presence in Afghanistan, espe-
   In 2002, the U.S.-led coalition            cially through UNODC. On June 24, 2009, UNODC released its 2009 “World Drug
established the first PRTs in Afghanistan     Report.”478 The report provided statistics on the progress made in Afghanistan
as part of Operation Enduring Freedom
                                              this past year.479 Since 2006, INL has contributed $7.94 million to UNODC for
(OEF). PRTs initially supported security
                                              counter-narcotics-related projects in Afghanistan.480
and reconstruction efforts throughout the
provinces as well as efforts to build trust
and confidence among the local residents.     PROVINCIAL RECONSTRUCTION TEAMS (PRTs)
Since then, the PRT mission in Afghanistan
has expanded to include supporting local      PRTs were created to help improve stability in Afghanistan by increasing the
governance operations and improving           GIRoA’s ability to govern and deliver critical public services to Afghan citizens.481
community development.472                     As of July 2009, there were 26 PRTs in Afghanistan, 12 of which are managed by
                                              the United States.482 Table 3.17 provides an overview of PRTs across the country.




                                                96                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




                                                                                    TABLE 3.17
   The International Security Assistance Force (ISAF) oversees the military
component of all PRTs in Afghanistan and provides guidance; however, the civil-     PRTs BY MANAGING COUNTRY
ian component of each PRT, including those managed by the United States, has        PRT Run By                                       Province
discretion to develop the structure and size of its PRT support.483                 Canada                                          Kandahar
   Most teams are composed of a PRT commander and at least one representa-
                                                                                    Czech Republic                                      Logar
tive from DoS, USAID, and USDA.484 Examples of PRT activities include develop-
                                                                                    Germany                                      Badakhshan
ment, reconstruction, monitoring, and reporting on ongoing projects and local
                                                                                    Germany                                           Kunduz
conditions.485
   PRTs sponsor initiatives to support local development. For example, a grow-      Hungary                                          Baghlan

ing number of PRTs are incorporating agribusiness development teams (ADTs)          Italy                                               Herat
into their provincial work.486 Members of ADTs are usually U.S. National Guards-    Lithuania                                            Ghor
men, often from farm states, with experience in farming, livestock, and cultivat-   New Zealand                                      Bamyan
ing natural resources. ADT members use these skills to advise rural development     Norway                                             Faryab
initiatives. In Nangarhar Province, the ADT has more than 70 active projects with
                                                                                    Spain                                            Badghis
a value of approximately $5.6 million, including:487
                                                                                    Sweden                                              Balkh
• building grain mills
                                                                                    The Netherlands                                   Uruzgan
• introducing new wheat seed
• developing canning and juicing factories for harvested vegetables and fruits      Turkey                                            Wardak

• building cool-storage facilities to store harvested crops operated by solar       United Kingdom                                  Helmand
    panels                                                                          United States                                       Farah
• overseeing micro-slaughter facilities to increase sanitization of livestock       United States                                      Ghazni
    meat                                                                            United States                                      Khowst
• launching veterinary clinics focused on de-worming the livestock                  United States                                       Kunar
• advising with reforestation projects
                                                                                    United States                                   Laghman
• increasing the crop yield for commercial use
                                                                                    United States                                  Nangarhar
• operating cold- and warm-water fish hatcheries
                                                                                    United States                                    Nuristan
                                                                                    United States                                     Paktika
                                                                                    United States                                      Paktiya
                                                                                    United States                                     Panishir
                                                                                    United States                                       Zabul
                                                                                    United States, supporting efforts by              Parwan
                                                                                    South Korea

                                                                                    Source: USAID, “Provincial Reconstruction Teams,” accessed
                                                                                    7/17/2009; ISAF, “International Security Assistance Force:
                                                                                    Facts and Figures,” 6/15/2009.




            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009       97
Paktiya Provincial Reconstruction Team
U.S. Army Capt. Megan O’Conner, a Paktiya PRT civil
affairs team chief, reviews the plans for an addition to
the new provincial prison during a visit to the site in
Gardez City. (DoD photo, Fred W. Baker III)
4   OTHER
    AGENCY
    OVERSIGHT

           Introduction: The Year of Transfer
               Rise in Income
               Expanding Iraqi Security Authority
               Afghanistan Reconstruction Upda
               Afghanistan Audits
               Afghanistan Inspections
               Reconstruction Teams
               The Role of the International Com


           Anticorruption Efforts


           Security
               Security Conditions Still Hinder
               Reconstruction Activities
               Concerned Local Citizen Initiative


           Legislative Developments


           The Human Toll




      99
100   SPECIAL INSPECTOR GENERAL   I                            100
                                      AFGHANISTAN RECONSTRUCTION
                          OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
Each quarter, the Special Inspector General for Afghanistan Reconstruction
(SIGAR) requests updates from other government agencies on the number of
oversight activities completed and the number of ongoing oversight activities
currently being performed. The following agencies are currently performing
oversight activities in Afghanistan and providing results to SIGAR:

•     Department of Defense Office of Inspector General (DoD OIG)
•     Department of State Office of Inspector General (DoS OIG)
•     Government Accountability Office (GAO)
•     U.S. Agency for International Development Office of Inspector General
      (USAID OIG)


COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 provides a list of completed oversight projects as of June 30, 2009. Six
projects were completed this quarter.


TABLE 4.1


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES,
AS OF JUNE 30, 2009
Agency       Project Number   Date Issued   Project Title
DoD OIG      D-2009-075       5/21/2009     Afghanistan Security Forces Fund Phase III-Accountability for
                                            Weapons Distributed to the Afghanistan National Army
DoD OIG      D-2009-076       4/14/2009     Afghanistan Security Forces Fund Phase III-U.S. Army Corps of
                                            Engineers Real Property Accountability
GAO          GAO-09-615       5/18/2009     Military Operations: Actions Needed to Improve Oversight and
                                            Interagency Coordination for the Commander’s Emergency
                                            Response Program in Afghanistan
GAO          GAO-09-473SP     4/21/2009     Afghanistan: Key Issues for Congressional Oversight
USAID OIG    5-306-09-004-P   6/8/2009      USAID/Afghanistan’s Land Titling and Economic Restructuring
                                            Project
USAID OIG    5-306-09-003-P   5/11/2009     USAID/Afghanistan’s Local Governance and Community Devel-
                                            opment Project in Southern and Eastern Regions of Afghanistan




               REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2009                    101
OTHER AGENCY OVERSIGHT




ONGOING OVERSIGHT
As of June 30, 2009, there were 22 oversight activities in progress. They are
broken out by agency. The descriptions appear as they were submitted to SIGAR,
with these mechanical changes for consistency with the preceding sections of
this report: acronyms and abbreviations in place of repeated complete names;
standardized capitalization, hyphenation, and preferred spellings; and third-
person instead of first-person construction.

Department of Defense Office of Inspector General
In May 2009, the DoD OIG, on behalf of the member DoD and Federal oversight
agencies, issued an update to the statutorily required Comprehensive Oversight
Plan for Southwest Asia, including the additional FY 2009 statutorily required
oversight.
   The Comprehensive Oversight Plan for Southwest Asia includes the individual
oversight plans of the inspectors general for the DoD, DoS, and USAID; the Spe-
cial Inspector General for Iraq Reconstruction; and the SIGAR. It also includes
the oversight work of the Army Audit Agency, Naval Audit Service, Air Force
Audit Agency, and Defense Contract Audit Agency because of the major contri-
butions they make to improve the efficiency and effectiveness of support to the
military. The comprehensive plan was expanded beyond the statutorily mandates
to include other functional areas that [DoD OIG] believe[s] are germane to sup-
porting operations in Southwest Asia, including Operation Enduring Freedom
(OEF), such as contract administration and management, reset of equipment,
financial management, and reconstruction support effort. In addition, the update
issued in May 2009 includes the Commander, U.S. Central Command’s request for
DoD OIG and the Service Audit Agencies to review asset accountability within
Southwest Asia.
   The DoD OIG–led Southwest Asia Joint Planning Group coordinates and de-
conflicts federal and DoD OCO–related oversight activities. The Group held its
ninth meeting in May 2009.
   During the third quarter of FY 2009, the DoD OIG expanded its Southwest Asia
presence, deploying additional auditors and investigators to Iraq and Afghani-
stan. The additional staff support the increased oversight workload required by
statutory requirements, Congressional requests, senior DoD and military officials
requests, and as [DoD OIG] determine[s] based on high risks and challenges in
the operations. [The] field offices in Qatar, Iraq, Kuwait, and Afghanistan enhance
[the] ability to provide audit, inspection, and investigative support to DoD opera-
tions in support to OCO.
   During FY 2009, the DoD OIG completed and ongoing OEF-related oversight
activities addressed the following areas:
• the use and accountability of Afghanistan Security Forces Funds
• accountability of property
• contract administration




 102               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                    OTHER AGENCY OVERSIGHT




Oversight Activities
INTERAGENCY AUDIT ON DOD OBLIGATIONS AND
EXPENDITURES OF FUNDS PROVIDED TO THE DEPARTMENT OF
STATE FOR THE TRAINING AND MENTORING OF THE AFGHAN
NATIONAL POLICE
(PROJECT NO. D2009-D000JB-0230.000, INITIATED JUNE 5, 2009)
The inspectors general of the DoD and DoS are performing this joint audit in
response to a congressional request. [The] objective is to review the status of
Afghanistan Security Forces Fund (ASFF) money that the DoD has provided to
the DoS for the training of the Afghan National Police (ANP). Specifically, the
DoD OIG will review a copy of the contract, appropriate task orders, statements
of work, and any contract or task order modifications for training and mentoring
to ensure they comply with all relevant federal regulations and meet the needs of
the DoD. Further, [they] will review copies of contractor invoices to ensure that
claimed costs are allowable, allocable, and reasonable for the services received.
The DoSOIG will be assisting on this audit and will be assessing the staffing,
training, contract management, and contract effectiveness of the civilian police
trainers.

ASSESSMENT OF U.S. AND COALITION PLANS TO TRAIN, EQUIP,
AND FIELD THE AFGHAN NATIONAL SECURITY FORCES
(PROJECT NO. D2009-D00SPO-0113.000, INITIATED FEBRUARY 3, 2009)
SPO is determining whether U.S. government, coalition, Afghan Ministry of
Defense, and Afghan Ministry of Interior goals, objectives, plans, and guid-
ance to train, equip, and field the expanded Afghan National Army (ANA)
and the ANP are prepared, issued, operative, and relevant. The draft report
is being prepared.

ASSESSMENT OF THE ACCOUNTABILITY AND CONTROL OF
ARMS, AMMUNITION, AND EXPLOSIVES (AA&E) PROVIDED TO
THE SECURITY FORCES OF AFGHANISTAN
(PROJECT NO.D2009-D00SPO-0148.000, INITIATED FEBRUARY 3, 2009)
SPO is determining whether the current accountability and control of U.S.-
supplied AA&E provided to the Afghan National Security Forces (ANSF) is
adequate and effective. In addition, [SPO] will follow up on the status of the
implementation of recommendations made during our initial assessment of
the accountability and control of AA&E in Afghanistan (see DoD OIG Report
No. SPO-2009-001, “Assessment of Arms, Ammunition, and Explosives
Control and Accountability; Security Assistance; and Sustainment for the Af-
ghan National Security Forces,” October 24, 2008). The draft report is being
prepared.




            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009      103
OTHER AGENCY OVERSIGHT




ASSESSMENT OF U.S. AND COALITION EFFORTS TO DEVELOP
THE MEDICAL SUSTAINMENT CAPABILITY OF THE AFGHAN
NATIONAL SECURITY FORCES
(PROJECT NO. D2009-D00SPO-0115.000, INITIATED DECEMBER 17, 2008)
SPO is determining whether U.S. government, coalition, Afghan Ministry of
Defense, and Afghan Ministry of Interior goals, objectives, plans, and guidance
to develop and sustain the current and projected ANSF health care system are
issued and operative; previous DoD OIG recommendations regarding develop-
ing and sustaining the ANSF health care system have been implemented (see
DoD OIG Report No. SPO-2009-001, “Assessment of Arms, Ammunition, and
Explosives Control and Accountability; Security Assistance; and Sustainment
for the Afghan National Security Forces,” October 24, 2008); and ongoing efforts
to develop an enduring health care system for the ANSF are effective. The draft
report is being prepared.

COMBATANT COMMAND HUMANITARIAN ASSISTANCE AND
DISASTER RELIEF OPERATIONS
(PROJECT NO. D2009-D000JA-0085.000, INITIATED NOVEMBER 13, 2008)
The DoD OIG is evaluating the ability of the Combatant Commands to plan and
execute Humanitarian Assistance and Disaster Relief operations, to include sup-
port for OEF.

REANNOUNCEMENT OF THE AUDIT OF FUNDS APPROPRIATED
FOR AFGHANISTAN AND IRAQ PROCESSED THROUGH THE
FOREIGN MILITARY SALES TRUST FUND
(PROJECT NO. D2007-D000FD-0198.001, INITIATED OCTOBER 10, 2008)
Based on observations during audit fieldwork under the originally announced
project (D2007-D000FD-0198.000), the DoD OIG determined an additional project
was required to separately discuss relevant issues identified during [the] field-
work. Accordingly, the DoD OIG addressed the transfer of funds to the FMS
Trust Fund and the collection of administrative fees from these funds in Report
No. D-2009-063. Under the second announced project (D2007-D000FD-0198.001),
the DoD OIG is determining whether the funds appropriated for the security,
reconstruction, and assistance of Afghanistan and Iraq and processed through
the Foreign Military Sales Trust Fund are being properly managed. However, the
DoD OIG has reduced the sub-objectives to determining whether the appropri-
ated funds transferred into the Foreign Military Sales Trust Fund are properly
accounted for, used for the intended purpose, and properly reported in DoD
financial reports.




 104               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                    OTHER AGENCY OVERSIGHT




UPDATE – SUMMARY REPORT ON CHALLENGES IMPACTING
OPERATIONS IRAQI FREEDOM AND ENDURING FREEDOM
REPORTED BY MAJOR OVERSIGHT ORGANIZATIONS BEGINNING
FY 2003 THROUGH FY 2008
(PROJECT NO. D2008-D000JC-0274.000, INITIATED AUGUST 28, 2008)
The DoD OIG is preparing a summary of contracts, funds management, and other
accountability issues identified in audit reports and testimonies that discuss
mission critical support to Operations Iraqi Freedom and Enduring Freedom
from FY 2003 through FY 2008. The first DoD OIG summary report, D-2008-086,
focused on reports and testimonies issued from FY 2003 through FY 2007. The
DoD OIG will update the information from the prior summary report, Report
No. D-2008-086, to include the status of recommendations made in all FY 2003
through FY 2007 reports regarding Operations Iraqi Freedom and Enduring
Freedom. In addition, the DoD OIG will include finding and recommendation
information for FY 2008 audit reports and determine the trends indicated by that
information.

CONTRACTS SUPPORTING THE DOD COUNTER
NARCOTERRORISM PROGRAM
(PROJECT NO. D2008-D000AS-0255.000, INITIATED JULY 31, 2008)
The DoD OIG is determining whether contracts supporting the DoD counter
narcoterrorism program were properly managed and administered. Specifically,
the DoD OIG will determine whether the contracts complied with Federal and
DoD policy.

DISTRIBUTION OF FUNDS AND THE VALIDITY OF OBLIGATIONS
FOR MANAGEMENT OF THE AFGHANISTAN SECURITY FORCES
FUND-PHASE III
(PROJECT NO. D2007-D000LQ-0161.002, INITIATED DECEMBER 10, 2007)
The DoD OIG is conducting the third phase of a multiphase audit in response
to Public Law 109-234, which directed the inspector general to provide over-
sight of Afghanistan Security Forces. A series of reviews under this third phase
is planned to determine whether organizations in Southwest Asia that the U.S.
Central Command assigned with the responsibility for managing the ASFF prop-
erly accounted for the goods and services purchased for the Afghanistan Secu-
rity Forces using the ASFF and whether the goods and services were properly
delivered to the Afghanistan Security Forces. Report D-2009-031, “Distribution
of Funds and the Validity of Obligations for the Management of the Afghanistan
Security Forces Fund,” December 29, 2008, addresses Afghanistan Security
Forces funded real property construction listed on contracts awarded by Air
Force Center for Engineering and the Environment. Report D-2009-075, “Afghani-
stan Security Forces Fund Phase III - Accountability for Weapons Distributed
to the Afghanistan National Army,” April 14, 2009, addresses accountability




            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009     105
OTHER AGENCY OVERSIGHT




for weapons distributed to the Afghanistan National Army. Report D-2009-076,
“Afghanistan Security Forces Fund Phase III - U.S. Army Corps of Engineers Real
Property Accountability,” May 21, 2009, addresses U.S. Army Corps of Engineers
real property accountability.

Department of State Office of Inspector General - Middle East
Regional Office (DoS OIG MERO)
Oversight Activities
AFGHANISTAN NATIONAL POLICE TRAINING AND MENTORING
PROGRAM (JOINT W/DODIG)
(PROJECT NO. 09-MERO-3009, INITIATED JUNE 2009)
Objectives - To provide an overall review and summary of the requirements,
provisions, and costs of the ANP Training and Mentoring Program contract; ob-
jectives of the contracts and task orders, what indicators have been established
to measure performance; and how the DoS administered the contract to oversee
DynCorp’s performance and costs of the contract. Assess the status of contract
records, management controls, costs, and value of this contract to the mission of
the DoS and DoD.

EFFECTIVENESS OF COUNTER NARCOTICS PROGRAMS IN
AFGHANISTAN
(PROJECT NO. 09-MERO-3004, INITIATED APRIL 2009)
Objectives - To assess U.S. efforts to plan and manage counter-narcotics activi-
ties in Afghanistan, including an analysis of (1) U.S. obligations and expendi-
tures, (2) results of assistance projects, (3) assistance coordination mechanisms
and strategy, and (4) major obstacles that affect the achievement of U.S. goals.

PERSONAL SECURITY DETAIL (WPPS) CONTRACTS –
AFGHANISTAN, (UNITED STATES TRAINING CENTER (USTC))
PROJECT NO. 09-MERO-3005, INITIATED MARCH 2009)
Objectives - To review the requirements and provisions of the WPPS contract; ob-
jectives of the contracts and task orders, what indicators have been established to
measure performance; and how the Department administered the contract to over-
see United States Training Center’s (formerly Blackwater) of the WPPS contract.

DIPLOMATIC SECURITY (DS) MANAGEMENT OF WPPS
– AFGHANISTAN
(PROJECT NO. 09-MERO-3006, INITIATED MARCH 2009)
Objectives - To review what studies and needs assessments were conducted by
the Bureau of Diplomatic Security to determine PPS requirements in Afghanistan
and what mechanisms are in place to ensure personal protective services assets
are utilized in an efficient and effective manner.




 106                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                     OTHER AGENCY OVERSIGHT




Government Accountability Office (GAO)
During the last quarter, GAO issued a special product (GAO-09-473SP) that
identified and highlighted several oversight issues relating to U.S. efforts in
Afghanistan for the 111th Congress and new administration. This special publi-
cation highlighted key issues for consideration in developing oversight agendas
and determining the way forward in securing and stabilizing Afghanistan. It also
identified improvements that were needed as well as many obstacles that affect
success and should be considered in program planning and implementation. For
most of the U.S. efforts in the past, GAO found the need for improved planning,
including the development of coordinated interagency plans that include measur-
able goals, specific time frames, cost estimates, and identification of external fac-
tors that could significantly affect efforts in key areas such as building the ANSF.
GAO also concluded that several existing conditions, such as worsening security;
shortages in mentors and trainers; the lack of a coordinated, detailed interagency
plan; and the limited institutional capacity of the Afghanistan government con-
tinue to create challenges to the U.S. efforts to assist with securing, stabilizing,
and rebuilding Afghanistan. GAO noted that significant oversight will be needed
to help ensure visibility over the cost and progress of these efforts. GAO sug-
gested areas for additional oversight on the following topics:
• U.S. and international commitments
• Security environment
• U.S. forces and equipment
• ANSF
• Counternarcotics efforts
• Economic development
• Government capacity
• Accountability for U.S. provided weapons
• Oversight of contractor performance

Oversight Activities
AFGHAN WATER SECTOR: REVIEW OF U.S. EFFORTS TO ASSIST
WITH THE DEVELOPMENT OF THE AFGHAN WATER SECTOR
(PROJECT NO. 320680, INITIATED MAY 8, 2009 )
Scope focused on U.S. efforts to assist Afghanistan in achieving the Afghanistan
National Development Strategy (ANDS) goal of supplying clean potable water,
sanitation, and crop irrigation services in Afghanistan.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009         107
OTHER AGENCY OVERSIGHT




REVIEW OF U.S. ALTERNATIVE DEVELOPMENT AND GOOD
PERFORMER INITIATIVE PROGRAM IN AFGHANISTAN
(PROJECT NO. 320662, INITIATED MARCH 16, 2009)
Focused on funding, goals, results, coordination efforts, and efforts to mitigate
any challenges.

AGENCY OVERSIGHT OF CONTRACTORS MANAGING AND
ADMINISTERING OTHER CONTRACTS OR GRANTS IN IRAQ AND
AFGHANISTAN
(PROJECT NO. 120812, INITIATED FEBRUARY 19, 2009)
This review will focus on DoD, DoS, and USAID efforts to effectively oversee
contractors performing management or administration functions for other con-
tracts or grants with performance in Iraq/Afghanistan.

AFGHAN COUNTERNARCOTICS
(PROJECT NO. 320657, INITIATED JANUARY 29, 2009)
Review of U.S. efforts to assist with interdiction, eradication, judicial, and public
information campaign efforts.

CONTRACTING IN AFGHANISTAN/IRAQ
(PROJECT NO. 120790, INITIATED NOVEMBER 25, 2008)
This review will identify the number and value of contracts, numbers of con-
tractors performing in country, and numbers of contractor personnel killed or
wounded.

U.S. Agency for International Development
Office of Inspector General (USAID OIG)
Oversight Activities
AUDIT OF SELECTED POWER SECTOR ACTIVITIES FUNDED
UNDER USAID/AFGHANISTAN’S INFRASTRUCTURE AND
REHABILITATION PROGRAM
Objective: Evaluate whether USAID/Afghanistan’s main goals for critical power
sector activities under the Afghanistan Infrastructure and Rehabilitation Program
are being achieved, and what has been the impact.

AUDIT OF USAID/AFGHANISTAN’S BUILDING EDUCATION
SUPPORT SYSTEMS FOR TEACHERS PROJECT
Objective: Evaluate whether USAID/Afghanistan’s Building Education Support
Systems for Teachers project is achieving its main goals.




 108                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                     OTHER AGENCY OVERSIGHT




USAID/AFGHANISTAN’S SCHOOL AND HEALTH CLINIC
BUILDINGS COMPLETED UNDER THE SCHOOLS AND CLINICS
CONSTRUCTION AND REFURBISHMENT (SACCARP) PROGRAM
Objective: Determine whether the school and health clinic buildings completed
under the program are being used for their intended purposes, and measure the
impact of the program on the provision of educational and health services to the
people of Afghanistan.

USAID/AFGHANISTAN’S AFGHAN CIVILIAN ASSISTANCE
PROGRAM
Objective: Determine whether USAID/Afghanistan’s humanitarian assistance
services provided through the Afghan Civilian Assistance Program are on target
to assist eligible beneficiaries under the program, and to evaluate the impact.


OTHER AGENCY INVESTIGATIONS
SIGAR regularly coordinates with other government agencies conducting
investigations in Afghanistan, to monitor the progress of those investigations. As
of June 30, 2009, there were 42 investigators located at various sites working on
48 open cases.
   Table 4.2 provides a summary of ongoing oversight activities performed by
other government agencies as of June 30, 2009.


TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2009
Agency                Project Number   Date Initiated   Project Title
DoD OIG       D2009-D000JB-0230.000       6/5/2009      Interagency Audit on DoD Obligations and
                                                        Expenditures of Funds Provided to Department
                                                        of State for the Training and Mentoring of the
                                                        Afghan National Police
DoD OIG       D2009-D00SPO-0113.000       2/3/2009      Assessment of U.S. and Coalition Plans to Train, Equip, and Field the Afghan National Security Forces
DoD OIG       D2009-D00SPO-0148.000       2/3/2009      Assessment of the Accountability and Control of Arms, Ammunition, and Explosives Provided to
                                                        the Afghan National Security Forces
DoD OIG       D2009-D00SPO-0115.000    12/17/2008       Assessment of U.S. and Coalition Efforts to Develop the Medical Sustainment Capability of the Afghan
                                                        National Security Forces
DoD OIG       D2009-D000JA-0085.000    11/13/2008       Combatant Command Humanitarian Assistance and Disaster Relief Operations
DoD OIG       D2007-D000FD-0198.001    10/10/2008       Re-announcement of the Audit of Funds Appropriated for Afghanistan and Iraq Processed Through
                                                        the Foreign Military Sales Trust Fund
DoD OIG       D2008-D000JC-0274.000      8/28/2008      Update – Summary Report on Challenges Impacting Operations Iraqi Freedom and Enduring Freedom
                                                        Reported by Major Oversight Organizations Beginning FY 2003 through FY 2008
DoD OIG       D2008-D000AS-0255.000      7/31/2008      Contracts Supporting DoD Counter Narcoterrorism Program

                                                                                                                                            (continued on next page)




             REPORT TO THE UNITED STATES CONGRESS         I   JULY 30, 2009                    109
                                                  OTHER AGENCY OVERSIGHT




TABLE 4.2 (CONTINUED)


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2009
Agency                   Project Number    Date Initiated   Project Title
DoD OIG          D2007-D000LQ-0161.002     12/10/2007       Distribution of Funds and the Validity of Obligations for Management of the Afghanistan Security
                                                            Forces Fund-Phase III
DoS OIG MERO             09-MERO-3009         June 2009     Afghanistan National Police Training and Mentoring Program (Joint w/DODIG)
DoS OIG MERO             09-MERO-3004         April 2009    Effectiveness of Counter Narcotics Programs in Afghanistan
DoS OIG MERO             09-MERO-3005       March 2009      Personal Security Detail (WPPS) Contracts – Afghanistan, (United States Training Center (USTC))
DoS OIG MERO             09-MERO-3006       March 2009      Diplomatic Security (DS) Management of WPPS - Afghanistan
GAO                             320680        5/8/2009      Afghan Water Sector: Review of U.S. Efforts to Assist with the Development of the Afghan Water Sector
GAO                             320662       3/16/2009      Review of U.S. Alternative Development and Good Performer Initiative Program in Afghanistan
GAO                             120812       2/19/2009      Agency Oversight of Contractors Managing and Administering Other Contracts or Grants in Iraq and Afghani-
                                                            stan
GAO                             320657       1/29/2009      Afghan Counternarcotics
GAO                             120790     11/25/2008       Contracting in Afghanistan/Iraq
ÚSAID OIG                   Not provided    Not provided    Audit of Selected Power Sector Activities Funded Under USAID/Afghanistan’s Infrastructure
                                                            and Rehabilitation Program
USAID OIG                   Not provided    Not provided    Audit of USAID/Afghanistan’s Building Education Support Systems for Teachers Project
USAID OIG                   Not provided    Not provided    USAID/Afghanistan’s School and Health Clinic Buildings Completed Under the Schools and Clinics Construc-
                                                            tion and Refurbishment (SACCARP) Program
USAID OIG                   Not provided    Not provided    USAID/Afghanistan’s Afghan Civilian Assistance Program



                                                  Defense Criminal Investigative Service (DCIS)
                                                  The DCIS continues to conduct criminal investigations in support of DoD OCO
                                                  efforts. In addition, the DCIS continues to address Southwest Asia Theater
                                                  criminal activity through its offices in Southwest Asia; Wiesbaden, Germany; and
                                                  CONUS task force investigations focusing on public corruption and fraud in the
                                                  Southwest Asia Theater. Special Agents will occasionally travel to the Middle
                                                  East as necessary from Germany and the United States in furtherance of the
                                                  DCIS investigative mission. Investigations primarily involve procurement fraud
                                                  and public corruption. As of June 30, 2009, DCIS has 38 agents working cases
                                                  involving Afghanistan. Of those 38 agents, 3 agents are deployed to Afghanistan.

                                                  Investigations
                                                  During the third quarter of FY 2009, a DCIS joint case resulted in a conviction of
                                                  former contractor involved in the theft of more than 48 truckloads of fuel, valued
                                                  at more than $800,000. They were diverted for sale outside Bagram airfield be-
                                                  tween May and September 2006.
                                                     During the third quarter of FY 2009, a DCIS investigation regarding contract-
                                                  ing at Bagram Airfield resulted in two U.S. military officials pleading guilty




                                                     110                       SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                  OTHER AGENCY OVERSIGHT




to various bribery, fraud and conspiracy charges relating to DoD contracts in
Afghanistan. A third military official pleaded guilty to receiving stolen property,
which was obtained through the bribery conspiracy. In addition, four DoD con-
tractors and four affiliated contracting companies were indicted for their roles in
paying bribes to the military officials and otherwise defrauding the United States.
   Table 4.3 lists the number of ongoing and closed cases to date, as well as the
number of investigators working those cases.


OTHER AGENCY INSPECTIONS
Ongoing Inspections
SIGAR also coordinates with other agencies conducting inspections in Afghani-
stan. During the previous quarter, DoS OIG initiated two investigations, as
described in Table 4.4.




TABLE 4.3


INVESTIGATIVE ACTIVITIES: OTHER AGENCY INVESTIGATIONS
                                  Number of Investigators        Total Number of          Open       Closed        Total
Agency                                    in Afghanistan            Investigators        Cases        Cases       Cases
Defense Criminal
                                                        3                     38            46           10           56
Investigative Service
DoS OIG                                                 0                         4          2             0           2
Total                                                   3                    42            48            10          58



TABLE 4.4


ONGOING INSPECTION ACTIVITIES: OTHER AGENCY INSPECTIONS
                        Project           Date
Agency                  Number       Initiated   Project Title          Objective
DoS OIG         09-ISP-3051        April 2009    De-mining Programs To evaluate the implementation and effectiveness of
                                                 in Afghanistan     de-mining programs in Afghanistan.

DoS OIG         09-ISP-3059        April 2009    Review of              To review and determine whether policy and
                                                 Radio Deewa            program goals of Radio Deewa are being effectively
                                                                        achieved and to provide analysis and recom-
                                                                        mendations for systemic improvements in policy
                                                                        implementation and program management.




                   REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2009                  111
The Official Seal of the SIGAR
The Official Seal of the SIGAR represents the coordination of efforts be-
tween the United States and Afghanistan to provide accountability and
oversight in reconstruction activities. The phrase along the top side of
the seal’s center is in Dari and, translated into English, means “SIGAR.”
The phrase along the bottom side of the seal’s center is in Pashtu and
as translated into English, has the same meaning.
            APPENDICES
            AND ENDNOTES

Introduction: The Year of Transfer
    Rise in Income
    Expanding Iraqi Security Authority
    Afghanistan Reconstruction Update
    Afghanistan Audits
    Afghanistan Inspections
    Reconstruction Teams
    The Role of the International Community


Anticorruption Efforts


Security
    Security Conditions Still Hinder
    Reconstruction Activities
    Concerned Local Citizen Initiative


Legislative Developments


The Human Toll
APPENDICES




APPENDIX A
CROSS-REFERENCE OF REPORT TO
STATUTORY REQUIREMENTS
This appendix cross-references the pages of this report to the quarterly reporting
and related requirements under SIGAR’s enabling legislation, the National De-
fense Authorization Act for Fiscal Year 2008, P.L. No. 110-181, § 1229 (Table A.1).


TABLE A.1

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS
UNDER P.L. NO. 110-181, § 1229
Public Law Section     SIGAR Enabling Language                               SIGAR Action            Section
Supervision
Section 1229(e)(1)     The Inspector General shall report directly to, and   Report to the Secre-    All sections
                       be under the general supervision of, the Secre-       tary of State and the
                       tary of State and the Secretary of Defense            Secretary of Defense
Duties
Section 1229(f)(1)     OVERSIGHT OF AFGHANISTAN                              Review                  All sections
                       RECONSTRUCTION.—                                      appropriated/
                       It shall be the duty of the Inspector General         available funds
                       to conduct, supervise, and coordinate audits
                       and investigations of the treatment, handling,        Review programs,
                       and expenditure of amounts appropriated or            operations, contracts
                       otherwise made available for the reconstruction       using appropriated/
                       of Afghanistan, and of the programs, operations,      available funds
                       and contracts carried out utilizing such funds,
                       including—
Section 1229(f)(1)(A) The oversight and accounting of the obligation         Review obligations      Section 2, SIGAR
                      and expenditure of such funds                          and expenditures        Oversight
                                                                             of appropriated/        Section 3, Funding
                                                                             available funds
Section 1229(f)(1)(B) The monitoring and review of reconstruction            Review reconstruction Section 2, SIGAR
                      activities funded by such funds                        activities funded by  Oversight
                                                                             appropriations and
                                                                             donations
Section 1229(f)(1)(C) The monitoring and review of contracts funded by       Review contracts        Note 1
                      such funds                                             using appropriated
                                                                             and available funds
Section 1229(f)(1)(D) The monitoring and review of the transfer of such      Review internal and     Appendix B
                      funds and associated information between and           external transfers of
                      among departments, agencies, and entities of the       appropriated/
                      United States, and private and nongovernmental         available funds
                      entities




  114                      SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                                   APPENDICES




TABLE A.1 (CONTINUED)

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS
UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                  SIGAR Action            Section
Section 1229(f)(1)(E) The maintenance of records on the use of such              Maintain audit          Section 2, SIGAR
                      funds to facilitate future audits and investigations       records                 Oversight
                      of the use of such fund[s]                                                         Appendix C
                                                                                                         Appendix D
Section 1229(f)(1)(F) The monitoring and review of the effectiveness of          Monitoring and          Section 2, Audits
                      United States coordination with the Governments            review as described
                      of Afghanistan and other donor countries in the
                      implementation of the Afghanistan Compact and
                      the Afghanistan National Development Strategy
Section 1229(f)(1)(G) The investigation of overpayments. . .and any              Conduct and             Section 2,
                      potential unethical or illegal actions of Federal          reporting of            Investigations
                      employees, contractors, or affiliated entities, and        investigations as
                      the referral of such reports, as necessary, to the         described
                      Department of Justice. . .
Section 1229(f)(2)      OTHER DUTIES RELATED TO OVERSIGHT.—                      Establish, maintain, All sections
                        The Inspector General shall establish, maintain,         and oversee systems,
                        and oversee such systems, procedures, and con-           procedures, and
                        trols as the Inspector General considers appropri-       controls
                        ate to discharge the duties under paragraph (1)
Section 1229(f)(3)      DUTIES AND RESPONSIBILITIES UNDER INSPEC-                Duties as specified     All sections
                        TOR GENERAL ACT OF 1978.—                                in Inspector
                        In addition,. . .the Inspector General shall also        General Act
                        have the duties and responsibilities of inspectors
                        general under the Inspector General Act of 1978
Section 1229(f)(4)      COORDINATION OF EFFORTS.—                                Coordination with       Section 4, Other
                        The Inspector General shall coordinate with, and         the inspectors          Agency Oversight
                        receive the cooperation of, each of the following:       general of DoD,
                        (A) the Inspector General of the Department of           State, and USAID
                        Defense, (B) the Inspector General of the Depart-
                        ment of State, and (C) the Inspector General
                        of the United States Agency for International
                        Development
Federal Support and Other Resources
Section 1229(h)(5)(A) ASSISTANCE FROM FEDERAL AGENCIES.—                         Expect support           All sections
                      Upon request of the Inspector General for                  as requested
                      information or assistance from any department,
                      agency, or other entity of the Federal Government,
                      the head of such entity shall, insofar as is prac-
                      ticable and not in contravention of any existing
                      law, furnish such information or assistance to the
                      Inspector General, or an authorized designee




                                                                                                       Continued on next page




                   REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2009                      115
APPENDICES




TABLE A.1 (CONTINUED)

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS
UNDER P.L. NO. 110-181, § 1229
Public Law Section     SIGAR Enabling Language                                SIGAR Action              Section
Reports
Section 1229(i)(1)     QUARTERLY REPORTS.—                                    Report – 30 days          All sections
                       Not later than 30 days after the end of each           after the end of each     Appendix B
                       fiscal-year quarter, the Inspector General shall       calendar quarter
                       submit to the appropriate committees of Con-
                       gress a report summarizing, for the period of that     Summarize activities
                       quarter and, to the extent possible, the period        of the inspector
                       from the end of such quarter to the time of the        general
                       submission of the report, the activities during
                       such period of the Inspector General and the           Detailed statement
                       activities under programs and operations funded        of all obligations,
                       with amounts appropriated or otherwise made            expenditures, and
                       available for the reconstruction of Afghanistan.       revenues
                       Each report shall include, for the period covered
                       by such report, a detailed statement of all obliga-
                       tions, expenditures, and revenues associated
                       with reconstruction and rehabilitation activities in
                       Afghanistan, including the following –
Section 1229(i)(1)(A) Obligations and expenditures of appropriated            Obligations and           Section 3, Funding
                      funds                                                   expenditures of ap-       Appendix B
                                                                              propriated funds
Section 1229(i)(1)(B) A project-by-project and program-by-program             Project-by-project        Section 3, Funding
                      accounting of the costs incurred to date for the        and program-by-
                      reconstruction of Afghanistan, together with the        program accounting
                      estimate of the Department of Defense, the De-          of costs
                      partment of State, and the United States Agency
                      for International Development, as applicable,           List unexpended funds
                      of the costs to complete each project and each          for each project or
                      program                                                 program
Section 1229(i)(1)(C) Revenues attributable to or consisting of funds         Revenues,                 Section 3, Funding
                      provided by foreign nations or international            obligations, and
                      organizations to programs and projects funded by        expenditures of
                      any department or agency of the United States           donor funds
                      Government, and any obligations or expenditures
                      of such revenues
Section 1229(i)(1)(D) Revenues attributable to or consisting of foreign       Revenues,                 Section 3, Funding
                      assets seized or frozen that contribute to              obligations, and
                      programs and projects funded by any U.S. govern-        expenditures of
                      ment department or agency, and any obligations          funds from seized or
                      or expenditures of such revenues                        frozen assets
Section 1229(i)(1)(E) Operating expenses of agencies or entities receiv-      Operating              Section 3, Funding
                      ing amounts appropriated or otherwise made              expenses of            Appendix B
                      available for the reconstruction of Afghanistan         agencies or any
                                                                              organization receiving
                                                                              appropriated funds
                                                                                                      Continued on next page




  116                      SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                                              APPENDICES




TABLE A.1 (CONTINUED)

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS
UNDER P.L. NO. 110-181, § 1229
Public Law Section           SIGAR Enabling Language                                       SIGAR Action                   Section
Section 1229(i)(1)(F) In the case of any contract, grant, agreement,                       Describe contract              Note 1
                      or other funding mechanism described in                              details
                      paragraph (2)a
                      (i) The amount of the contract or other funding
                      mechanism;
                      (ii) A brief discussion of the scope of the contract
                      or other funding mechanism;
                      (iii) A discussion of how the department or
                      agency of the United States Government involved
                      in the contract, grant, agreement, or other funding
                      mechanism identified and solicited offers from
                      potential contractors to perform the contract,
                      grant, agreement, or other funding mechanism,
                      together with a list of the potential individuals
                      or entities that were issued solicitations for the
                      offers; and
                      (iv) The justification and approval documents
                      on which was based the determination to use
                      procedures other than procedures that provide for
                      full and open competition
Section 1229(i)(3)           PUBLIC AVAILABILITY.—                                         Publish report as              www.sigar.mil
                             The Inspector General shall publish on a                      directed
                             publically-available Internet website each report                                            Dari and Pashtu
                             under paragraph (1) of this subsection in English                                            in process
                             and other languages that the Inspector General
                             determines are widely used and understood in
                             Afghanistan
Section 1229(i)(4)           FORM.—                                              Publish report as                        All sections
                             Each report required under this subsection shall be directed
                             submitted in unclassified form, but may include a
                             classified annex if the Inspector General considers
                             it necessary

Note 1: This information is not included in this quarterly report. The list of contracts is available at www.sigar.mil.

a
  Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-
181 as being—
“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United
States Government that involves the use of amounts appropriated or otherwise made available for the reconstruction of Afghanistan
with any public or private sector entity for any of the following purposes:

To build or rebuild physical infrastructure of Afghanistan.
To establish or reestablish a political or societal institution of Afghanistan.
To provide products or services to the people of Afghanistan.”




                      REPORT TO THE UNITED STATES CONGRESS                            I   JULY 30, 2009                             117
                                                                   APPENDICES


                                                                   APPENDIX B
                                                                   U.S. GOVERNMENT APPROPRIATED FUNDS ($ MILLIONS)
                                                                   This table lists appropriated funds by project, per year, for Afghanistan
                                                                   reconstruction efforts.

                                                                    U.S. FUNDING SOURCES                                        AGENCY                    TOTAL
                                                                    Afghan Security Forces Fund (ASFF)                          DoD                      15,059.53
                                                                    Commander's Emergency Response Program (CERP)               DoD                       1,619.14
                                                                    Economic Support Fund (ESF)                                 USAID                     7,625.62
                                                                    Development Assistance (DA)                                 USAID                      890.17
                                                                    International Narcotics Control & Law Enforcement (INCLE)   DoS                       1,991.28
                                                                    Total - Primary Funding Sources                                                    27,185.75
                                                                    OTHER FUNDING SOURCES:
                                                                    Drug Interdiction & Counter-Drug Activities, (DoD CN)       DoD                       1,056.72
                                                                    Afghanistan Freedom Support Act (AFSA)                      DoD                        550.00
                                                                    Train & Equip (DoD)                                         DoD                        440.00
                                                                    PL 480 Title II                                             USAID                      673.80
                                                                    Child Survival & Health (CSH + GHAI)                        USAID                      389.67
                                                                    Disaster Assistance (IDA)                                   USAID                      291.89
                                                                    Transition Initiatives (TI)                                 USAID                       28.00
                                                                    Commodity Credit Corp (CCC)                                 USAID                       22.50
                                                                    Freedom Support Act (FSA)                                   USAID                         5.00
                                                                    Foreign Military Financing (FMF)                            DoS                       1,058.51
                                                                    Migration and Refugee Assistance (MRA)                      DoS                        502.23
                                                                    Non-Prolif, Antiterrorism, Demining, & Related (NADR)       DoS                        297.06
                                                                    Voluntary Peacekeeping (PKO)                                DoS                         69.34
                                                                    Emergency Refugee & Migration Assistance (ERMA)             DoS                         25.20
                                                                    International Military Education and Training (IMET)        DoS                           6.85
                                                                    Food for Progress                                           USDA                       109.49
                                                                    416(b) Food Aid                                             USDA                        95.18
                                                                    Food for Education                                          USDA                        50.49
                                                                    Emerson Trust                                               USDA                        21.60
                                                                    Provincial Reconstruction Team Advisors                     USDA                          5.70
                                                                    Drug Enforcement Administration (DEA)                       DoJ                        127.37
                                                                    Treasury Technical Assistance                               DoT                           5.71
                                                                    NDAA Section 1207 Transfer                                  Other                         9.90
                                                                    Total - Other Funding Sources                                                       5,842.20
                                                                    Total Funding to Agencies                                                          33,027.95
Notes: Numbers affected by rounding. Data may include inter-
agency transfers. Funding is based on agency-reported data          SUPPLEMENTAL FUNDING:
for monies made available for Afghanistan reconstruction. If
an agency did not report monies made available, funding is
                                                                    Afghan Security Forces Fund (ASFF)                          DoD                       3,606.90
based on agency-reported obligation or expenditure data. If an      Economic Support Fund (ESF)                                 USAID                      861.00
agency did not report obligation or expenditure data, funding is
based on OMB allocations.                                           International Narcotics & Law Enforcement (INCLE)           DoS                        133.00
Sources: DoD, responses to SIGAR data call, 7/10/2009 and           Non-Prolif, Antiterrorism, Demining, & Related (NADR)       DoS                         12.00
7/13/2009. USAID, response to SIGAR data call, 7/9/2009.
DoS/INL, response to SIGAR data call, 7/2/2009. DoJ/DEA,            Other                                                       Other                      427.10
response to SIGAR data call, 7/8/2009. DoS, responses
to SIGAR data call, 7/10/2009 and 7/13/2009. USDA,                  Total - Supplemental Funding                                                          5,040.00
response to SIGAR data call, 4/7/2009. OMB, responses to
SIGAR data call, 9/30/2008 and 7/16/2009.                                                                                                              38,067.95




                                                                     118                          SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                    APPENDICES




FY 2002       FY 2003        FY 2004         FY 2005             FY 2006           FY 2007     FY 2008      FY 2009
    0.00           0.00          0.00              995.00         1,908.13          7,406.40    2,750.00     2,000.00
    0.00           0.00         40.00              134.00          215.00            208.81      486.33       535.00
  117.51         239.29        896.64             1,240.58         473.39           1,210.71    1,399.51     2,048.00
   18.30          42.54        153.51              169.18          191.18            166.81      148.65          0.00
   60.00           0.00        220.00              709.28          232.65            251.74      307.57       210.04
 195.81         281.83       1,310.15            3,248.04        3,020.36          9,244.47    5,092.07     4,793.04


    0.00           0.00         71.80              224.54          108.05            290.97      189.62       171.73
    0.00         165.00        135.00              250.00             0.00             0.00        0.00          0.00
    0.00           0.00        150.00              290.00             0.00             0.00        0.00          0.00
  159.50          46.10         49.20               56.60           60.00             60.00      177.00        65.40
    7.52          49.68         31.00               38.00           41.45            100.77       63.02        58.23
  197.09          85.00          9.80                 0.00           0.00              0.00        0.00          0.00
    7.92           7.26         11.22                 1.60           0.00              0.00        0.00          0.00
    7.30           1.33             0                 0.00            0.00             0.00       13.02          0.85
    0.00           0.00          5.00                 0.00           0.00              0.00        0.00          0.00
   57.00         191.00        413.71              396.80            0.00              0.00        0.00          0.00
  135.77          63.00         67.10               47.10           41.80             54.00       43.46        50.00
   44.00          34.70         63.77               36.62           18.22             36.58       26.63        36.55
   23.94           9.90         20.00               15.50            0.00              0.00        0.00          0.00
   25.00           0.00          0.00                 0.00           0.00              0.00        0.00          0.20
    0.18           0.33          0.60                 0.80           0.79              1.14        1.62          1.40
    0.00           4.96          9.08               30.10           23.24              9.47       20.55        12.09
   46.46          14.14         34.58                 0.00           0.00              0.00        0.00          0.00
    0.00           9.27          6.12               10.02           25.08              0.00        0.00          0.00
    0.00           0.00          0.00                 0.00           0.00              0.00       21.60          0.00
    0.00           0.00          0.00                 0.00           0.00              0.00        0.00          5.70
    0.58           2.87          3.72               16.77           23.66             20.38       40.59        18.80
    0.70           1.00          1.00                 1.00           0.62              1.39        0.00          0.00
    0.00           0.00          0.00                 0.00           0.00              0.00        9.90          0.00
 712.96         685.54       1,082.70            1,415.45         342.91            574.70      607.00       420.95
 908.77         967.37       2,392.84            4,663.48        3,363.27          9,819.17    5,699.07     5,213.99


                                                                                                             3,606.90
                                                                                                              861.00
                                                                                                              133.00
                                                                                                               12.00
                                                                                                              427.10
                                                                                                             5,040.00
 908.77         967.37       2,392.84            4,663.48        3,363.27          9,819.17    5,699.07    10,253.99




      REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2009               119
APPENDICES




APPENDIX C
SIGAR AUDITS
Completed Audits
SIGAR has completed three audits as of July 30, 2009, listed in Table C.1.

Ongoing Audits
SIGAR has seven ongoing audits as of July 30, 2009, listed in Table C.2.



TABLE C.1

SIGAR COMPLETED AUDITS, AS OF 7/30/2009
Agency      Audit Number                Date Issued              Report Title
SIGAR       SIGAR Audit 09-1            5/2009                   Contract Oversight Capabilities of the Defense
                                                                 Department’s Combined Security Transition
                                                                 Command - Afghanistan (CSTC-A) Need
                                                                 Strengthening
SIGAR       SIGAR Audit 09-2            7/2009                   UN Action Urged to Strengthen Afghanistan
                                                                 Capacity To Support Future Elections
SIGAR       SIGAR Audit 09-3            7/2009                   Management Information Systems Available to
                                                                 Reconstruction Decision-Makers in Afghanistan




TABLE C.2

SIGAR ONGOING AUDITS, AS OF 7/30/2009
Agency         Date Initiated   Report Title
SIGAR            March 2009     Agencies’ Management Oversight, Procedures, and Practices for Reconstruction
                                Funds and Projects
SIGAR            March 2009     Contractor Performance and Agency Oversight of U.S. Government Contracts in
                                Afghanistan with Louis Berger Group
SIGAR              April 2009   U.S. and International Donor Programs to Assist Afghanistan’s Energy Sector
SIGAR              April 2009   Controls and Accountability for Commander’s Emergency Response Program
                                (CERP)
SIGAR              April 2009   U.S. Assistance for the Preparation and Conduct of Presidential and Provincial
                                Council Elections in Afghanistan
SIGAR               July 2009   Afghan Central Government Oversight and Anti-Corruption Capacity
SIGAR               July 2009   Afghan Provincial Government Oversight and Anti-Corruption Capacity




  120                  SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                            APPENDICES




APPENDIX D
SIGAR INSPECTIONS
Completed Inspections
SIGAR has completed one inspection as of July 30, 2009, as listed in Table D.1.

Ongoing Inspections
SIGAR has initiated four inspections as of July 30, 2009, as listed in Table D.2.

Planned Inspections
SIGAR has three inspections planned to commence before December 31, 2009, as
listed in Table D.3.


TABLE D.1

SIGAR COMPLETED INSPECTIONS, AS OF 6/30/2009
Agency      Report Number Date Issued      Project Name                                  Assessment Type
SIGAR       SIGAR 09-02-I   7/2009         Improvements to the Khowst City               Infrastructure
                                           Power System


TABLE D.2


SIGAR ONGOING INSPECTIONS, AS OF 7/30/2009
Agency         Date Initiated    Project Name                                            Assessment Type
SIGAR          6/9/2009          Management and Operations Aspects of the Farah          Management
                                 Provincial Reconstruction Team
SIGAR          6/9/2009          Farah Radio/TV Studio Infrastructure Project            Infrastructure
SIGAR          6/9/2009          Tojg Bridge Project                                     Infrastructure
SIGAR          6/16/2009         Management and Operations Aspects of the Kapisa- Management
                                 Parwan PRT


TABLE D.3

SIGAR PLANNED INSPECTIONS, AS OF 7/30/2009
Agency      Estimated Start Date Project Name                                            Assessment Type
SIGAR       August 2009          Kabul 105 MW Power Plant and Switching Station          Infrastructure
                                 Construction
SIGAR       September 2009       Construction of Afghan National Police JRCC (Joint      Infrastructure
                                 Readiness Coordination Center) in Kandahar
SIGAR       December 2009        Darunta Hydroelectric Power Plant                       Infrastructure
                                 Rehabilitiation




                 REPORT TO THE UNITED STATES CONGRESS                I   JULY 30, 2009                     121
APPENDICES




APPENDIX E
SIGAR HOTLINE
Reported Complaints
Of the 38 complaints received, SIGAR has 24 complaints under review and has
dismissed 11, as listed in Table E.1.
    The majority of complaints that SIGAR received were made by telephone, as
listed in Table E.2.


TABLE E.1


STATUS OF SIGAR HOTLINE COMPLAINTS, AS OF 6/30/2009
Status                        SIGAR Afghanistan              SIGAR DC               Total
Assigned/Open                                 0                    0                   0
Under Review                                 18                    6                  24
Referred Out                                  3                    0                   3
Dismissed                                    11                    0                  11
Completed                                     0                    0                   0
Total                                                                                38




TABLE E.2


METHODS USED TO SUBMIT COMPLAINTS, AS OF 6/30/2009
Method of Submission          SIGAR Afghanistan             SIGAR DC                Total
Calls Received                              32                     1                  33
Email/Web site                               0                     4                    4
Walk-in                                      0                     0                    0
Written (Not E-mail)                         0                     1                    1
Total                                                                                 38




  122                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                           APPENDICES




APPENDIX F
ACRONYMS AND DEFINITIONS
This section contains all of the abbreviations and acronyms found in the SIGAR
Quarterly Report to the Congress.

TABLE F.1

SIGAR ACRONYMS AND DEFINITIONS
ACRONYM         DEFINITION
ADF             Asian Development Fund
ADT             agribusiness development team
AGO             Attorney General’s Office
AGOAS           Attorney General’s Office Assistance Section
AJIS            Access to Justice and Integration
AMSP            Afghan Municipal Strengthening Program
ARDZ            Agricultural and Rural Development Zone
ARSIC           Afghan Regional Security Integration Command
ARTF            Afghanistan Reconstruction Trust Fund
BWT             Basic Warrior Training
CARD            Comprehensive Agriculture and Rural Development
CERP            Commander’s Emergency Response Program
CJTF            Criminal Justice Task Force
CJTF Phoenix    Combined Joint Task Force Phoenix
CNAT            Counter-Narcotics Advisory Team
CNJC            Counter-Narcotics Justice Center CJTF Phoenix Combined Joint Task Force Phoenix ARSIC Afghan
                Regional Security Integration Command
CNT             Central Narcotics Tribunal
COMPRI-A        Communication for Behavior Change: Expanding Access to Private Sector Health Products and
                Services in Afghanistan
CSSP            Corrections Systems Support Program
DAD             Development Assistance Database
DFR             donor financial review
DICE            Data and Intelligence Collection and Exchange
DoN             Department of the Navy
ETT             Embedded Training Team
EUPOL           European Union Police Mission
GWOT            Global War on Terror
HHS             Department of Health and Human Services
HMMWV           high-mobility, multi-purpose wheeled vehicle
HOO             High Office of Oversight for the Implementation of the Anticorruption Strategy
HSSP            Health Services Support Project
IDA             International Development Association
IDEA-NEW        Incentives Driving Economic Alternatives for North, East, and West
                                                                                            Continued on next page




               REPORT TO THE UNITED STATES CONGRESS                 I   JULY 30, 2009                    123
APPENDICES




TABLE F.1 (CONTINUED)


SIGAR ACRONYMS AND DEFINITIONS
ACRONYM        DEFINITION
IET            initial entry training
INLTC          Independent National Legal Training Center
IRI            International Republican Institute
IRP            Infrastructure and Rehabilitation Program (USAID)
JCMB           Joint Coordination and Monitoring Board
JICA           Japanese International Cooperation Agency
JSSP           Justice Sector Support Program
LBG/B&V        Louis Berger Group/Black & Veatch Joint Venture
LGCD           Local Governance and Community Development
MAD            Mothers Against Drugs
MoF            Ministry of Finance
MoTCA          Ministry of Transportation and Civil Aviation
NCO            non-commissioned officer
NGO            non-governmental organization
NSP            National Solidarity Program
OCO            Overseas Contingency Operations
OEF            Operation Enduring Freedom
OIF            Operation Iraqi Freedom
OMB            Office of Management and Budget
OMLT           Operational Mentoring and Liaison Team
ONE-NET        Outside the Continental United States Navy Enterprise Network
OoP            Office of the President (Afghanistan)
PRGF           Poverty Reduction and Growth Facility
PSC            private security contractor
RTC            Regional Training Center
RUF            rules for the use of force
SCoG           Support for the Center of Government
SOG            special operations group
UNCAC          United Nations Convention Against Corruption
UNICEF         United Nations Children’s Fund
UNODC          United Nations Office on Drugs and Crime
USDA           U.S. Department of Agriculture
USMS           U.S. Marshals Service
VOA            Voice of America
VTT            Validation Tracking Team




      124               SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                       ENDNOTES




1.    White House, Press Release, “Remarks by the President After the Trilateral Meeting with President Karzai of Afghanistan and President Zardari
      of Pakistan,” 5/6/2009.
2.    Statement by Richard C. Holbrooke, Special Representative for Afghanistan and Pakistan, to the House Oversight and Government Reform
      Committee, Subcommittee on National Security and Foreign Affairs, United States House of Representatives, 6/24/2009.
3.    Statement by Richard C. Holbrooke, Special Representative for Afghanistan and Pakistan, to the House Oversight and Government Reform
      Committee, Subcommittee on National Security and Foreign Affairs, United States House of Representatives, 6/24/2009; Statement by Ambas-
      sador Robert O. Blake, Assistant Secretary of State for South and Central Asia, House Foreign Affairs Subcommittee on the Middle East and
      South Asia, 6/25/2009.
4.    Statement by Richard C. Holbrooke, Special Representative for Afghanistan and Pakistan, to the House Oversight and Government Reform
      Committee, Subcommittee on National Security and Foreign Affairs, United States House of Representatives, 6/24/2009.
5.    Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 6/23/2009.
6.    Statement by Richard C. Holbrooke, Special Representative for Afghanistan and Pakistan, to the House Oversight and Government Reform
      Committee, Subcommittee on National Security and Foreign Affairs, United States House of Representatives, 6/24/2009.
7.    Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 6/23/ 2009. The
      UN Special Representative of the Secretary-General to Afghanistan and the senior economic advisor to the president of Afghanistan are co-
      chairs of the JCMB. The 28-member board includes 21 representatives from the international community and seven from the Afghan govern-
      ment.
8.    Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 6/23/2009.
9.    The FY 2009 Supplemental Appropriation provided $1.4 billion in non-military assistance for Pakistan and the president is asking the Congress
      to increase non-military assistance to Pakistan to $1.5 billion per year for five years.
10.   Statement by Richard C. Holbrooke, Special Representative for Afghanistan and Pakistan, to the House Oversight and Government Reform
      Committee, Subcommittee on National Security and Foreign Affairs, United States House of Representatives, 6/24/2009.
11.   USAID, response to SIGAR data call, 7/2009.
12.   These numbers are current as of 6/27/2009.
13.   GIRoA, “Afghanistan National Development Strategy” 6/2008, Forward.
14.   U.S. House of Representatives, Committee on Appropriations Fact Sheet, “Holding Afghanistan and Pakistan Accountable,” 6/11/2009.
15.   DoD, response to SIGAR data call, 7/10/2009.
16.   CRS, Report for Congress, “Afghanistan: U.S. Foreign Assistance,” 7/8/2009, p. 2.
17.   DoD, response to SIGAR data call, 7/13/2009.
18.   DoD, Financial Management Regulation, “Commander’s Emergency Response Fund: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
19.   USAID, response to SIGAR data call, 7/9/2009; USAID, response to SIGAR vetting, 7/17/2009.
20.   USAID, response to SIGAR vetting, 7/16/2009.
21.   USAID, response to SIGAR data call, 7/9/2009; USAID, response to SIGAR vetting, 7/17/2009.
22.   CRS, Report for Congress, “Foreign Aid: An Introduction to U.S. Programs and Policy,” 4/9/2009, p. 7.
23.   DoS, response to SIGAR data call, 7/2/2009.
24.   DoS, response to SIGAR data call, 7/2/2009; DoS, “Counternarcotics and Law Enforcement Country Program: Afghanistan,” 1/20/2009.
25.   DoD, responses to SIGAR data call, 7/10/2009 and 7/13/2009. USAID, response to SIGAR data call, 7/9/2009. DoS, response to SIGAR data
      call, 7/2/2009. DoJ/DEA, response to SIGAR data call, 7/8/2009. DoS, response to SIGAR data call, 7/10/2009 and 7/13/2009. USDA, response to
      SIGAR data call, 4/7/2009. OMB, responses to SIGAR data call, 9/30/2008 and 7/16/2009.
26.   DoD, responses to SIGAR data call, 7/10/2009 and 7/13/2009. USAID, response to SIGAR data call, 7/9/2009. DoS, response to SIGAR data
      call, 7/2/2009. DoJ/DEA, response to SIGAR data call, 7/8/2009. DoS, response to SIGAR data call, 7/10/2009 and 7/13/2009. USDA, response to
      SIGAR data call, 4/7/2009. OMB, responses to SIGAR data call, 9/30/2008 and 7/16/2009.
27.   DoD, response to SIGAR data call, 7/10/2009.
28.   DoD, response to SIGAR data call, 7/10/2009.
29.   DoD, response to SIGAR data call, 7/10/2009.
30.   DoD, response to SIGAR data call, 7/10/2009; DoD, response to SIGAR vetting, 7/17/2009.
31.   DoD, response to SIGAR data call, 7/10/2009; DoD, response to SIGAR vetting, 7/17/2009.
32.   DoD, response to SIGAR data call, 7/10/2009.
33.   DoD, responses to SIGAR data call, 7/13/2009 and 7/14/2009.
34.   DoD, Financial Management Regulation, “Commander’s Emergency Response Fund: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
35.   OMB, response to SIGAR vetting, 7/16/2009.
36.   DoD, response to SIGAR data call, 7/13/2009.
37.   DoD, response to SIGAR vetting, 7/21/2009.
38.   DoD, response to SIGAR vetting, 7/16/2009.
39.   USAID, response to SIGAR data call, 7/9/2009; USAID, response to SIGAR vetting call, 7/16/2009.
40.   USAID, responses to SIGAR data call, 4/7/2009 and 7/9/2009; USAID, response to SIGAR vetting call, 7/16/2009.
41.   USAID, response to SIGAR data call, 7/9/2009.
42.   USAID, response to SIGAR data call, 7/9/2009.




              REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2009               125
                                              ENDNOTES




43.   CRS, Report for Congress, “Foreign Aid: An Introduction to U.S. Programs and Policy,” 4/9/2009, p. 7.
44.   DoS, “Congressional Budget Justification: Foreign Operations, Fiscal Year 2010,” p. 32.
45.   USAID, response to SIGAR vetting, 7/16/2009; Approximately $860 million in DA funds were specifically appropriated for Afghanistan and
      USAID provided an additional $30 million in worldwide DA funds for Afghanistan.
46.   USAID, response to SIGAR vetting, 7/16/2009; USAID, response to SIGAR data call, 7/9/2009.
47.   USAID, response to SIGAR data call, 7/9/2009.
48.   USAID, responses to SIGAR data call, 4/7/2009 and 7/9/2009.
49.   USAID, response to SIGAR vetting, 7/16/2009.
50.   DoS, response to SIGAR data call, 7/2/2009.
51.   DoS, response to SIGAR data call, 7/2/2009.
52.   DoS, response to SIGAR data call, 7/2/2009; USAID, response to SIGAR vetting, 7/16/2009.
53.   DoS, response to SIGAR data call, 7/2/2009.
54.   DoS, response to SIGAR data call, 7/14/2009.
55.   DoS, response to SIGAR data call, 7/2/2009; DoS, response to data call, 3/10/2009.
56.   GIRoA Ministry of Finance, “Ministry of Finance Afghanistan,” www.mof.gov.af, accessed 7/13/2009.
57.   USAID, response to SIGAR data call, 7/2/2009.
58.   U.S. Treasury, response to SIGAR data call, 7/10/2009.
59.   U.S. Treasury, response to SIGAR data call, 7/10/2009.
60.   U.S. Treasury, response to SIGAR data call, 7/10/2009.
61.   U.S. Treasury, response to SIGAR data call, 7/10/2009.
62.   U.S. Treasury, response to SIGAR data call, 7/10/2009.
63.   U.S. Treasury, response to SIGAR data call, 7/10/2009.
64.   U.S. Treasury, response to SIGAR vetting, 7/17/2009.
65.   CRS, Report for Congress, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/18/2009, p. 56.
66.   CRS, Report for Congress, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/18/2009, pp. 55.
67.   U.S. Treasury, response to SIGAR data call, 7/10/2009.
68.   World Bank, “Afghanistan Reconstruction Trust Fund: 1387 Annual Report,” http://siteresources.worldbank.org/INTAFGHANISTAN/Resourc-
      es/Afghanistan-Reconstructional-Trust-Fund/ARTF_Annual_ReportSY1387.pdf, accessed 7/21/2009, p. 2.
69.   World Bank, “Afghanistan Reconstruction Trust Fund: 1387 Annual Report,” http://siteresources.worldbank.org/INTAFGHANISTAN/Resourc-
      es/Afghanistan-Reconstructional-Trust-Fund/ARTF_Annual_ReportSY1387.pdf, accessed 7/21/2009, p. 2.
70.   DoD, response to SIGAR data call, 7/10/2009.
71.   DoD, responses to SIGAR data call, 7/10/2009 and 7/13/2009. USAID, response to SIGAR data call, 7/9/2009. DoS, response to SIGAR data call,
      7/2/2009. DoJ/DEA, response to SIGAR data call, 7/8/2009. DoS, responses to SIGAR data call, 7/10/2009 and 7/13/2009. USDA, response to
      SIGAR data call, 4/7/2009. OMB, responses to SIGAR data call, 9/30/2008 and 7/16/2009.
72.   DoD, response to SIGAR data call, 7/10/2009. Note that the ASFF data applies only to ANA and ANP funding. ASFF categories, such as “other,”
      were not included in the ASFF data.
73.   CSTC-A, response to SIGAR vetting, 7/15/2009; CSTC-A, response to SIGAR data call, 07/1/2009.
74.   GIRoA, “Afghanistan National Development Strategy, An Interim Strategy for Security, Governance, Economic Growth & Poverty Reduction,”
      n.d., www.ands.gov.af/admin/ands/ands_docs/upload/UploadFolder/I-ANDS%20Volume%20One%20-%20Final%20English.pdf, p. 14.
75.   CSTC-A, response to SIGAR data call, 7/1/2009.
76.   CSTC-A, response to SIGAR data call, 7/1/2009. “Contract type” represents the data call category “Fund Type/Type Contract.”
77.   GIRoA, “The Afghanistan Compact,” 1/31/2006–2/1/2006, p. 3.; DoD, “United States Plan for Sustaining the Afghanistan National Security
      Forces,” 6/2008, p. 4.
78.   GIRoA, “Agreement on Provisional Arrangements in Afghanistan Pending the Re-establishment of Permanent Government Institutions,”
      12/5/2001, p. 5.
79.   GIRoA,“The Afghanistan Compact,” 1/31/2006–2/1/2006, p. 3.
80.   GIRoA, “Afghanistan National Development Strategy, Executive Summary,” 6/2008, p. 3.
81.   DoD, “Progress toward Security and Stability in Afghanistan,” 6/2009, p. 28; GIRoA, “Afghanistan National Development Strategy,” 6/2008,
      pp. 4, 6.
82.   White House, press release, “Remarks by the President on a New Strategy for Afghanistan and Pakistan,” 3/27/2009, www.whitehouse.gov/
      the_press_office/Remarks-by-the-President-on-a-New-Strategy-for-Afghanistan-and-Pakistan, accessed 7/18/2009.
83.   NATO, “NATO’s Role in Afghanistan,” www.nato.int/cps/en/natolive/topics_8189.htm, updated 6/18/2009, accessed 6/21/2009.
84.   Congressional Research Service, “U.S. Forces in Afghanistan,” 7/15/2008, p. 3.
85.   NATO, “Progress with the Development of Afghan National Security Forces (ANSF),” 3/2009; GAO, “Afghanistan Security, Further Congressio-
      nal Action May Be Needed To Ensure Completion of a Detailed Plan To Develop and Sustain Capable Afghan National Security Forces,” Report
      GAO-08-661, 6/2008, p. 1 (Highlights).
86.   CSTC-A, “CSTC-A Mission,” n.d., www.cstc-a.com/Mission.html, accessed 7/16/2009; CSTC-A, “CSTC-A Fact Sheet,” 3/15/2009.
87.   CSTC-A, “Current Training Team C2 Structure,” 7/2/2009, p. 3.




                                                126                  SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                                        ENDNOTES




88.    CJTF Phoenix VIII, “Our Mission,” n.d., http://cjtfphoenix.com/Mission.html, accessed 5/22/2009.
89.    CSTC-A, “Fact Sheet – Afghanistan Regional Security Integration Command,” 3/15/2009, p. 1.
90.    NATO, “NATO’s Role in Afghanistan,” www.nato.int/cps/en/natolive/topics_8189.htm, updated 6/18/2009, accessed 6/21/2009.
91.    NATO, “Chronology,” www.nato.int/isaf/topics/chronology/index.html, updated 3/20/2009, accessed 6/21/2009.
92.    NATO, “NATO’s Role in Afghanistan,” www.nato.int/cps/en/natolive/topics_8189.htm, updated 6/18/2009, accessed 6/21/2009.
93.    DoS, response to SIGAR vetting, 7/16/2009.
94.    NATO, “NATO’s Role in Afghanistan,” www.nato.int/cps/en/natolive/topics_8189.htm, updated 6/18/2009, accessed 6/21/2009.
95.    Council of the European Union, “EU Police Mission in Afghanistan (EUPOL Afghanistan),” n.d., www.consilium.europa.eu/showPage.
       aspx?id=1268&lang=en, accessed 6/21/2009; German Federal Ministry of the Interior, “Assistance in Rebuilding the Police Force in Afghani-
       stan,” n.d., www.en.bmi.bund.de/cln_012/nn_1159784/Internet/Content/Themen/Police/Afghanistan/Assistance__in__rebuilding__the__police__
       force__Afghanistan.html, accessed 6/25/2009.
96.    European Union Fact Sheet, “EU Police Mission in Afghanistan,” 3/2009, p. 1.
97.    CSTC-A, “Fact Sheet Afghan National Army,” 3/15/2009, p. 1.
98.    GIRoA, “Afghanistan National Development Strategy, Executive Summary,” 6/2008, pp. 4, 6.
99.    GAO, “Afghanistan Security, Further Congressional Action May Be Needed To Ensure Completion of a Detailed Plan To Develop and Sustain
       Capable Afghan National Security Forces,” Report GAO-08-661, 6/2008, pp. 7, 54.
100.   GAO, “Afghanistan Security, Further Congressional Action May Be Needed To Ensure Completion of a Detailed Plan To Develop and Sustain
       Capable Afghan National Security Forces,” Report GAO-08-661, 6/2008, p. 7; ANA, “The Official Website of the Afghan National Army,” n.d.,
       www.mod.gov.af/, accessed 6/21/2009.
101.   DoD, “Progress toward Security and Stability in Afghanistan,” 6/2009, p. 28.
102.   DoD, “United States Plan for Sustaining the Afghanistan National Security Forces,” 6/2008, p. 16.
103.   DoD, “United States Plan for Sustaining the Afghanistan National Security Forces,” 6/2008, p. 16.
104.   DoD, “United States Plan for Sustaining the Afghanistan National Security Forces,” 6/2008, p. 16; ANA, “The Official Website of the Afghan
       National Army,” n.d., http://www.mod.gov.af/, accessed 6/21/2009.
105.   DoD, “Progress toward Security and Stability in Afghanistan,” 6/2009, p. 30.
106.   CSTC-A, response to SIGAR data call, 7/1/2009.
107.   CSTC-A, response to SIGAR data call, 7/1/2009.
108.   DoD, “United States Plan for Sustaining the Afghanistan National Security Forces,” 6/2008, pp. 18, 6–7.
109.   DoD, “United States Plan for Sustaining the Afghanistan National Security Forces,” 6/2008, pp. 6–7.
110.   GAO, “Afghanistan Security, Further Congressional Action May Be Needed To Ensure Completion of a Detailed Plan To Develop and Sustain
       Capable Afghan National Security Forces,” Report GAO-08-661, 6/2008, p. 7.
111.   CSTC-A, response to SIGAR data call, 7/8/2009.
112.   DoD, response to SIGAR data call, 7/10/2009.
113.   DoD, response to SIGAR data call, 7/10/2009.
114.   CSTC-A, response to SIGAR data call, 7/1/2009.
115.   CSTC-A, response to SIGAR data call, 7/1/2009.
116.   German Federal Ministry of the Interior, “Assistance in Rebuilding the Police Force in Afghanistan,” n.d., http://www.en.bmi.bund.de/cln_012/
       nn_1159784/Internet/Content/Themen/Police/Afghanistan/Assistance__in__rebuilding__the__police__force__Afghanistan.html, accessed
       6/25/2009.
117.   CSTC-A, “Fact Sheet Afghan National Police,” 3/15/2009, p. 1.
118.   CSTC-A, “Fact Sheet Afghan National Police,” 3/15/2009, p. 1.
119.   DoS, response to SIGAR vetting, 7/16/2009.
120.   DoD, “Progress toward Security and Stability in Afghanistan,” 6/2009, p. 28.
121.   ANDS, “Joint Coordination and Monitoring Board (JCMB) Terms of Reference,” n.d., www.ands.gov.af/ands/jcmb/site/src/Information%20
       on%20JCMB/JCMB%20TOR%20-%20English.pdf, accessed 7/18/2009.
122.   German Federal Ministry of the Interior, “Assistance in Rebuilding the Police Force in Afghanistan,” n.d., www.en.bmi.bund.de/cln_012/
       nn_1159784/Internet/Content/Themen/Police/Afghanistan/Assistance__in__rebuilding__the__police__force__Afghanistan.html, accessed
       6/25/2009.
123.   Institute for the Study of War, “Afghanistan National Police,” 4/15/2009, www.understandingwar.org/print/648, accessed 6/21/2009.
124.   DoS, response to SIGAR vetting, 7/16/2009.
125.   Institute for the Study of War, “Afghanistan National Police,” 4/15/2009, www.understandingwar.org/print/648, accessed 6/21/2009.
126.   DoS, response to SIGAR vetting, 7/16/2009.
127.   GAO, “Afghanistan Security, U.S. Programs To Further Reform Ministry of Interior and National Police Challenged by Lack of Military Person-
       nel and Afghan Cooperation,” Report GAO-09-280, 3/2009, p. 1.
128.   CSTC-A, response to SIGAR data call, 07/1/2009.
129.   CSTC-A, response to SIGAR data call, 07/8/2009.
130.   DoD, response to SIGAR data call, 7/10/2009.
131.   DoD, response to SIGAR data call, 7/10/2009.




               REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2009               127
                                                ENDNOTES




132.   CSTC-A, response to SIGAR data call, 7/1/2009.
133.   CSTC-A, response to SIGAR data call, 7/1/2009.
134.   CSTC-A, response to SIGAR data call, 7/1/2009.
135.   White House, Press Release, “Statement by President Barack Obama on the Start of the Afghan Election Campaign,” 6/16/2009.
136.   IEC, “IEC Background,” www.iec.org.af/content.asp.?id=background#, accessed 7/15/2009; Report of the UN Secretary-General, “The Situation
       in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009, p. 2.
137.   IEC, Press Release, “Final figures of candidates for president & provincial council elections 2009,” 5/9/2009.
138.   IEC, Fact Sheet, “Presidential Election,” www.iec.org.af/assets/PDF/FactSheet/eng/fs4E.pdf, accessed 7/18/2009.
139.   IEC, Fact Sheet, “Presidential Election,” www.iec.org.af/assets/PDF/FactSheet/eng/fs4E.pdf, accessed 7/18/2009.
140.   IEC, Fact Sheet, “Presidential Election,” www.iec.org.af/assets/PDF/FactSheet/eng/fs4E.pdf ,accessed 7/18/2009.
141.   IEC, Press Release, “Final figures of candidates for president & provincial council elections 2009,” 5/9/2009.
142.   UN Security Council Resolution 1806, 3/20/2008, p. 1.
143.   Statement of Mr. Richard C. Holbrooke, Special Representative for Afghanistan and Pakistan, Department of State before House Oversight and
       Government Reform Committee Subcommittee on National Security and Foreign Affairs, “Strategy on Afghanistan and Pakistan;” 6/24/2009,
       p. 10.
144.   Statement of Mr. Richard C. Holbrooke, Special Representative for Afghanistan and Pakistan, Department of State before House Oversight and
       Government Reform Committee Subcommittee on National Security and Foreign Affairs, “Strategy on Afghanistan and Pakistan;” 6/24/2009,
       p. 10.
145.   UN Security Council Resolution 1806, 3/20/2008, p. 1.
146.   UN Security Council Resolution 1806, 3/20/2008, p. 1.
147.   White House, Press Release, “Statement by President Barack Obama on the Start of the Afghan Election Campaign,” 6/16/2009.
148.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 41.
149.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 41.
150.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 41.
151.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009, p. 6.
152.   IEC Fact Sheet, “Security on Election Day,” www.iec.org.af/assets/PDF/FactSheet/eng/fs9E.pdf, accessed 7/18/2009.
153.   EIU, “Afghanistan Country Report,” 4/2009, p. 13.
154.   USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–03/1/2009, p. 3.
155.   IEC Fact Sheet, “Security on Election Day,” www.iec.org.af/assets/PDF/FactSheet/eng/fs9E.pdf, accessed 7/18/2009.
156.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009, p. 3.
157.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009, p. 3.
158.   IEC Fact Sheet, “Voter Registration,” www.iec.org.af/assets/PDF/PressRelease/IEC%20Press%20Release%20on%20Commencement%20of20%20
       VR%20project.pdf, accessed 7/18/2009; Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International
       Peace and Security,” 3/10/2009, p. 3.
159.   IEC Fact Sheet, “Voter Registration,” www.iec.org.af/assets/PDF/PressRelease/IEC%20Press%20Release%20on%20Commencement%20of%20
       VR%20project.pdf, accessed 7/18/2009.
160.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009, p. 3.
161.   IEC, Fact Sheet, “Independent Election Commission,” www.iec.org.af/assets/PDF/FactSheet/eng/fs1E.pdf, accessed 7/18/2009.
162.   IEC, Fact Sheet, “Independent Election Commission,” www.iec.org.af/assets/PDF/FactSheet/eng/fs1E.pdf, accessed 7/18/2009.
163.   IEC, Fact Sheet, “Independent Election Commission,” www.iec.org.af/assets/PDF/FactSheet/eng/fs1E.pdf, accessed 7/18/2009.
164.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009, p. 2;
       GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 61.
165.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009, p. 2.
166.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009, p. 3.
167.   IEC Statement, “Statement of the Independent Elections Commission Regarding the Determination of the Date for Holding the Presidential
       and Provincial Council Elections,” 3/4/2009; Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for Interna-
       tional Peace and Security,” 3/10/2009, p. 3.
168.   GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 156.
169.   GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 157.
170.   GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 62.
171.   GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 62.
172.   IEC, Fact Sheet, “Agents and Observers,” www.iec.org.af/assets/PDF/FactSheet/eng/fs8E.pdf, accessed 7/20/2009.
173.   IEC, Fact Sheet, “Agents and Observers,” www.iec.org.af/assets/PDF/FactSheet/eng/fs8E.pdf, accessed 7/20/2009.
174.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009, p. 3.




                                                  128                    SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                                         ENDNOTES




175. GIRoA, Electoral Law, Articles 17, 26; IEC, Fact Sheet, “Agents and Observers,” www.iec.org.af/assets/PDF/FactSheet/eng/fs8E.pdf, accessed
     7/20/2009.
176. IEC, Fact Sheet, “Counting and Transfer of Results,” www.iec.org.af/assets/PDF/FactSheet/eng/fs7E.pdf, accessed 7/18/2009.
177. IEC, Fact Sheet, “Counting and Transfer of Results,” www.iec.org.af/assets/PDF/FactSheet/eng/fs7E.pdf, accessed 7/18/2009.
178. IEC, Fact Sheet, “Counting and Transfer of Results,” www.iec.org.af/assets/PDF/FactSheet/eng/fs7E.pdf, accessed 7/18/2009.
179. IEC, Fact Sheet, “Counting and Transfer of Results,” www.iec.org.af/assets/PDF/FactSheet/eng/fs7E.pdf, accessed 7/18/2009.
180. IRI, “Afghanistan Public Opinion Survey,” 5/3/2009–5/16/2009, p. 11.
181. IRI, “Afghanistan Public Opinion Survey,” 5/3/2009–5/16/2009, p. 11.
182. IRI, “Afghanistan Public Opinion Survey,” 5/3/2009–5/16/2009, p. 8.
183. IRI, “Afghanistan Public Opinion Survey,” 5/3/2009–5/16/2009, p. 2.
184. IRI, “Afghanistan Public Opinion Survey,” 5/3/2009–5/16/2009, p. 2.
185. IRI, “Afghanistan Public Opinion Survey,” 5/3/2009–5/16/2009, p. 2.
186. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 1.
187. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 1.
188. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 3.
189. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 1.
190. World Bank, “Governance Indicators,” http://info.worldbank.org/governance/wgi/sc_chart.asp#, accessed 7/16/2009.
191. World Bank, “Governance Indicators,” http://info.worldbank.org/governance/wgi/sc_chart.asp#, accessed 7/16/2009.
192. World Bank, “Governance Indicators,” http://info.worldbank.org/governance/wgi/sc_chart.asp#, accessed 7/16/2009.
193. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, cover page.
194. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 62.
195. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 62.
196. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 6.
197. GIRoA, “The Afghanistan National Development Strategy,” /www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 63.
198. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 6.
199. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 2.
200. GIRoA, “The Afghanistan Compact,” 1/31/2006–2/1/2006, p. 3.
201. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 1.
202. EIU, “Afghanistan Country Profile 2008,” p. 4.
203. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 2.
204. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 1.
205. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 2.
206. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 2.
207. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, pp. 2–3.
208. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, pp. 1–3.
209. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 3.
210. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 3.
211. EIU, “Afghanistan Country Profile 2008,” p. 4.
212. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 3.
213. EIU, “Afghanistan Country Profile 2008,” p. 4.
214. EIU, “Afghanistan Country Profile 2008,” p. 4.
215. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 3.
216. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 3.
217. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 3.
218. EIU, “Afghanistan Country Profile 2008,” p. 4.
219. EIU, “Afghanistan Country Profile 2008,” p. 4.
220. LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 3.
221. EIU, “Afghanistan Country Profile 2008,” p. 4.
222. EIU, “Afghanistan Country Profile 2008,” p. 4; LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf,
     accessed 7/19/2009, p. 3.
223. EIU, “Afghanistan Country Profile 2008,” p. 6.




              REPORT TO THE UNITED STATES CONGRESS            I   JULY 30, 2009                129
                                                 ENDNOTES




224.   EIU, “Afghanistan Country Profile 2008,” p. 5.
225.   EIU, “Afghanistan Country Profile 2008,” p. 6.
226.   EIU, “Afghanistan Country Profile 2008,” p. 6.
227.   EIU, “Afghanistan Country Profile 2008,” p. 4.
228.   LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 3; GAO, Testimony
       Before the Committee on Armed Service, House of Representatives, Report GAO-09-476T, 3/25/2009, p. 2.
229.   UN, “Agreement on Provisional Arrangements in Afghanistan Pending the Re-establishment of Permanent Government Institutions,” 12/5/2001,
       p. 3.
230.   UN, “Agreement on Provisional Arrangements in Afghanistan Pending the Re-establishment of Permanent Government Institutions,” 12/5/2001,
       p. 3.
231.   EIU, “Afghanistan Country Profile 2008,” p. 4; LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf,
       accessed 7/19/2009, p. 3; UN, “Agreement on Provisional Arrangements in Afghanistan Pending the Re-establishment of Permanent Govern-
       ment Institutions,” 12/5/2001, p. 3.
232.   EIU, “Afghanistan Country Profile 2008,” p. 4; LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf,
       accessed 7/19/2009, p. 1; ISAF, “Chronology,” www.nato.int/isaf/topics/chronology/index.html, accessed 7/21/2009.
233.   LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 1.
234.   LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 17.
235.   ISAF, “Chronology,” www.nato.int/isaf/topics/chronology/index.html, accessed 7/21/2009.
236.   ISAF, “Chronology,” www.nato.int/isaf/topics/chronology/index.html, accessed 7/21/2009.
237.   Office of the President of Afghanistan, www.president.gov.af/sroot_eng.aspx?id=166, accessed 7/15/2009.
238.   GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Articles 61–64; IEC, Fact Sheet, “Presidential Election,” www.iec.org.
       af/assets/PDF/FactSheet/eng/fs4E.pdf, accessed 7/18/2009.
239.   IEC, Fact Sheet, “Presidential Election,” www.iec.org.af/assets/PDF/FactSheet/eng/fs4E.pdf, accessed 7/18/2009.
240.   GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 61.
241.   GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Articles 19, 26.
242.   GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 81.
243.   GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 83; LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.
       loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 16.
244.   GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 81.
245.   GIRoA, “The Afghanistan Compact,” 1/31/2006–2/1/2006, p. 3.
246.   GIRoA, “The Afghanistan Compact,” 1/31/2006–2/1/2006, p. 3.
247.   GIRoA, “The Afghanistan Compact,” 1/31/2006–2/1/2006, p. 3.
248.   GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Articles 60, 71, 81, and 116; LOC, “Country Profile: Afghanistan,” 8/2008,
       http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, pp. 15–16.
249.   GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
       ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 62.
250.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 41.
251.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 41.
252.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 44.
253.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 44.
254.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 44.
255.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 44.
256.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 44.
257.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 44.
258.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 44.
259.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 44.
260.   DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
       stan,” 6/2009, p. 44.




                                                   130                   SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                                        ENDNOTES




261. DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
     stan,” 6/2009, p. 45.
262. DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
     stan,” 6/2009, p. 44.
263. DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
     stan,” 6/2009, p. 44.
264. DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
     stan,” 6/2009, p. 44.
265. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 1.
266. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 63.
267. DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
     stan,” 6/2009, p. 46.
268. GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 81; LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.
     loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 16.
269. GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 82; LOC, “Country Profile: Afghanistan,” 8/2008, http://lcweb2.
     loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed 7/19/2009, p. 16.
270. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009, p. 11.
271. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf., accessed 7/19/2009, p. 150.
272. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf., accessed 7/19/2009, p. 150.
273. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf., accessed 7/19/2009, p. 150.
274. DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
     stan,” 6/2009, p. 46.
275. DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
     stan,” 6/2009, pp. 46–47.
276. DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
     stan,” 6/2009, pp. 46–47.
277. UNHCR, “2008 Global Trends: Refugees, Asylum-seekers, Returnees, Internally Displaced and Stateless Persons,” 6/16/2009, p. 9.
278. UNHCR, “2008 Global Trends: Refugees, Asylum-seekers, Returnees, Internally Displaced and Stateless Persons,” 6/16/2009, p. 9.
279. UNHCR, “2008 Global Trends: Refugees, Asylum-seekers, Returnees, Internally Displaced and Stateless Persons,” 6/16/2009, p. 10.
280. UNHCR, “2008 Global Trends: Refugees, Asylum-seekers, Returnees, Internally Displaced and Stateless Persons,” 6/16/2009, p. 11.
281. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 132.
282. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 133.
283. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 134.
284. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed 7/19/2009, p. 134.
285. DoS, response to SIGAR data call, 7/2/2009.
286. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 7.
287. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed, 7/19/2009, p.66.
288. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed, 7/19/2009, p. 65.
289. GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 116.
290. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed, 7/19/2009, p. 65.
291. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed, 7/19/2009, p. 65.
292. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed, 7/19/2009, p. 65.
293. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, accessed, 7/19/2009, p. 65.




              REPORT TO THE UNITED STATES CONGRESS           I   JULY 30, 2009                131
                                             ENDNOTES




294. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, p. 65.
295. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Develop-
     ment%20Strategy_eng.pdf, p. 71.
296. GIRoA, “The Afghanistan Compact,” 1/31/2006–2/1/2006, p. 3.
297. USAID, “An Information Management and Organizational Plan for the Judiciary of Afghanistan,” 2/2009, p. 5.
298. GIRoA, “Constitution of the Islamic Republic of Afghanistan,” 1/3/2004, Article 116.
299. DoS, response to SIGAR data call, 7/2/2009.
300. DoS, response to SIGAR data call, 7/2/2009.
301. DoS, response to SIGAR data call, 7/2/2009.
302. DoJ, response to SIGAR vetting, 7/16/2009.
303. DoS, response to SIGAR data call, 7/2/2009.
304. DoS, response to SIGAR data call, 7/2/2009.
305. DoS, response to SIGAR data call, 7/2/2009.
306. DoJ, response to SIGAR vetting, 7/16/2009.
307. DoS, response to SIGAR data call, 7/2/2009.
308. DoS, response to SIGAR data call, 7/2/2009.
309. DoJ, response to SIGAR vetting, 7/16/2009.
310. DoS, response to SIGAR data call, 7/2/2009.
311. DoS, response to SIGAR data call, 7/2/2009.
312. DoS, response to SIGAR data call, 7/2/2009.
313. DoS, response to SIGAR data call, 7/2/2009.
314. DoS, response to SIGAR data call, 7/2/2009.
315. DoS, response to SIGAR data call, 7/2/2009.
316. DoS, response to SIGAR data call, 7/2/2009.
317. DoS, response to SIGAR data call, 7/2/2009.
318. DoS, response to SIGAR data call, 7/2/2009.
319. DoS, response to SIGAR data call, 7/2/2009.
320. DoS, response to SIGAR data call, 7/2/2009.
321. DoS, response to SIGAR data call, 7/2/2009; DoS, response to SIGAR vetting, 7/16/2009.
322. DoS, response to SIGAR data call, 7/2/2009.
323. DoS, response to SIGAR data call, 7/2/2009.
324. DoS, response to SIGAR data call, 7/2/2009.
325. DoS, response to SIGAR data call, 7/2/2009.
326. DoS, response to SIGAR data call, 7/2/2009.
327. DoS, response to SIGAR data call, 7/2/2009.
328. GIRoA, “The Afghanistan Compact,” 1/31/2006–2/1/2006, p. 8.
329. DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
     stan,” 6/2009, p. 46.
330. DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
     stan,” 6/2009, p. 46.
331. DoD, Report to Congress in Accordance with 2008 National Defense Authorization Act, “Progress toward Security and Stability in Afghani-
     stan,” 6/2009, p. 46.
332. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 7.
333. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 7.
334. DoS, “Assistant Secretary for INL, Testimony before House Committee: Afghanistan Interdiction/Eradication of Illegal Narcotics and U.S. Lead
     Rebuilding Programs,” 9/12/2006.
335. DoS, “Assistant Secretary for INL, Testimony before House Committee: Afghanistan Interdiction/Eradication of Illegal Narcotics and U.S. Lead
     Rebuilding Programs,” 9/12/2006.
336. DoJ, response to SIGAR data call, 7/7/2009.
337. DoS, response to SIGAR data call, 7/2/2009.
338. DoS, response to SIGAR data call, 7/2/2009.
339. DoS, “International Narcotics Control Strategy Report: Volume 1- Drug and Chemical Control,” 3/2009, pp. 71–74.
340. DoS, “International Narcotics Control Strategy Report: Volume 1- Drug and Chemical Control,” 3/2009, p. 74.
341. DoS, “International Narcotics Control Strategy Report: Volume 1- Drug and Chemical Control,” 3/2009, p. 71.
342. DoS, “International Narcotics Control Strategy Report: Volume 1- Drug and Chemical Control,” 3/2009, p. 74.
343. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, pp. 1–3.




                                                132                  SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                                        ENDNOTES




344. GIRoA, “The Afghanistan Compact,” 1/31/2006–2/1/2006, p. 7; GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/
     ands/final_ands/src/final/Afghanistan%20National%20Development%20Strategy_eng.pdf, pp. 13–14.
345. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 7
346. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 1.
347. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 1.
348. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 7.
349. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 1.
350. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 1.
351. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 18.
352. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 2.
353. Testimony of Karl W. Eikenberry, Ambassador-Designate for the Islamic Republic of Afghanistan, before the Senate Foreign Relations
     Committee, 3/26/2009.
354. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, pp. 18, 19.
355. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 18.
356. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 20.
357. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 20.
358. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 20.
359. DoS, response to SIGAR vetting, 7/16/2009.
360. DoS, response to SIGAR vetting, 7/16/2009.
361. DoS, response to SIGAR vetting, 7/16/2009.
362. DoS, response to SIGAR vetting, 7/16/2009.
363. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009, p. 7–8.
364. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 251.
365. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, pp. 7–8.
366. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009, p. 7.
367. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 1.
368. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 1.
369. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 18.
370. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 28.
371. USAID, “Assessment of Corruption in Afghanistan,” 1/15/2009–3/1/2009, p. 28.
372. UN, “United Nations Convention of Corruption in Afghanistan,” 9/29/2003, pp. 1–2.
373. GIRoA, “Afghanistan National Development Strategy,” 6/2008, pp. 7–9.
374. USDA FAS, “Afghanistan,” 1/20/2009, p. 1.
375. IMF, “Islamic Republic of Afghanistan,” IMF Country Report No. 9/135, 5/1/2009, p. 4.
376. GAO, “Afghanistan: Key Issues for Congressional Oversight,” Report GAO-2009-473SP 4/20/2009, p. 21.
377. U.S. Treasury, response to SIGAR data call, 7/10/2009.
378. U.S. Treasury, response to SIGAR data call, 7/10/2009.
379. UNODC, “Annual Report: 2009,” 3/11/2009, p. 27.
380. World Bank, “The Money Exchange Dealers of Kabul: A Study of the Hawala System in Afghanistan,” 6/2003, p. 8.
381. U.S. Treasury, response to SIGAR data call, 7/10/2009.
382. USAID, response to SIGAR data call, 7/2/2009.
383. U.S. Treasury, response to SIGAR data call, 7/10/2009.
384. IMF, “Islamic Republic of Afghanistan,” IMF Country Report No. 9/135, 5/1/2009, p. 8.
385. U.S. Treasury, response to SIGAR data call, 7/10/2009.
386. U.S. Treasury, response to SIGAR data call, 7/10/2009.
387. CIA, “World Factbook: Afghanistan,” www.cia.gov, accessed 7/1/2009.
388. Da Afghanistan Bank, “Central Bank of Afghanistan Exchange Rate,” www.centralbank.gov.af, accessed 7/1/2009.
389. IMF, “Islamic Republic of Afghanistan,” IMF Country Report No. 9/135, 5/1/2009, p. 7.
390. GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 5.
391. CIA, “World Factbook: Afghanistan,” www.cia.gov, accessed 7/1/2009; DoS, response to SIGAR vetting, 7/16/2009.
392. CIA, “World Factbook: Afghanistan,” www.cia.gov, accessed 7/1/2009.
393. GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 8.
394. USAID, response to SIGAR vetting, 7/16/2009.
395. USAID, “USAID/Afghanistan Strategy,” http://afghanistan.usaid.gov/en/Page.CountryOverview.aspx, accessed 7/3/2009.
396. USAID, response to SIGAR data call, 7/2/2009.
397. USAID, response to SIGAR vetting, 7/16/2009.
398. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2009,
     pp. 3–4.




              REPORT TO THE UNITED STATES CONGRESS           I   JULY 30, 2009                133
                                               ENDNOTES




399.   GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 10.
400.   GAO, “Afghanistan: Key Issues for Congressional Oversight,” Report GAO-09-473SP 4/2009, p. 23.
401.   GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 11.
402.   USAID, “USAID:/Afghanistan Strategy,” http://afghanistan.usaid.gov/en/Page.CountryOverview.aspx, accessed 7/3/2009.
403.   GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 9.
404.   USAID, response to SIGAR data call, 7/2/2009.
405.   USAID, response to SIGAR data call, 7/2/2009.
406.   CENTCOM, response to SIGAR data call, 7/9/2009.
407.   UNICEF, “Improving Access to Safe Water, Sanitation and Hygiene for Children in Afghanistan,” 3/17/2009, www.unicefusa.org/news/news-
       from-the-field/improving-access-to-safe.html, accessed 6/18/2009.
408.   UNICEF, “Improving Access to Safe Water, Sanitation and Hygiene for Children in Afghanistan,” 3/17/2009, www.unicefusa.org, accessed
       6/18/2009.
409.   USAID, “USAID: Afghanistan,” www.usaid.gov, accessed 6/9/2009.
410.   GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 11.
411.   GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 11.
412.   USAID, response to SIGAR data call, 7/2/2009.
413.   USAID, response to SIGAR data call, 7/2/2009.
414.   USAID, “USAID: Afghanistan,” www.usaid.gov, accessed 6/9/2009.
415.   USAID, response to SIGAR vetting, 7/16/2009.
416.   USAID, response to SIGAR data call, 7/2/2009.
417.   USAID, response to SIGAR data call, 7/2/2009.
418.   JICA, Japan International Cooperation Agency Web site,www.jica.go.jp/english, accessed 7/9/2009.
419.   Asian Development Bank, “Asian Development Bank: Our Vision,” www.adb.org, accessed 7/9/2009.
420.   GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 9.
421.   USAID, “USAID: Afghanistan: Infrastructure,” www.usaid.gov, accessed 6/9/2009.
422.   CRS, “Afghanistan: U.S. Foreign Assistance,” 7/8/2009, p. 4.
423.   USAID, “Road Update: Afghanistan,” 2/2007, p. 1.
424.   USAID, “USAID and Afghan Ministry of Transportation & Civil Aviation Open Lashkar Gah’s Bost Airstrip,” 6/3/2009, http://afghanistan.usaid.
       gov/en/Article.674.aspx, accessed 7/1/2009.
425.   CIA, “World Factbook: Afghanistan,” www.cia.gov, accessed 7/16/2009.
426.   USDA FAS, “Afghanistan,” 1/2009, p. 2; USAID, response to SIGAR vetting, 7/16/2009.
427.   GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 12.
428.   USDA, “Fact Sheet: USDA at Work for Agriculture in Afghanistan,” 5/2009.
429.   GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 12.
430.   USAID, response to SIGAR vetting, 7/16/2009.
431.   GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 12.
432.   USAID, “USAID and Afghan Ministry of Transportation & Civil Aviation Open Lashkar Gah’s Bost Airstrip,” 6/3/2009, http://afghanistan.usaid.
       gov/en/Article.674.aspx, accessed 7/1/2009.
433.   USAID, response to SIGAR vetting, 7/16/2009; USDA FAS, “Afghanistan: 2009/2010 Wheat Production Outlook Uncertain,” 12/11/2008.
434.   USDA FAS, “Afghanistan: 2009/2010 Wheat Production Outlook Uncertain,” 12/11/2008.
435.   USAID, response to SIGAR vetting, 7/16/2009.
436.   GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 8.
437.   GIRoA, Ministry of Mines Web site, http://mom.gov.af, accessed 7/16/2009.
438.   GIRoA, Ministry of Mines Web site, http://mom.gov.af, accessed 7/8/2009.
439.   GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 8.
440.   GIRoA, “Afghanistan National Development Strategy,” 6/2008, p. 14.
441.   GAO, response to SIGAR vetting, 7/16/2009.
442.   GAO, “Afghanistan: Key Issues for Congressional Oversight,” Report GAO-09-473SP, 4/2009, p. 21.
443.   CRS Report for Congress, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 5/22/2009, p. 21.
444.   USAID, response to SIGAR vetting, 7/16/2009.
445.   UNODC, “Afghanistan Opium Survey: 2008,” 8/2008, p. 1.
446.   DoS, response to SIGAR data call, 7/2/2009.
447.   DoS, “Counternarcotics and Law Enforcement Country Program: Afghanistan,” 1/20/2009; UNODC, “Afghanistan: Winter Opium Assessment,”
       1/2009, p. 11.
448.   Economist Intelligence Unit, “Country Report: Afghanistan,” 4/2009, p. 3; UNODC, “Afghanistan: Winter Opium Assessment,” 1/2009, p. 1.
449.   UNODC, “Afghanistan Opium Survey: 2008,” 8/2008, p. 4.
450.   Encyclopedia Britannica, “Definition: Hectare,” www.britannica.com, accessed 7/2/2009.
451.   DoS, response to SIGAR data call, 7/2/2009.




                                                 134                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                                        ENDNOTES




452.   UNODC, “World Drug Report 2009,” 6/24/2009, pp. 187–188.
453.   DoS, response to SIGAR data call, 7/2/2009.
454.   OSD-P, response to SIGAR data call, 7/8/2009.
455.   DoS, “International Narcotic Control Strategy Report,” 3/2009, p. 18.
456.   DoS, response to SIGAR data call, 7/2/2009; USAID, response to SIGAR vetting, 7/16/2009.
457.   DoS, response to SIGAR data call, 7/2/2009; DoS, response to SIGAR vetting, 7/16/2009.
458.   DoS, response to SIGAR data call, 7/2/2009.
459.   USAID, response to SIGAR vetting, 7/16/2009.
460.   DoS, response to SIGAR data call, 7/2/2009.
461.   DoS, response to SIGAR data call, 7/2/2009.
462.   USAID, response to SIGAR vetting, 7/16/2009.
463.   DoS, response to SIGAR data call, 7/2/2009.
464.   UNODC, “Afghanistan: Winter Opium Assessment,” 1/2009, pp. 10-–11.
465.   DoS, response to SIGAR vetting, 7/16/2009.
466.   DoS, “International Narcotic Control Strategy Report,” 3/2009, p. 106.
467.   DoS, “Counternarcotics and Law Enforcement Country Program: Afghanistan,” 1/20/2009.
468.   DoS, “International Narcotic Control Strategy Report,” 3/2009, p. 106.
469.   DoS, response to SIGAR follow-up question, 7/6/2009.
470.   DoS, response to SIGAR vetting, 7/16/2009.
471.   GAO, “Provincial Reconstruction Teams in Afghanistan and Iraq,” Report GAO-09-86R, 10/1/2008, pp. 2–3.
472.   GAO, “Provincial Reconstruction Teams in Afghanistan and Iraq,” Report GAO-09-86R, 10/1/2008, pp. 2–3.
473.   UNODC, “Afghanistan Opium Survey: 2008,” 8/2008, p. viii.
474.   DoS, response to SIGAR data call, 7/2/2009; DoS, response to SIGAR vetting, 7/17/2009.
475.   DoS, response to SIGAR data call, 7/2/2009.
476.   DoS, response to SIGAR data call, 7/2/2009.
477.   DoS, response to SIGAR data call, 7/2/2009.
478.   UNODC, “Global Decrease in Opium Cultivation Due to a Decrease in Afghanistan,” www.unodc.org/afghanistan, accessed 7/2/2009.
479.   UNODC, “World Drug Report 2009,” 6/24/2009, pp. 187–193.
480.   DoS, response to SIGAR data call, 7/2/2009.
481.   GAO, “Provincial Reconstruction Teams in Afghanistan and Iraq,” Report GAO-09-86R, 10/1/2008, p. 1.
482.   USAID, “Provincial Reconstruction Teams,” http://afghanistan.usaid.gov/en/Program.31.aspx, accessed 7/17/2009.
483.   GAO, “Provincial Reconstruction Teams in Afghanistan and Iraq,” Report GAO-09-86R, 10/1/2008, p. 5; DoS, response to SIGAR vetting,
       7/16/2009.
484.   GAO, “Provincial Reconstruction Teams in Afghanistan and Iraq,” Report GAO-09-86R, 10/1/2008, p. 7.
485.   GAO, “Provincial Reconstruction Teams in Afghanistan and Iraq,” Report GAO-09-86R, 10/1/2008, p. 8; GAO, response to SIGAR vetting,
       7/16/2009.
486.   USAID, response to SIGAR vetting, 7/16/2009.
487.   U.S. Army, “Agri-business Development Team Plants Seeds of Hope for Afghan People,” 7/6/2009.




               REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2009              135
                                                                         SIGAR
                               Special Inspector General for Afghanistan Reconstruction




                                     The National Defense Authorization Act (P.L. 110-181) established
                                     the Special Inspector General for Afghanistan Reconstruction (SIGAR).

                                     SIGAR’s mission is to enhance oversight of programs for the reconstruc-
                                     tion of Afghanistan by conducting independent and objective audits,
                                     inspections, and investigations on the use of taxpayer dollars and related
                                     funds and by keeping the Congress, as well as the Secretaries of State and
                                     Defense, currently informed of reconstruction progress and weaknesses.
                                     Afghanistan reconstruction includes any major contract, grant, agreement,
                                     or other funding mechanism entered into by any department or agency
                                     of the U.S. government that involves the use of amounts appropriated, or
                                     otherwise made available for the reconstruction of Afghanistan with any
                                     private entity to: build or rebuild physical infrastructure in Afghanistan;
                                     establish or re-establish political or societal institutions of Afghanistan;
                                     provide products or services to the people of Afghanistan.a

                                     a P.L.   110-181 “National Defense Authorization Act for FY 2008,” 1/28/2008.




Cover Captions (clockwise):
An Afghan girl sits outside at her elementary school in Bamyan Province. (SIGAR photo)
An Afghan laborer works on the construction site of a new police academy in Bamyan Province. (SIGAR photo)
Afghans post campaign signs in preparation for the upcoming presidential and provincial council elections, the first run by Afghanistan’s Independent Election
Commission since the Taliban was overthrown. (UN photo)
Afghan National Police recruits participate in entry-level training at the Central Training Center in Kabul. U.S. forces play a role in training recruits, who attend an eight-week
program of instruction. (DoD photo)
SIGAR
SPECIAL INSPECTOR GENERAL


                                                                                                          SIGAR                  Special Inspector General for   JULY 30,




                                 SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | JULY 30, 2009
FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                 Afghanistan Reconstruction       2009
2221 South Clark Street
Suite #800
Arlington, VA 22202-3712




                                 3                                                                        QUARTERLY REPORT TO THE UNITED STATES CONGRESS
